           October1,1,1999
          October      1999- March
                             - March31,
                                     31,2000
                                         2000




                                 OFFICE OF INSPECTOR GENERAL




SemiannualReport
Semiannual Report
       toCongress
      to Congress
   Including
 Including   Significant
           Significant   Activities
                       Activities ofof
                                    thethe Inspection
                                         Inspection   Service
                                                    Service
                     A Message from the
                     Inspector General
                     Our Investment in the New Millennium

                     A
                               s we enter the new millennium, the Office of Inspector General is
                               proud to have assisted the Postal Service in meeting its “Year 2000”
                               (Y2K) challenge. Working with Postal Service management and
                     staff, we helped to ensure that any disruptions of mail delivery were minimal
                     and that the Postal Service tradition of universal delivery continued. The
KARLA W. CORCORAN
 Inspector General   critical date of the Y2K challenge — January 1, 2000 — came almost three
                     years to the day after our inception in January 1997. This was without a
                     doubt the most visible area where we have had an overarching and continu-
                     ous impact that spanned the three years of our existence. In fact, our efforts
                     were recognized by Postmaster General Henderson at the January Board of
                     Governors meeting when he praised our work in assisting the Postal Service
                     in meeting its challenge so successfully.
                           Simultaneously, while working on the Y2K challenge, we continued to
                     provide the Postal Service and its stakeholders with value-added audit, inves-
                     tigative, and other services in numerous ways, including:
                     ◆   Developing and issuing our first video report, which brought to life
                         the unsafe and unsanitary conditions in a Postal facility that threat-
                         ened the health and safety of Postal employees and customers;
                     ◆   Testifying before Congress on our oversight responsibilities related to
                         the Postal Service’s business operations;
                     ◆   Working with Postal Service management to develop a public dis-
                         claimer, which fully discloses that the External First-Class Measure-
                         ment System is not a system-wide measurement of First-Class Mail
                         performance;
                     ◆   Identifying 20 trailers holding hundreds of thousands of pieces of mis-
                         reported, unprocessed mail up to three weeks old during the holiday
                         season, including Christmas advertising flyers, catalogs, small pack-
                         ages, and periodicals;
                     ◆   Evaluating the tray management system, a $.5 billion automated mail
                         movement and storage system, and questioning the accuracy of the
                         projected return on investment;
                     ◆   Reviewing costs and revenues on the Postal Service’s first Semi-
                         Postal Breast Cancer Research stamp and questioning whether the
                         Postal Service adequately accounted for and recovered all of its costs
                         in generating $8.6 million for breast cancer research;
                     ◆   Recovering about $3 million as a result of an ongoing investigation
                         of a major telecommunications contractor for improper billing;
                     ◆   Establishing a contract audit program to assist the Postal Service in
                         negotiating fair and reasonable contract prices and paying only for
                         allowable and supportable costs incurred by contractors, on which
                         the Postal Service spends over $7 billion each year; and
                     ◆   Launching a new program for issuing computer security advisories to
                         Postal management alerting them of potential weaknesses in systems
                         security.
                                                  In addition to these and other projects that we have conducted during the past six months, the
                                             Office of Inspector General received an award for “Best Special Event” and the President’s Award,
                                             the highest recognition a Federal agency can receive, for our employees’ participation in the 1999
                                             Combined Federal Campaign.
                                                  One of the highlights of this semiannual reporting period was our “Third Annual Recognition
                                             Day” ceremony. Representative John M. McHugh, Chairman, Subcommittee on the Postal Ser-
                                             vice, House Committee on Government Reform; Governor Einar Dyhrkopp, Chairman of the
                                             Postal Service Board of Governors; and Dan Blair, Senior Counsel, Senate Committee on Gov-
                                             ernmental Affairs, each spoke to our more than 400 employees, congratulating them on their suc-
                                             cesses and encouraging them to continue achieving the Office of Inspector General mission.
                                                  As a result of cooperative efforts among the Governors, Postal Service management, and oth-
                                             ers, we resolved two previously reported major challenges. Specifically, the Governors approved a
                                             revised “Designation of Functions” between the Inspection Service and the Office of Inspector
                                             General. The major changes to the revision included the Office of Inspector General being respon-
                                             sible for all audit work and expenditure investigations, and clarifying definitions between the two
                                             groups. In addition, the Governors approved an audit resolution process to aid in resolving dis-
                                             agreements between management and the Office of Inspector General.
                                                  We continue to work with the Governors and others on important issues such as Inspector
Chairman John McHugh of the House            General independence, the need for additional staffing to perform audits transferred from the
Subcommittee on the Postal Service           Inspection Service as a result of the newly approved designation of functions, and additional space
addresses all Office of Inspector General    requirements resulting from our changing needs.
staff at the Third Annual Recognition Day.        This Semiannual Report to Congress details our significant activities and accomplishments as
                                             well as those of the Inspection Service from October 1, 1999, through March 31, 2000. Submis-
                                             sion of this report fulfills our reporting requirement under the Inspector General Act and Inspec-
                                             tion Service requirements under the Mail Order Consumer Protection Amendments of 1983. This
                                             report also represents a comprehensive status of the work of this office and the Inspection Service
                                             in combating fraud, waste, abuse, and mismanagement within the Postal Service.
                                                  In this reporting period, we issued 50 audit reports, including 18 contract audits performed for
                                             us by the Defense Contract Audit Agency, and 77 management advisory reports and other products.
                                             We also closed 64 investigations. These efforts resulted in over $33.6 million in questioned costs
                                             and funds to be put to better use. The work of approximately 2,100 Postal Inspectors included 176
                                             audits and 96 expenditure, financial, service, and revenue investigative reports which identified
                                             over $266 million in questioned and unsupported costs and more than $9 million in funds to be put
                                             to better use. Our combined efforts resulted in 463 written products to strengthen Postal Service
                                             programs and operations and over $308 million in monetary benefits.
                                                  Also, in the last six months, I have filled a key management position by appointing Richard
                                             Chambers as the Deputy Inspector General. In this role, Mr. Chambers will assist other members
                                             of our Management Committee and me in leading the Office of Inspector General. The Board of
                                             Governors and the Postal Service also experienced management changes. We look forward to
                                             working with John Walsh, from Connecticut, who was appointed by President Clinton to the Board
                                             of Governors, and John Nolan who was selected to be Deputy Postmaster General.
                                                  Four years ago no one could have predicted we would achieve so much in such a short period
                                             of time. We are proud of our hard work and accomplishments during our brief existence. We
                                             remain committed to working with the Inspection Service to help the Postal Service meet the chal-
                                             lenges of a competitive marketplace and assisting the Postal Service in achieving its mission. The
                                             new millennium will bring many changes, but we look forward to the challenges.
                                             Sincerely,




                                             Karla W. Corcoran
                                             Inspector General

                                             April 30, 2000


                                 PAGE 2      A MESSAGE FROM THE INSPECTOR GENERAL
Table of Contents
EXECUTIVE SUMMARY............................................................................................5
MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE ............................9
POSTAL SERVICE REPORTED ACCOMPLISHMENTS ..............................................17
OVERVIEW ............................................................................................................21
   Office of Inspector General ........................................................................22
   Inspection Service........................................................................................32
ORGANIZATION....................................................................................................35
   Office of Inspector General ........................................................................37
   Inspection Service........................................................................................41
GOALS AND STRATEGIES ....................................................................................43
   Office of Inspector General ........................................................................44
   Inspection Service........................................................................................45
CUSTOMER SERVICE ............................................................................................47
   Office of Inspector General ........................................................................48
   Inspection Service........................................................................................54
PERFORMANCE REVIEWS ......................................................................................57
   Office of Inspector General ........................................................................58
   ◆ Accepting and Processing ......................................................................58
   ◆ Transportation ..........................................................................................59
   ◆ Delivery ....................................................................................................60
   ◆ Marketing ................................................................................................61
   ◆ Legislative and Regulatory Reviews ......................................................62
   Inspection Service........................................................................................64
   ◆ Transportation ..........................................................................................64
   ◆ Delivery ....................................................................................................64
   ◆ Mail Theft ................................................................................................64
   ◆ Service Investigations..............................................................................66
FINANCIAL MANAGEMENT REVIEWS ..................................................................67
   Office of Inspector General ........................................................................68
   ◆ Financial Opinion Audits ......................................................................68
   ◆ Financial Related Reviews ......................................................................69
   ◆ Contracting and Facilities ......................................................................70
   ◆ Legislative and Regulatory Reviews ......................................................72
   Inspection Service........................................................................................73
   ◆ District and Installation Financial Audits..............................................73
   ◆ Contracts and Facilities Audits ..............................................................74
   ◆ Revenue Investigations ..........................................................................74
   ◆ Embezzlements..........................................................................................75
TECHNOLOGY REVIEWS ......................................................................................77
   Office of Inspector General ........................................................................78
   ◆ Year 2000 and Information Systems ......................................................78
   ◆ Developmental Reviews ..........................................................................79
   ◆ Computer Security ..................................................................................80

                                                                                                                          PAGE 3
              ◆ Electronic Commerce..............................................................................81
              ◆ Computer Intrusion ................................................................................82
              ◆ Legislative and Regulatory Reviews ......................................................82
              Inspection Service........................................................................................83
              ◆ Electronic Commerce..............................................................................83
         LABOR MANAGEMENT REVIEWS ........................................................................85
            Office of Inspector General ........................................................................86
            ◆ Violence in the Workplace ....................................................................86
            ◆ Workplace Climate..................................................................................87
            ◆ Healthcare ................................................................................................88
            ◆ Postal Employees Safety Enhancement Act ..........................................90
            ◆ Legislative and Regulatory Reviews ......................................................90
            Inspection Service ......................................................................................91
            ◆ Workplace Climate..................................................................................91
            ◆ Postal Robberies ......................................................................................91
            ◆ Drugs in the Workplace ..........................................................................92
            ◆ Workers' Compensation..........................................................................92
         OVERSIGHT REVIEWS OF INSPECTION SERVICE ..................................................95
            Office of Inspector General ........................................................................96
            ◆ Oversight of Inspection Service..............................................................96
            ◆ Legislative and Regulatory Reviews ......................................................97
         OTHER SIGNIFICANT REVIEWS ............................................................................99
            Office of Inspector General ....................................................................100
            ◆ Executive Investigations........................................................................100
            ◆ Legislative and Regulatory Reviews ....................................................100
            Inspection Service ....................................................................................102
            ◆ Physical Security ..................................................................................102
            ◆ Narcotics Offenses and Trafficking ......................................................102
            ◆ Child Exploitation ................................................................................103
            ◆ Prohibited Mail ......................................................................................104
            ◆ Postal Burglaries ....................................................................................104
            ◆ Mail Fraud ..............................................................................................105
            ◆ Money Laundering ................................................................................107
         APPENDICES ......................................................................................................108
            Appendix A - Closed Congressional Inquiries........................................109
            Appendix B - Reports Issued to Postal Management ............................114
            Appendix C - Findings of Questioned Costs ..........................................130
            Appendix D - Recommendations That Funds Be Put to Better Use....131
            Appendix E - Unresolved Reports ..........................................................132
            Appendix F - Summary of Inspection Service Actions
               Under 39 USC § 3005 and § 3007 ....................................................135
            Appendix G - Criminal Statistics ............................................................137
            Appendix H - Summary of Postal Service Investigative Activities
               Under 39 USC § 3013 (prototype) ....................................................138
            Hotline Poster ............................................................................................139




PAGE 4   TABLE OF CONTENTS
Executive Summary




  DID YOU
  KNOW?
 What is the OIG’s primary responsibility?
 The primary responsibility of the OIG is to
 prevent, detect, and report fraud, waste,
 abuse, and mismanagement, and to promote
 efficiency in the programs and operations of
 the Postal Service.




                                                PAGE 5
                                              This Executive Summary highlights the               ◆   developing measures and assessing
                                              Office of Inspector General (OIG) and                   performance;
                                              Inspection Service accomplishments from             ◆   ensuring data integrity and reliability;
                                              October 1, 1999, through March 31,                  ◆   leveraging technology;
                                              2000, that are contained in this
                                                                                                  ◆   maintaining computer security; and
                                              Semiannual Report to Congress.
                                                                                                  ◆   increasing customer service and satisfac-
                                                                                                      tion.
                                              EXECUTIVE SUMMARY                                   The following highlights the


                                              T
                                                      his Executive Summary provides a brief      accomplishments of the OIG and
                                                      synopsis of the work reported during this   Inspection Service under the specific
                                                      six-month period. This issue of our         subject areas:
                                              Semiannual Report addresses the major chal-
                                              lenges the Postal Service faces as it enters the    (1) The area of customer service highlights
The OIG Management Committee consists         21st century and the many reviews performed—        the OIG and Inspection Service commitment
of (left to right) Deputy Inspector General   from preparing for Year 2000 (Y2K) readiness,       to providing the best quality customer service
Richard Chambers and Assistant
                                              to exploring electronic commerce and comput-        available.
Inspectors General Sylvia Owens and
Ronald Merryman; Inspector General            er intrusion issues, to investigating mail thefts   (2) The area of performance focuses on the
Karla Corcoran; Assistant Inspectors          and workplace violence—that help improve            critical core business processes needed to suc-
General Norm Hancock and Billy Sauls;         Postal operations.                                  ceed in a competitive environment. The OIG
and General Counsel Tom Coogan. (Not               The OIG and the Inspection Service con-        conducted 27 reviews in this area, which
pictured; Executive Representative for
                                              duct reviews and investigations—independent-        included projects that will help save the Postal
Field Liaison Colleen McAntee)
                                              ly and collaboratively—that play a vital role in    Service over $30 million in current and future
                                              helping the Postal Service make improvements.       years. A few examples of work in this area
                                              Work performed by both the OIG and the              include:
                                              Inspection Service is included in this report.      ◆   working with Postal Service management
                                              We have included examples of Inspection Ser-            to develop a public disclaimer, which
                                              vice work to present Congress and the Gover-            fully discloses that the External First-
                                              nors with a unified report of the work being            Class Measurement System is not a sys-
                                              done within the Postal Service to combat fraud,         tem-wide measurement of First-Class
                                              waste, abuse, and mismangement.                         Mail performance;
                                                   In this, the OIG’s seventh Semiannual          ◆   disclosing that the Postal Service could
                                              Report, the work has been categorized into              save $28 million over five years by reduc-
                                              seven subject areas: customer service, perfor-          ing contract rates where Postal Service
                                              mance, financial management, technology,                employees perform ground-handling ser-
                                              labor management, oversight of the Inspection           vices expected to be performed by aircar-
                                              Service, and other significant issues. We               riers;
                                              believe this format provides a clear understand-    ◆   determining that the Postal Service had
                                              ing of where our work falls within the ten major        not recovered some allowable costs asso-
                                              management and program challenges facing the            ciated with Breast Cancer Research
                                              Postal Service, which include:                          Stamp Program; and
                                              ◆   reforming the regulatory environment;           ◆   identifying that $6 million in stamp
                                                                                                      stock, stored on a loading dock, was not
                                              ◆   managing affordability by controlling
                                                                                                      properly accounted for or adequately
                                                  costs
                                                                                                      secured at a Processing and Distribution
                                              ◆   growing and protecting revenues;                    Center.
                                              ◆   improving workplace climate and labor           The Inspection Service completed 12 audits
                                                  relations;                                      related to area, district, and local issues, and
                                              ◆   maintaining a safe and healthy work-            numerous investigations, such as:
                                                  place;



                                 PAGE 6       EXECUTIVE SUMMARY
◆   vehicle inventories and surface trans-           ◆   working with Postal management to suc-
    portation operations;                                cessfully implement the Y2K emergency
◆   controls over carrier overtime; and                  response capability;
                                                     ◆
◆   mail theft, resulting in arrests of 404
    employees and 2,522 nonemployees.
                                                         reviewing the Tray Management System
                                                         and identifying that the return on invest-
                                                                                                                  DID YOU
(3) In the area of financial management,
                                                         ment was significantly overstated and                    KNOW?
                                                         that equipment maintenance labor and
which incorporates financial opinion and other           operating costs will be at least $27.9 mil-
related financial reviews, contracting, and              lion more than projected; and
facilities practices, the OIG completed 65
                                                                                                       What are the OIG “values?”
                                                     ◆   issuing the OIG’s first Computer Security
reviews and conducted investigations resulting           Advisory to assist Postal management in       The OIG’s values are teamwork,
in one conviction, nine arrests, two indict-             improving computer security.                  leadership, creativity, communica-
ments, and recoveries and restitution of over
                                                     The Inspection Service:                           tion, and conceptualization, that
$1.1 million, which included:
                                                     ◆ developed a two-day training course for
◆   an audit of the San Mateo accounting ser-                                                          are incorporated into a 360-
                                                     Postal Inspectors and others entitled Com-
    vice center that resulted in eight financial
                                                     puter Searches and Internet Investigations.       degree employee evaluation sys-
    accounting adjustments that increased
                                                     In November, reporters from ABC’s “20/20”
    income by $32.5 million;                                                                           tem called “TLC3.”
                                                     visited the new computer class to highlight
◆   a review of cost containment measures            the new role of Postal Inspectors as “cyber-
    to reduce the Postal Service budgeted            cops.”
    expense by $400 million during Fiscal
    Year (FY) 1999, which disclosed that             (5) The labor management area focuses on
    specific guidance on cost reductions was         issues related to violence in the workplace,
    needed to ensure that strategic goals            workplace climate, health care, and the Postal
    were not impacted; and                           Employees’ Safety Enhancement Act. During
◆   an investigation into a contract with a          this reporting period, the OIG conducted 44
    large telecommunications contractor that         reviews in this area, including:
    resulted in a recovery of $900,000 in this       ◆   the OIG’s first video report documenting
    reporting period, for a total recovery of            unsafe working conditions at a South-
    $2.9 million to date.                                west station;
In addition to other work, the Inspection Service:   ◆   a review that substantiated allegations of
◆   reported the results of 2 opinion audits,            a hostile work environment that
    135 financial installation audits, and 18            increased the risk of violence in a South-
    District Accounting Office audits, for a             east Area post office; and
    total of 155 audits, which identified over       ◆   an investigation of a healthcare provider
    $126,000 in revenue deficiencies;                    that revealed a Postal employee had been
◆   reported the results of eight contract               performing work on a physician’s resi-
    audits and one facility audit, which iden-           dence while collecting disability pay-
    tified $266 million in questioned costs;             ments.
    and                                              The Inspection Service:
◆   reported the results of 58 revenue inves-        ◆   arrested 13 individuals for selling drugs
    tigations during the reporting period,               on Postal property;
    which identified $12.6 million in rev-
                                                     ◆   conducted numerous workers’ compensa-
    enue deficiencies.                                                                                 Deteriorating lead-based paint recorded
                                                         tion investigations resulting in $66.4 mil-   in the OIG’s first video report concerning
(4) In the area of technology, which encom-              lion in long-term and continuation-of-        a Postal facility.
passes the Y2K initiative, information systems           pay cost saving for this reporting period;
and infrastructure, developmental systems,               and
telecommunications, and computer security,           ◆   arrested 230 individuals for assaults and
the OIG performed 11 reviews. Some of our                threats against Postal employees.
more significant activities include:



                                                                                                         PAGE 7
         (6) In the area of oversight of the Inspection
         Service, the OIG completed three reviews
         including:
         ◆   a review of the Postal Service’s process
             for determining the security clearance
             levels for non-Inspection Service
             positions.
         (7) Other significant reviews included pro-
         jects that do not readily fall into the other six
         categories. The 41 other OIG reviews included:
         ◆   investigations of Postal Service Career
             Executive Service employees who
             allegedly misused government-issued
             Citibank credit cards for personal pur-
             chases and improperly used Postal Ser-
             vice vehicles and drivers for personal
             transportation for about 2 1/2 years.
         The Inspection Service conducts numerous
         audits and investigations covering significant
         issues in the areas of physical security, narcotics
         offenses trafficking, child exploitation, prohibit-
         ed mail, Postal burglaries, and mail fraud.




PAGE 8   EXECUTIVE SUMMARY
Major Management Issues
Facing the Postal Service




      DID YOU
      KNOW?
     To whom does the Inspector General report?
     The Inspector General reports to the nine Postal Service
     Governors and not to the Postmaster General. Also,
     the Inspector General is required by statute to keep
     Congress informed of OIG activities.




                                                PAGE 9
                                                                                                 shipping and express industry. The Postmaster
                                           MAJOR MANAGEMENT                                      General has stated that competitors of the
                                           ISSUES FACING THE                                     Postal Service can move faster, act more agilely,
                                           POSTAL SERVICE                                        and thus, better respond to the changing mar-
          DID YOU                                                                                ketplace. To compete effectively and in concert


                                           D
                                                    uring the past five years, the Postal Ser-
          KNOW?                                     vice has made notable improvements in
                                                                                                 with the needs of its customers, the Postal Ser-
                                                                                                 vice believes it needs commercial freedoms,
                                                    its financial position and delivery per-
                                                                                                 including market-based pricing and the ability
Does the OIG have access to                formance. It has recorded positive net income
                                                                                                 to generate income for investment. Unlike
                                           and maintained or improved the overall deliv-
all Postal Service documents               ery of certain specific classes of mail. However,
                                                                                                 many of the foreign posts that have been priva-
                                                                                                 tized or deregulated, the Postal Service is limit-
and information?                           the Postal Service is entering a new era. It
                                                                                                 ed in its ability to invest, enter into forward-
                                           expects declines in some of its core business
The Inspector General Act                                                                        looking pacts with labor, or seek new alliances
                                           areas in the coming years. The growth of the
                                                                                                 and new markets because of legal restrictions.
specifically provides that the             Internet, electronic communications, and elec-
                                                                                                       While many stakeholders agree that reform
                                           tronic commerce all have the potential to sub-
Inspector General is authorized                                                                  of our nation’s postal laws is needed, identifying
                                           stantially affect mail volume and traditional
“to have access to all records,                                                                  and implementing the right changes presents a
                                           revenue stream. As a result, the Postal Service
                                                                                                 difficult challenge. The Postal Modernization
reports, audits, reviews, docu-            may experience difficulty maintaining its posi-
                                                                                                 Act, H.R. 22, would give the Postal Service
                                           tion in a dynamic communications and delivery
ments, papers, recommendations,                                                                  greater freedom to compete, while establishing
                                           environment.
                                                                                                 new rules to ensure fair competition and protect
or other material available to the              In the emerging electronic age, in which
                                                                                                 the public interest. Since H.R. 22 was reintro-
                                           some segments of the population are changing
applicable establishments.”                the way they communicate and do business, the
                                                                                                 duced in Congress in January 1999, Postal man-
                                                                                                 agement has worked with the House Subcom-
                                           Postal Service must continue to respond to new
                                                                                                 mittee on the Postal Service to draft provisions
                                           customer requirements to meet its mission.
                                                                                                 to move the mailing industry forward, while
                                           Additionally, the outcome of proposed legisla-
                                                                                                 providing the Postal Service with competitive
                                           tive reforms could alter the fundamental regula-
                                                                                                 pricing in an effort to strengthen the value and
                                           tory framework that provides for the structure of
                                                                                                 relevance of the mail and respond to customer
                                           the Postal Service’s current operations. These
                                                                                                 needs.
                                           developments make it imperative for the Postal
                                                                                                       To address this major management chal-
                                           Service to (1) reform the regulatory environ-
                                                                                                 lenge during the coming year, among other
                                           ment; (2) manage affordability by controlling
                                                                                                 reviews, the OIG will:
                                           costs; (3) grow and protect revenues; (4)
                                           improve workplace climate and labor relations;        ◆   Assess statutory and regulatory provisions
                                           (5) maintain a safe and healthy workplace; (6)            that effect the development of electronic
                                           develop measures and assess performance; (7)              commerce products and services;
                                           ensure data integrity and reliability; (8) leverage   ◆   Determine whether the Postal Service
                                           technology; (9) maintain computer security;               has the commercial freedoms needed to
                                           and (10) increase customer service and satisfac-          compete in the Internet shipping market;
                                           tion.                                                     and
                                                These issues, their significance, and key        ◆   Assess the impact of current regulations
                                           OIG projects that address them are examined               on the Postal Service’s ability to offer
                                           below.                                                    incentives to attract and retain highly-
                                                                                                     qualified executives.
                                           REFORM THE REGULATORY
                                           ENVIRONMENT
                                                                                                 MANAGE AFFORDABILITY BY
                                                The Postal Service believes it is imperative     CONTROLLING COSTS
                                           to have the statutory authority to adapt to new
                                                                                                      The Postal Service’s ability to ensure uni-
The proposed H.R. 22 would provide regu-   conditions and demands due to rapid changes in
latory relief for the Postal Service.                                                            versal mail service at affordable rates is depen-
                                           electronic communications, coupled with the
                                                                                                 dent on controlling costs, strengthening inter-
                                           nation’s now mature and highly competitive
                                                                                                 nal controls, and improving productivity. Most


                               PAGE 10     MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
importantly, aggressive cost management will         ◆    evaluate controls over Postal Service
be necessary to mitigate historic cost trends that        contracts for consulting, personal, and
drive rate increases. To control costs, the Postal        auditing services;
Service has launched an initiative to eliminate      ◆    monitor the rate case and review the
$4 billion in expenses by FY 2004. The majori-            methods used to gather and analyze data
ty of these reductions will come from break-              to support rate cases and associated costs;
throughs in productivity in Postal operations.       ◆    review the effectiveness of the Decision
Further, the Postal Service has taken steps to            Analysis Report process for making major
strengthen internal operating controls to avoid           investment decisions; and
unwarranted costs. While these actions are
                                                     ◆    determine whether the Mail Transporta-
important, they will not guarantee success
                                                          tion Equipment Service Centers are
unless the Postal Service ensures controls are            achieving stated performance and finan-
also adequate in future programs and initiatives.         cial goals.
Effective management of the Postal Service’s
capital investments is also critical if the Postal   GROW AND PROTECT REVENUES
Service is to achieve its projected return on              The Postal Service’s ability to adapt to                  OIG Open Criminal
investments. Given the Postal Service’s plan to      increasing competition is critical if it is to main-            Investigations By
spend billions of dollars on automation projects     tain a competitive position in the rapidly-                     Semiannual Period
over the next few years, it will need to ensure it   changing communications and delivery envi-                      NUMBER OF INVESTIGATIONS IN AN OPEN STATUS

must be prepared to meet the critical challenges     ronment. Increasing competition, particularly             300
of effectively implementing automation pro-          from electronic alternatives, has slowed the
jects within budget, obtaining the planned           growth of Postal revenue and is expected to                                                                   255
                                                                                                               250
savings on schedule, and improving overall           have a continuing impact on the Postal Ser-                                                        232

productivity.                                        vice’s financial viability in the next decade.
     Despite efforts to control costs and increase   According to the General Accounting Office                200                       189

productivity, the Postal Service requested rate      (GAO) and Postal Service, First-Class Mail
increases in January 2000 to cover its rising        volumes are expected to decline at an annual              150
operating costs in areas such as First-Class Mail,   rate of 2.5 percent from FY 2003 to FY 2008.
                                                                                                                          109
Express Mail, Parcel Post, and Periodicals. Such     Such a decline would be unprecedented in the              100
increases would allow the Postal Service to sup-     Postal Service’s history and would likely create
port its operations solely through sales of its      financial and performance challenges.
products and services. The rate-making process             The Postal Service has also encountered
                                                                                                                50


also affords the Postal Service the opportunity      increasing competition from the private sector
to pursue rate classification changes that would     and foreign posts. Increased competition places             0       9/30/98        3/31/99        9/30/99    3/31/00
benefit mailers. However, many Americans             billions of dollars of Postal revenues at risk. The
have the perception that the Postal Service rais-                                                           OIG investigations help to protect Postal
                                                     Postal Service has said that it will be challenged     Service revenues.
es rates more frequently than it actually does,      to find new revenue sources. Efforts by the Postal
and without regard to customers’ concerns and        Service to introduce new products and services
input. For this reason, the Postal Service con-      have frequently met with opposition and have
tinues to face challenges from its competitors as    caused controversy. Competitors and others
mailing groups and members of the public argue       have questioned whether it is appropriate for a
before the Postal Rate Commission against the        government entity with monopoly protection to
Postal Service’s proposed rate increases.            provide nontraditional products and services in
     To address this major management chal-          competition with the private sector. Members of
lenge during the coming year, among other            Congress, concerned that the Postal Service was
reviews, the OIG will:                               unfairly expanding its product line to compete
◆   identify opportunities for optimization          in non-Postal related markets, have introduced
    and cost savings within the Postal Ser-          legislation to curtail such activity.
    vice’s transportation networks;                        In addition to generating new revenue, the
◆   review the cost effectiveness of the Postal      Postal Service must ensure that postage and fees
    Service’s facilities site selection process;     for its products and services are collected. How-


                                                                                                              PAGE 11
                                          ever, the Postal Service has not always had          commitment to elimenate violence from the
                                          effective controls to protect its revenues. With     workplace, the Postmaster General asked
                                          bulk mail business accounting for a substantial      Joseph A. Califano, Jr., to chair The United
                                          portion of the Postal Service’s annual revenue,      States Postal Service Commission on a Safe and
                                          the Postal Service will need to strengthen its       Secure Workplace. The five-member Commis-
                                          controls to improve the efficiency of its revenue    sion will investigate and analyze violence in the
                                          assurance process. Recent efforts to tighten con-    Postal Service, giving special attention to work-
                                          trols have met resistance from the mailing           related stress, substance abuse, and the work-
                                          industry and have been subject to congressional      place environment. The Commission’s draft
                                          scrutiny.                                            report will be issued in August 2000.
                                               To address this major management chal-                One area that historically has posed a chal-
                                          lenge during the coming year, among other            lenge to the Postal Service and its unions
                                          reviews, the OIG will:                               involves wage negotiations. For the first time in
                                                                                               a decade, the American Postal Workers Union
                                          ◆   Evaluate how marketing contributes to
                                              the successful development and promo-            and the National Postal Mail Handlers Union
                                              tion of Postal Service products and ser-         reached collective bargaining agreements with-
                                              vices;                                           out third-party arbitration. However, for one
                                                                                               union, the National Association of Letter Car-
                                          ◆   Review the effectiveness and manage-
                                                                                               riers, interest arbitration involving a third-party
                                              ment of the Postal Service Premier
                                                                                               arbitrator was used to settle contract disputes
                                              Accounts Program;
                                                                                               regarding employee wages. The interest arbitra-
                                          ◆   Determine whether revenues from large            tion award created expectations of grade level
                                              mailers cover associated costs and
                                                                                               and wage increases for clerk and mailhandler
                                              whether Postal Service procedures for
                                                                                               employees. These expectations will potentially
                                              large mailers are effective;
                                                                                               increase the tension between labor and manage-
                                          ◆   Assess the integrity and reliability of the      ment especially during future labor negotiations.
                                              verified drop shipment process; and                    The Postal Service has identified a number
                                          ◆   Assess the effectiveness of the Postal Ser-      of goals and strategies to improve its workplace
                                              vice’s revenue assurance process.                relations and to enhance various employee pro-
                                                                                               grams, such as its diversity program. However,
                                          IMPROVE WORKPLACE CLIMATE                            success of these efforts is unlikely without a part-
                                          AND LABOR RELATIONS                                  nership between Postal managers and employ-
                                               Labor-management relations remain one of        ees. Labor-management partnerships are also
                                          the Postal Service’s major challenges in meeting     critical if the Postal Service is to achieve its
                                          its goals and maximizing performance. With           overall financial goals. Employees and their
                                          about 900,000 full- and part-time employees, a       unions will have to embrace technological
                                          healthy work environment is key to maximizing        advancements that will improve customer ser-
                                          employee and organizational performance.             vice and ensure the financial viability of the
                                          However, the Postal Service has been hampered        Postal Service. However, Postal Service
                                          by persistent labor-management problems, such        announcements, that it will substitute capital
                                          as adversarial relationships, inadequate perfor-     for labor and further decrease the size of its
                                          mance measurement systems, and management            workforce, impact employee job security and
                                          styles that negatively affect productivity. Labor-   performance.
                                          management problems have also been perpetu-                Additionally, management receives incen-
                                          ated by numerous unresolved grievances that          tives under the Postal Service’s Economic Value
                                          have impaired initiatives to automate and            Added variable pay program. To achieve these
                                          improve the efficiency of Postal operations.         incentives, management sometimes engages in
                                          These problems have created barriers that have       behavior that employees view as adversarial.
The Califano Commission will recommend    often stood in the way of agreements between         This also adversely impacts employee produc-
steps to prevent violence in the Postal   the Postal Service and its labor unions.
Service workplace.
                                                                                               tivity. In order to become a more effective orga-
                                               As part of the Postal Service’s ongoing         nization, the Postal Service will have to evalu-



                                PAGE 12   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
ate the needs of its employees and resolve per-     and other processes that previously were not
sistent labor-management problems.                  applicable to the Postal Service for safety per-
     To address this major management chal-         sonnel, legal staff, and key operations staff; and
lenge during the coming year, among other           (3) revising the Postal Service’s financial sys-
reviews, the OIG will:                              tems to track expenses associated with imple-
                                                    menting the new requirements. Additional
◆   Assess the effectiveness of Postal Service
    initiatives to improve the organizational       challenges could come this year if the current
    climate;                                        ergonomic rule proposal, which ranges from
                                                    carpal tunnel syndrome from typing to a pulled
◆   Evaluate the criteria supporting violence
                                                    back muscle from heavy lifting, is implemented
    prevention strategies and the violence
                                                    because of the associated costs.
    prevention program to determine the
                                                         The Injury Compensation Program also
    impact on workplace climate and opera-
    tions;                                          poses additional management challenges.
                                                    Workers’ compensation medical costs under the
◆   Evaluate the appropriateness of the Eco-
                                                    Postal Service’s Injury Compensation Program
    nomic Value Added program as a perfor-
                                                    have risen dramatically between FY 1999 and
    mance measure;
                                                    FY 2000, and exceeded budgeted estimates. The
◆   Ascertain the effectiveness of workplace        Postal Service is particularly concerned about
    climate assessments; and                        the recent program-wide 20 percent increase
◆   Review the consistency of disciplinary          experienced in medical costs. The OIG has
    actions in the Postal Service.                  efforts underway to help the Postal Service
                                                    determine why these medical costs are increas-
MAINTAIN A SAFE AND                                 ing. In addition, the Postal Service is making a
HEALTHY WORKPLACE                                   concentrated effort to return employees to work
     Another significant challenge the Postal       and off of the periodic roll to aid in reducing the
Service faces is implementing the Postal            long-term workers’ compensation liability.
Employees Safety Enhancement Act, which                  To address this major management issue
became effective on September 28, 1998. The         during the coming year, among other reviews,
act requires the Postal Service to comply with      the OIG will:
Occupational Safety and Health Act require-
                                                    ◆    Assess the Postal Service’s implementa-
ments for private sector employers. According-
                                                         tion of the Postal Employees Safety
ly, the Postal Service may now face citations
                                                         Enhancement Act and its impact on the
and monetary penalties for noncompliance. As
                                                         organization and operations;
of March 2000, the Postal Service has been
assessed over $182,000 in fines. In complying       ◆     Review the Postal Service’s identifica-
with the act, Postal officials stated they would         tion of substandard facilities;
have to review and modify existing safety and       ◆    Assess the administration of light and
health policies, programs, procedures, systems,          limited duty assignments; and
training, and education programs, as well as        ◆    Assess the reasons for significant
modify recordkeeping procedures for accident             increases in medical costs in the Postal
and injury data. The Postal Service has begun            Service’s workers’ compensation pro-
new training initiatives on safety leadership for        gram, and identify overpayments to
operations managers and supervisors, and insti-          recipients and providers.
tuted a self-audit program process to improve
safety performance. Challenges associated with      DEVELOP MEASURES AND
implementing the requirements of the act            ASSESS PERFORMANCE
include: (1) modifying existing automated sys-            The Postal Service’s ability to maximize
tems at the same time the Postal Service was        performance in the face of increasing customer
forced to dedicate significant resources to meet    demands and choices calls for establishing
the Y2K computer challenge; (2) developing          processes to accurately assess performance
and implementing training programs on judicial      results. This year the Postal Service published
                                                    its first annual performance report under the


                                                                                                          PAGE 13
                                        Government Performance and Results Act.               sionmaking. In many instances, the OIG has
                                        This report should help the Postal Service,           found that the Postal Service does not capture
                                        Congress, and other stakeholders assess the           the necessary data to support effective decision-
                                        Postal Service’s performance in the past fiscal       making. Despite the importance of reliable data,
                                        year against the goals in its performance plan. In    a recent study by an outside contractor on data
                                        this regard, it will be important for the Postal      reliability within the Postal Service, concluded
                                        Service to continue to make tangible progress         that the increasing pace of change in the envi-
                                        toward implementing a complete set of perfor-         ronment and technology of the Postal Service’s
The “...Annual Performance              mance measures and targets for its critical func-     operations have led participants, including
Plan for FY 2000 sets goals,            tions and program areas. For example, in FY           ratemakers, to criticize the quality of the Postal
indicators and targets that             2000, the Postal Service intends to develop new       Service’s data and procedures. Given the impor-
continue the transformation             measures to assess the timeliness of the delivery     tance of data quality to setting Postal rates, the
of the Postal Service into a            of international mail, publications, and bill pay-    Postal Service will need to demonstrate to Con-
proactive, mission-driven,              ments sent through the mail. Additionally, the        gress, the Postal Rate Commission, stakehold-
customer-focused organiza-              Postal Service will need to establish indicators      ers, and the public that it is making progress in
tion that is responsive to the          for strengthening labor-management relations,         improving the quality of its cost data.
requirements of the Ameri-
                                        improving the consistency and accuracy of mail              To address this major management chal-
can public, the challenges of
                                        delivery, and measuring employee proficiency.         lenge during the coming year, among other
a rapidly changing market-
place and the needs of                  These measures will help the Postal Service           reviews, the OIG will:
employees. ”                            fully assess its progress toward meeting its goals.
                                                                                              ◆   Assess the reliability of the financial
                                             To address this major management chal-
       The Postal Service FY 2000                                                                 statements and test financial data at
        Annual Performance Plan         lenge during the coming year, the OIG will                Postal installations;
                                        monitor each program through audits or reviews
                                        to assure that the Postal Service is developing       ◆   Evaluate the controls and accuracy of
                                        appropriate measures to assess program perfor-            data contained in the accounting system
                                                                                                  that controls revenue generated by
                                        mance. In addition, the OIG will:
                                                                                                  postage meters;
                                        ◆    Evaluate the sufficiency and appropriate-
                                                                                              ◆   Assess the accuracy of fuel cost
                                             ness of the Priority End-to-End measure-
                                                                                                  reimbursements;
                                             ment system; and
                                                                                              ◆   Assess Delivery Confirmation program
                                        ◆    Monitor and report on the Postal Ser-
                                             vice’s efforts to comply with the Govern-            controls and the accuracy of customer
                                             ment Performance and Results Act.                    delivery status information; and
                                                                                              ◆   Examine the accuracy and support for trav-
                                        ENSURE DATA INTEGRITY AND                                 el expenses incurred for international trips.
                                        RELIABILITY
                                             Accurate measurement of mail delivery is         LEVERAGE TECHNOLOGY
                                        key to the Postal Service’s efforts to improve and          The Postal Service is seeking ways to lever-
                                        sustain service performance. However, ques-           age technology to improve its service, produc-
                                        tions have been raised concerning the integrity       tivity, and profitability. While it depends on
                                        of data used to measure the timeliness of             technology to deliver more than 650 million
                                        overnight First-Class Mail delivery. Last year,       pieces of mail every day, the Postal Service must
                                        the OIG identified several weaknesses that            continue to adapt to each new wave of technology
                                        could compromise the validity of the Postal           quickly to maintain its competitive position in
                                        Service’s reporting system during reviews of rail     the market. Doing so is critical because expec-
                                        detention costs and the equipment preventive          tations from businesses and individual cus-
                                        maintenance program. In response, the Postal          tomers will continue to be shaped by what they
                                        Service has revised and updated instructions on       see as they “surf the net.” Customers will expect
                                        volume reporting and will deliver this year a         complete tracking capabilities and a full set of
                                        training course on data integrity, reporting, and     business transactions that can be completed on
                                        reliability.                                          their personal computers at the office or at
                                             Reliable data is also a key to effective deci-   home. To address changing customer needs, the


                              PAGE 14   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
Postal Service is developing an “information         dent. Threats of such actions are increasing, in
platform” to help ensure better data manage-         part, because the number of individuals with
ment, tracking of mail piece information, com-       computer skills is increasing and because intru-
munications between the Postal Service and its       sion or “hacking” techniques have become
customers, and activity-based costing.               readily available through magazines and com-
      The large size and diversity of the Postal     puter bulletin boards. In addition, natural disas-
Service customer base will also present techni-      ters and inadvertent errors by authorized com-
cal challenges and demand that solutions are         puter users can have devastating consequences
simple, easy to use, and competitive. To be suc-     if information resources are poorly protected.
cessful, the Postal Service must also ensure that          The Postal Service’s systems face the same
the corresponding cost savings projected             vulnerability to these risks as all businesses. To
through technology investments are realized by       combat these risks and protect the critical infor-
efficiently redeploying the resources replaced by    mation infrastructure, comprehensive computer
the new technology.                                  security programs must be developed. The
      To address this major management chal-         Postal Service is currently taking steps to
lenge during the coming year, among other            address these risks, however, resolving the risks
reviews, the OIG will:                               on a lasting basis, as with any organization, will
                                                     require substantial ongoing management atten-
◆   Evaluate performance and costs associat-
    ed with the Postal Service’s robotics pro-       tion. Because the Postal Service intends to
    gram;                                            position itself as a major participant in elec-
                                                     tronic commerce, the importance of adequate
◆   Monitor and evaluate the research and
                                                     computer security to operate such programs
    design for new automation initiatives
                                                     cannot be overemphasized.
    critical to the Integral Postal Facility;
                                                           To address this major management issue
◆   Assess performance and costs of new              during the coming year, among other reviews
    automated equipment used for business            and actions, the OIG will:
    mail acceptance and validation;
                                                     ◆   Conduct a comprehensive Postal-wide
◆   Monitor development of the information
                                                         review of computer security;
    platform to ensure it meets the needs of
    the Postal Service and achieves expected         ◆   Evaluate senior management involve-
    benefits; and                                        ment in the organization, planning, bud-
                                                         geting, policies, and implementation of
◆   Provide ongoing reviews of POS (Point
                                                         computer security;
    of Service) ONE development and
    deployment.                                      ◆   Assess Privacy Act concerns about auto-
                                                         mated information systems;
MAINTAIN COMPUTER SECURITY                           ◆   Review the Postal Service’s plans for
     Computers and electronic data have                  safeguarding against computer security
become indispensable to the critical operations          failures; and
of the Postal Service. However, this reliance on     ◆   Evaluate the security architecture over
automated systems increases the risk of fraud,           electronic commerce systems and ser-
inappropriate disclosure of sensitive data, and          vices.
disruption of critical operations and services.
The same factors that benefit operations—            INCREASE CUSTOMER SERVICE
speed and accessibility—also make it possible        AND SATISFACTION
for individuals and organizations to easily inter-        In today’s marketplace, customers have
fere with or eavesdrop on operations, possibly       choices about how they conduct transactions,
for purposes of fraud, sabotage, or other mali-      transmit messages, and deliver merchandise.
cious reasons. Recent highly-publicized attacks      Increasing service delivery and customer satis-
on major electronic commerce web sites               faction will be key to maintaining and building
revealed the loss of revenue and brand integrity     customer loyalty and growing new business.
that can accompany a computer security inci-         However, recent criticism about the manner in



                                                                                                          PAGE 15
          which the Postal Service recovers assessments
          from mailers because of their underpayments for
          postage and other fees threatens critical part-
          nerships the Postal Service has worked to estab-
          lish with its mailers. As the Postmaster General
          indicated at a recent conference, the success of
          the Postal Service depends on its partnerships
          with the mailing industry. Because the Postal
          Service’s efficiency and productivity are vol-
          ume-driven, it needs the volume and its associ-
          ated revenue to thrive in the future.
               The Postal Service also views its access to
          the American household as a unique asset that
          it can rely on in the face of increasing competi-
          tion. While this has been an asset, the Postal
          Service must also continue to develop products
          and services that retain their relevancy and
          value for customers with changing needs. Cus-
          tomer needs will also have to be satisfied in an
          increasingly complex manner, and the Postal
          Service will need to reshape the way it views its
          traditional role. It must quickly begin building
          the capabilities to succeed in this environment
          before the window of opportunity closes.
               To address this major management chal-
          lenge during the coming year, among other
          reviews, the OIG will:
          ◆   Assess the Postal Service’s electronic
              commerce environment and activities;
          ◆   Evaluate strategic/operational planning
              and budgeting for electronic commerce;
          ◆   Assess the Postal Service’s strategic and
              operational planning for shipments from
              Internet retailers;
          ◆   Assess the Postal Service’s treatment of
              mailers in the Revenue Assurance
              Process; and
          ◆   Evaluate controls over the development
              and implementation of specific electronic
              commerce systems.




PAGE 16   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
Postal Service Reported
Accomplishments




   DID YOU
   KNOW?
  Is the OIG part of the Postal Service?
  Yes, OIG employees are Postal Service
  employees; however, the OIG is not part
  of the Postal Service management chain.




                                            PAGE 17
          T
                  he OIG’s goal is to work in concert with    FINANCIAL MANAGEMENT
                  the Postal Service to ensure the Ameri-     ◆   Posted a positive net income for the fifth
                  can public receives the best mail deliv-        straight year and reduced expenses by
          ery service in the world. Highlighting the Postal       $675 million to compensate for lagging
          Service’s accomplishments provides context to           revenue.
          the OIG and Inspection Service activities. Dur-     ◆   Streamlined its cash management process
          ing the October 1999 through March 2000                 and received a Silver Alexander Hamil-
          timeframe, the Postal Service made strides in           ton Award in Cash Management from
          achieving its CustomerPerfect! goals. In addi-          Treasury and Risk Management maga-
          tion, the Postal Service announced the follow-          zine.
          ing accomplishments, which the OIG has cate-
                                                              ◆   Implemented several initiatives to reduce
          gorized in the areas of performance, financial          annual transportation costs, including a
          management, technology, and labor manage-               fuel program to save $25 million, a trailer
          ment.                                                   leasing program to save $3.5 million, and
                                                                  a highway emergency contract initiative
          PERFORMANCE
                                                                  to reduce costs by as much as $15 mil-
          ◆   Worked closely with the Postal Service
                                                                  lion.
              Subcommittee to formulate the Decep-
              tive Mail Prevention and Enforcement            ◆   Introduced additional credit card services
              Act. The act, which became law in                   at its 33,000 post offices, including a cash
              December 1999, enhances the Postal Ser-             back option from debit card purchases of
              vice’s ability to protect its customers from        Postal products and the acceptance of all
              deceptive sweepstakes mailings that lure            major credit cards.
              patrons into oversubscribing to magazines
              or buying unneeded and unwanted mer-            TECHNOLOGY
              chandise in an attempt to win prizes.           ◆   Successfully managed the Y2K rollover,
                                                                  ensuring the continuity of mission-critical
          ◆   Signed an agreement with the People’s
                                                                  systems and electronic interfaces with
              Republic of China, one of the largest
                                                                  business partners.
              markets for international mail, to
              improve existing services and seek oppor-       ◆   Introduced computerized postage that
              tunities to jointly develop new interna-            allows customers to print postage through
              tional mail services, while expanding               their personal computers, and licensed
              Global Priority Mail service to provide             Internet postage services to E-Stamp
              3- to 5-day service to the Czech Repub-             Corporation, Stamps.com, and Pitney
              lic, Hungary, Poland, Malaysia, Colum-              Bowes, Inc.
              bia, India, and South Africa.                   ◆   Deployed new Delivery Confirmation
          ◆   Created or expanded strategic alliances             Computers and hand-held scanners at
              with business partners to secure its posi-          36,000 facilities, which will extend infor-
              tion in the expedited and package mar-              mation technology capabilities further
              ket by expanding its alliance with DHL              into the delivery infrastructure to collect
              Worldwide Express, partnering with Air-             and communicate process indicators.
              borne Express in their Airborne@Home            ◆   Launched its Electronic Merchandise
              initiative, and expanding the pilot pro-            Return Service, Returns@ease, making
              gram with MailBoxes, Etc.                           e-Shopping returns easy and convenient
          ◆   Provided the drive and creativity that              for customers and retailers.
              resulted in unprecedented success of the        ◆   Began deployment of network intrusion
              Breast Cancer Research stamp. This                  software at key facilities to allow for the
              effort received the Winning Spirit Inno-            detection and monitoring of unautho-
              vation Award from the Women’s Infor-                rized network use.
              mation Network Against Breast Cancer.




PAGE 18   POSTAL SERVICE REPORTED ACCOMPLISHMENTS
LABOR MANAGEMENT
◆   Received the 1999 Director’s Award from
    the U. S. Office of Personnel Manage-
    ment for successfully implementing the
    Alternative Dispute Resolution program,
                                                               DID YOU
    and completed the first phase of its                       KNOW?
    restructuring of the Equal Employment
    Opportunity program by merging
    REDRESS and Equal Employment
                                                  Does the OIG investigate indi-
    Opportunity counseling to resolve com-
    plaints at the early stages.                  vidual labor management com-
◆   Received the prestigious Hammer Award         plaints?
    for launching 23 broad-ranging initia-
    tives promoting diversity at all levels of    Generally, the OIG does not
    the organization.                             review individual employee com-
◆   Developed an interim Occupational             plaints; however, as a new agency,
    Safety and Health Administration
    program that should be implemented in         the OIG has conducted reviews
    May 2000 to help manage citations and         of some complaints to develop an
    identify program areas that require
    improvement.                                  understanding of the Postal
                                                  culture and employee concerns.
KEY PERSONNEL CHANGES
     During this reporting period, there were
several key personnel changes for the Board of
Governors and Postal Service. In addition to
the arrival of Governor John Walsh, and
Deputy Postmaster General John Nolan, the
Board of Governors and the Postal Service have
experienced other changes in key positions.
Thomas Koerber, Secretary to the Board, will
retire in June 2000 and the Board selected
David Hunter and Bill Johnstone as Assistant
Secretaries. In addition, Mary Elcano, General
Counsel, who provided invaluable assistance for
the newly formed OIG, retired during this
reporting period. The OIG looks forward to
working with Mary’s replacement, Mary Anne
Gibbons, as well as Peter Jacobson, newly-
appointed Chief Technology Officer, and
Patrick Donahoe, newly appointed Senior Vice
President for Human Resources.


                                                  Inspector General Corcoran
                                                  congratulates General Counsel Mary
                                                  Elcano on her retirement.




                                                    PAGE 19
PAGE 20   POSTAL SERVICE REPORTED ACCOMPLISHMENTS
Overview




  DID YOU
  KNOW?
 How do the OIG responsibilities differ
 from the Inspection Service?
 The OIG’s main responsibilities are
 detecting fraud, waste, abuse, and mis-
 management, and promoting efficiency of
 operations. The Inspection Service is
 mainly concerned with the security and
 sanctity of the mail and the safety of
 Postal Service employees.



                                           PAGE 21
                                              This section provides an overview of the             ◆   Provides expanded audit and investiga-
                                              OIG and Inspection Service internal opera-               tive coverage of all Postal Service opera-
                                              tions. To differentiate between the work                 tions and activities, including ratemak-
                                                                                                       ing, contract administration, labor man-
                                              reported by the OIG and Inspection Ser-
                                                                                                       agement, computer intrusion, electronic
                                              vice, the pages containing the Inspection
                                                                                                       commerce, and marketing;
                                              Service work have been color screened.
                                                                                                   ◆   Conducts technological evaluations and
                                                                                                       investigations in areas such as electronic
                                                                                                       commerce, computer intrusion, and com-
                                              OFFICE OF INSPECTOR                                      puter security with experienced, specially
                                              GENERAL                                                  trained staff;
                                                                                                   ◆   Provides oversight of the Inspection Ser-
                                              AN INDEPENDENT VOICE                                     vice and performs independent reviews of
                                                    The OIG is independent of Postal Service           complaints against its employees;
                                              management and is under the general supervi-         ◆   Facilitates audit resolution, which pro-
                                              sion of nine Presidentially-appointed Postal             vides a mechanism for resolving findings
                                              Governors who also oversee Postal Service                and recommendations where the OIG
                                              management. In January 1997, Karla W.                    and Postal management disagree;
                                              Corcoran was appointed the first independent         ◆   Adds value to Postal Service operations,
                                              Inspector General of the Postal Service. From            contributes to a more economical and
                                              1988 until the establishment of this office in           efficient organization, and helps the
                                              1997, the Chief Postal Inspector performed dual          Postal Service maintain its integrity
                                              roles as the Inspector General and Chief Postal          through independent investigations,
                                              Inspector and reported to the Postmaster Gen-            audits, and reviews;
                                              eral.                                                ◆   Serves as a venue for all Postal employees
                                                    In carrying out its responsibility under the       and other stakeholders to report fraud,
                                              Inspector General Act, the OIG:                          waste, abuse, mismanagement, and other
                                              ◆   conducts independent audits and investi-             improprieties and concerns, with protec-
                                                  gations of Postal Service programs and               tion from management retaliation; and
                                                  operations to help ensure the economy,           ◆   Achieves cost savings, enhances contract
The Strategic Plan reinforces the                 efficiency, effectiveness, and integrity of          and program administration, and increas-
OIG vision and values.                            the Postal Service;                                  es employee and program efficiency and
                                              ◆   exercises oversight responsibility for all           integrity.
                                                  activities of the Inspection Service;                 To improve Postal Service programs and
                                              ◆   keeps Congress, the Postal Service Gov-          operations, the OIG provides objective infor-
                                                  ernors, and management fully informed            mation, analysis, and recommendations. The
                                                  about problems, deficiencies, and the            OIG is continuing to work with Postal Service
                                                  progress of corrective actions; and              management to inform them of the duties and
                                              ◆   shares with the Inspection Service a goal        responsibilities of an independent OIG and
                                                  of improving Postal Service operations.          demonstrate how the OIG adds value to Postal
                                                                                                   Service processes.
                                              Benefits of an Independent Office of
                                                                                                   OIG Vision and Values
                                              Inspector General
                                                                                                        The vision of the OIG is “A Constellation of
                                                  As an independent and distinct entity
                                                                                                   Talented People Making a Difference.” This vision
                                              within the Postal Service, the OIG:
                                                                                                   reflects the OIG’s mission to shed light on prob-
                                              ◆   Provides management, the Governors,              lems and opportunities. The OIG emphasizes
                                                  and Congress, with timely, objective, and        five fundamental values:
                                                  complete information and analysis of
                                                                                                   ◆   Teamwork–synergy derived from people
                                                  Postal Service operations;
                                                                                                       with diverse backgrounds and ideas work-
                                                                                                       ing together to achieve better results;


                                    PAGE 22   OVERVIEW
◆    Leadership–applying interpersonal influ-         OIG Diversity
     ence to inspire others to move in a                    During the past six months, the OIG con-
     meaningful direction with competence             tinued to hire highly skilled staff from the
     and commitment;                                  widest sources available. As of March 31, 2000,
◆    Creativity–taking an innovative                  470 individuals were on board, of which 209
     approach to business problems or                 (44 percent) were women and 206 (44 percent)
     questioning and challenging the quality          were minorities. Based on the latest U.S.
     of conventional work, with the goal of           Bureau of the Census estimates, the OIG has
     improving Postal Service operations;             met or exceeded the U.S. percentage of total
                                                                                                                Diversity Statistics
                                                                                                                COMPARISON OF OIG TO CENSUS INFORMATION
◆    Communication–providing open, posi-              population for each minority group, except for
                                                                                                           Percentage
     tive, and honest exchange of information         Hispanics and Native Americans. The OIG
                                                                                                           50
     and ideas while showing respect for the          senior staff is 34 percent female and 28 percent
                                                                                                                                                   OIG     CENSUS
     contributions and opinions of others; and        minority.                                            40
                                                            In August 1999, the Governors approved a
◆    Conceptualization–visualizing “the big
                                                      FY 2000 budget of $72 million that allows the        30
     picture” and understanding how an indi-
     vidual action affects the bottom line or         OIG to hire a total of 648 employees and to
                                                      open offices in five additional locations. The       20
     ultimate goal of the organization;
     “keeping one’s eye on the ball.”                 OIG will complete hiring by May 31, 2000,
                                                      with all staff on board by July 31, 2000. To         10

OIG Culture                                           identify a diverse pool of highly-qualified candi-                                             4
                                                                                                            0
      The OIG culture demands that all people         dates for the additional positions that need to                   BLACK   HISPANIC   ASIAN    NATIVE AMERICAN


be treated fairly and be given the opportunity to     be filled, the OIG staff has attended numerous
develop their unique and diverse skills and abil-     conferences, colleges, and career fairs. With the
ities to their fullest potential. The OIG is com-     unemployment rate at historic lows, hiring
mitted to attracting a diverse and highly quali-      competent and talented individuals continues
fied workforce from government, the private           to be one of the OIG’s greatest challenges. In
sector, the Postal Service, and colleges and uni-     addition, the OIG may need to increase its
versities.                                            staffing levels and hiring efforts because begin-
      The OIG is proud of its professional and        ning this year, the Inspection Service will no
cultural diversity and is committed to develop-       longer perform field financial audits and other
                                                      local, district, and area performance audits.
ing and utilizing the talents of all its employees.
In order to ensure that the OIG employees are         Striving to Be a Model Organization
the best they can be, the OIG encourages                   The OIG strives to be a model organiza-
employees to attain and maintain professional         tion by using the latest available technology,
accreditation. Many OIG staff have advanced           the most innovative ideas of its employees, and
degrees and are Certified Public Accountants,         the best business practices of both the public
Certified Internal Auditors, Certified Fraud          and private sectors. One of its internal goals is
Examiners, Certified Information Systems              to become the most efficient, effective, and eco-
Auditors, and Certified Acquisition Auditors.         nomical organization possible. The OIG staff
In addition, a number of investigators hold law       works to establish best practices by benchmark-
enforcement specialty certifications in areas         ing with other organizations and exemplary per-
such as polygraph examinations and seized             formers. The OIG is also working to develop
computer evidence recovery, and all OIG crim-         streamlined policies to facilitate innovation. By
inal investigators have undergone rigorous            making its policies broad and flexible, OIG
training. By demonstrating professional skills        encourages creative thought and the develop-
and technical knowledge, the OIG will provide         ment of improved processes and procedures.
value-added services to Postal Service manage-        These include:
ment to help maintain a competitive edge in
                                                      ◆   Forming interdisciplinary project teams
today’s marketplace.
                                                          of criminal investigators, evaluators, sta-
                                                          tisticians, and attorneys for greater diver-
                                                          sity and objectivity;


                                                                                                            PAGE 23
                                          ◆   Using technology-based teams for com-           establishing common definitions, reviewing
                                              puter intrusion, information systems, and       legal requirements, and determining roles and
                                              electronic commerce audits;                     responsibilities that were in the best interest of
                                          ◆   Analyzing more data in a shorter time           the Postal Service. The revised Designation of
                                              through specialized teams that use com-         Functions will more clearly delineate the
                                              puter retrieval and system command lan-         respective responsibilities and enhance coordi-
                                              guages;                                         nation between the OIG and the Inspection
                                          ◆   Using electronic workpapers and devel-          Service.
                                              oping automated investigative programs               The major changes in the revised designa-
                                              that aid in the documentation and analy-        tion are:
                                              sis of data; and                                ◆ The OIG will perform all audits within
                                                                                                   the Postal Service, the Inspection Ser-
                                          ◆   Designing a Pay-for-Performance system
                                                                                                   vice will discontinue performing audits;
                                              that rewards employees who demonstrate
                                              superior performance and share the              ◆   The OIG will investigate all procure-
                                              vision and values of the organization.              ment fraud within the Postal Service, the
                                                                                                  Inspection Service will discontinue pro-
                                          NOTABLE OIG ACHIEVEMENTS                                curement/expenditure investigations
                                                                                                  except cash and money orders; and
                                          OIG Testimony at Oversight Hearing
                                                                                              ◆   The OIG will investigate thefts of Postal
                                               On October 21, 1999, the Inspector Gen-            funds resulting from improper expendi-
                                          eral, General Counsel, and Assistant Inspector          tures, including compromise of program
                                          General for Audits testified before the House           integrity, and the Inspection Service will
                                          Subcommittee on the Postal Service Commit-              conduct all revenue investigations and
                                          tee on Government Reform. The Inspector                 embezzlements where there is no formal
                                          General highlighted the OIG’s significant con-          contract and payments are made in cash
                                          tributions during the third year of the OIG’s           or money orders.
                                          existence and provided a synopsis of the OIG’s           In general, the revised Designation of
                                          work in the critical areas of performance, tech-    Functions also reflects a more defined line of
                                          nology, financial management, labor-manage-         investigative authority associated with revenue
                                          ment relations, and Inspection Service over-        investigations, e-Business/e-Commerce, civil
                                          sight. In addition, the OIG discussed the major     false claims, computer intrusion, executive
“I want to thank [the OIG]                challenges it faces and progress made in building   investigations, and service investigations. Cur-
who I think is doing an                   a new organization.                                 rently, the OIG is working with the Inspection
amazing job in establishing                                                                   Service to develop operating guidelines
                                          Designation of Functions Between the
an office and yet at the same                                                                 between the agencies to implement the revised
                                          OIG and Inspection Service
time not spending a lot of                                                                    Designation of Functions.
time getting acclimated but                    Over the last six months, the OIG and
                                          Inspection Service met to review the original            To obtain detailed information on the new
rather going out and making
a real difference to the                  Designation of Functions approved by the Gov-       Designation of Functions, please visit the
quality of service that the               ernors in March 1997. These meetings culmi-         respective web sites at www.uspsoig.gov or
Postal Service provides.”                 nated in a revised Designation of Functions         www.usps.gov/postalinspectors.
                                          approved by the Governors at their April 2000       Resolution Process for Audit Disagree-
The Honorable John M. McHugh
                        Chairman          board meeting. The original Designation of          ments
 Subcommittee on the Postal Service       Functions served as a preliminary charter when           By statute, the OIG conducts, supervises,
                                          the OIG was newly created in order to distin-       and coordinates all audits and audit-related ser-
                                          guish the OIG’s new role from the Inspection        vices within the Postal Service. Reports result-
                                          Service.                                            ing from these efforts frequently include find-
                                               Since 1997, the OIG and the Inspection         ings or observations with recommendations or
                                          Service realized that changes to the original       suggestions for corrective action on the part of
                                          Designation of Functions were needed to more        Postal management. Management is responsible
                                          clearly delineate respective investigative and      for providing timely responses to draft reports
                                          audit responsibilities. This process included       and implementing agreed upon recommenda-


                                PAGE 24   OVERVIEW
                   Designation of Functions
                                                                as of May 2000

                   OFFICE OF
             INSPECTOR GENERAL                                                                                INSPECTION SERVICE



• AUDIT                                                                                        • REVENUE/FINANCIAL INVESTIGATIONS
  – All audits                                                                                 – Theft or embezzlement of postal cash and
                                                                                                 money orders by employees and others
                                                                                                 where there is no formal contract
• DISBURSEMENT INVESTIGATIONS                                                                  – Fraudulent activity relating to mailings,
  – Contract/procurement fraud                                                                   postage, and meters
  – Improper expenditures except cash
     and money orders                                                                          • FRAUDULENT WORKERS’ COMPENSATION
  – IMPAC Card
                                                                                               • FRAUD AGAINST CONSUMERS, BUSINESS,
                                                                                                 AND GOVERNMENT (NON-POSTAL)
• HEALTH CARE FRAUD - USPS NEXUS                                                               • HEALTH CARE FRAUD - OTHER
  – Provider and contractor fraud
  – Health benefit program fraud                       JOINT FUNCTIONS                         • SECURITY CONSULTATION ON ELECTRONIC
                                                                                                 PRODUCTS AND SERVICES

• EMPLOYEE CORRUPTION                                                                          • CRIME PREVENTION AND SECURITY
                                             • RESPONSIBILITY FOR
  – Bribery                                        – e-business/e-commerce will be             • CRIMES OF VIOLENCE
  – Gratuities                                        determined in accordance with the
  – Conflict of Interest                              principles set forth in this document.   • DRUGS IN THE WORKPLACE

                                             • FUTURE E-COMMERCE ACTIVITIES WILL BE            • MAIL THEFT
• COMPUTER INTRUSION                           REVIEWED JOINTLY BY THE OIG AND                 • PROHIBITED MAILINGS
                                               INSPECTION SERVICE ON AN ONGOING                – Child Exploitation
• FRAUD AWARENESS BRIEFINGS                    BASIS.                                          – Bombs
  RELATED TO OIG RESPONSIBILITIES                                                              – Drugs
                                                                                               • ROBBERIES
• SECURITY PROGRAMS
  – Employment backgrounds (as request-                                                        • BURGLARIES
     ed by the Board of Governors)
                                                                                               • MONEY ORDERS, FINANCIAL
                                                                                                 INSTRUMENTS, AND POSTAL PROPERTY
• EXECUTIVE INVESTIGATIONS                                                                       CRIMES
  – Excludes crimes of violence
                                                                                               • SECURITY PROGRAMS
                                                                                               – Facilities, Mail, and Products
• QUI TAM                                                                                      – Employee Background Investigations
                                                                                               – Emergency Preparedness
• TORT CLAIM FRAUD                                                                             – International Security
                                                                                               – Service Investigations
• INSPECTION SERVICE OVERSIGHT                                                                 • ASSET FORFEITURE PROGRAM




                                        OVERVIEW                                                                        PAGE 25
                                       tions/suggestions. Both the OIG and manage-           Governors, through the Audit Committee, as
                                       ment personnel should make every effort to            outlined in Step 3.
                                       resolve differences of opinion concerning find-
                                                                                             Step 3. If agreement is not reached within 90
                                       ings/observations and recommendations/sugges-
                                                                                             days of the date of the final report, the Inspec-
                                       tions prior to issuance of draft reports, as appro-
                                                                                             tor General may elect to take the disagree-
                                       priate. However, despite the best efforts of all
                                                                                             ment(s) to the Governors for final resolution.
                                       involved, sometimes disagreements occur.
                                                                                             Generally, disagreements that the Inspector
                                            As indicated in the previous Semiannual
                                                                                             General determines meet one or more of the
                                       Report, the OIG and Postal management have
                                                                                             following criteria will be brought to the
                                       been working together to frame a process for
                                                                                             Governors:
                                       resolving disagreements on OIG audit and
                                       audit-related reports. During this period, the        ◆   material to the financial position of the
                                       audit resolution process was completed. The               Postal Service;
                                       process will serve as a vital mechanism for           ◆   have a potential significant impact on
                                       ensuring that disagreements are resolved on a             Postal-wide programs or operations; and
                                       timely basis at the appropriate level of manage-      ◆   involve highly visible or potentially
                                       ment. The process involves three phases in                embarrassing issues for the Postal Service.
                                       which unresolved disagreements are elevated to
                                                                                                  The Governors may elect to hear the dis-
                                       progressively higher levels of management
                                                                                             agreement directly, or they may ask the Audit
                                       within the Postal Service. The overall process is
                                                                                             Committee or some other designee to review
                                       outlined below.
                                                                                             and resolve the disagreement on their behalf.
                                            Final OIG reports are issued with a sum-
                                                                                             The decision of the Governors will represent
                                       mary of management’s comments in the body of
                                                                                             the final Postal Service position concerning the
                                       the report and the corresponding OIG evalua-
                                                                                             disputed issue. However, pursuant to statutory
                                       tion of those comments. When management
                                                                                             responsibilities, the Inspector General will
                                       disagrees, or the OIG determines that manage-
                                                                                             report the status of unresolved recommenda-
                                       ment’s comments are “not responsive,” the res-
                                                                                             tions and suggestions as well as the disposition
                                       olution process proceeds as follows:
                                                                                             of these disagreements in the Semiannual
                                       Step 1. The OIG will initiate a meeting with          Report to Congress. The approved process now
                                       the cognizant management committee member             governs the resolution of all disagreements
“I think that the cooperation          within 15 calendar days of the date of final          between management and the OIG on recom-
between postal management              report to discuss the disagreement(s) and reach       mendations/suggestions in audit and audit-
and OIG is a model case for            resolution if possible. If the disagreement is        related products.
how things ought to operate            resolved, the OIG will issue a letter describing
. . . the OIG played a major           how the disagreement was resolved.                    Y2K: “The Postal Service Was Ready!”
role in our being successful in                                                                   In March 2000, the Postal Service gathered
Y2K . . . ”                            Step 2. If the OIG and cognizant management           over 100 senior Postal Service managers for a
                                       committee member cannot resolve the dis-              special celebration of the Postal Service’s Y2K
           William J. Henderson
              Postmaster General
                                       agreement(s) at Step 1, the Inspector General         Initiative, which successfully ushered in the
                                       or designated representative will present the         new year. In addition to complimenting the
                                       issue and the reason for disagreement within 45       extraordinary efforts of Postal Service staff,
                                       calendar days after date of final report to the       Postmaster General Henderson singled out the
                                       postmaster general or designated representative       Inspector General and seven members of the
                                       for attempted resolution at Step 2. The post-         OIG’s Y2K audit team who were instrumental
                                       master general or the designated representative       in surfacing Y2K problems and recommending
                                       will work with the parties to reach agreement.        solutions for senior management attention. He
                                       If an agreement is reached, the OIG will issue a      thanked the OIG for the independent assess-
                                       letter describing how the disagreement was            ments of Postal Service contract administra-
                                       resolved. If an agreement is not reached, the         tion, testing, and contingency planning efforts.
                                       Inspector General will determine whether it is        This celebration was in addition to the recogni-
                                       appropriate to elevate the issue to the Board of      tion the OIG Y2K audit team received from the



                             PAGE 26
Executive Council on Integrity and Efficiency,     ◆    Served on the American Institute of
which last September, awarded the audit team            Certified Public Accountants “Task
the Council’s highest award, the Award for              Force on Government Auditors.” The
Excellence.                                             task force identifies and resolve conflicts
                                                        between Government Auditing Stan-
International and Domestic Presence                     dards and the Institute’s Code of Profes-
     The OIG is sharing its knowledge within            sional Conduct, relating to the audit
the domestic and international law enforce-             independence issue.
ment community and representing the Postal         ◆    Chaired and hosted monthly meetings of
Service and the Inspector General community             the Council of Counsels to the Inspector
in several different professional organizations.        General, a group made up of lawyers rep-
For example, members of the OIG staff:                  resenting all federal Inspectors General.
◆   Provided a presentation on computer
    security at the First International High       OIG Works with Postal Management to
    Tech Crime and Forensics conference in         Address Computer Security Concerns
    London, England, in October 1999. The               The OIG continues to work with Postal
    conference brought together computer           management to highlight potential security
                                                                                                          Two officials with the Japanese Ministry
    security and law enforcement profession-       risks within the Postal network infrastructure.
                                                                                                          of Posts and Telecommunications,
    als from the United States, Europe, and        As a result of efforts in working with Postal          General Affairs Department, met with
    Asia.                                          management regarding computer security con-            Inspector General Corcoran concerning
◆   Briefed member countries on fraud indi-        cerns, the Postal Service installed its first intru-   OIG operations.
    cators concerning Bulk Mail corruption         sion detection devices on the Postal Service
    at the International Revenue Protection        computer network. This intrusion detection
    Seminar in Bristol, England.                   system provides Postal systems administrators
◆   Met with the Japanese Postal delegation        with real-time alerting capabilities in the event
    during a visit to Washington, DC, in           of an “attack” on the Postal network.
    January 2000, to provide an overview of        OIG Helps Raise Awareness of Com-
    the OIG organizational structure, recruit-     puter Security Risks
    ment, training, designation of functions,
                                                        As the nationwide incidence of computer
    investigations, and audits. The Japanese
                                                   crime continues to increase, the OIG staff at
    government is considering legislation to
                                                   various agencies must respond to computer
    create a Postal Service oversight agency
    and wanted to learn more about how the         crimes, particularly computer intrusions. Many
    OIG was created.                               of these agencies have expressed frustration at
                                                   the difficulty of finding the qualified investiga-
◆   Continued to provide access to state-of-
                                                   tive personnel and funding required to establish
    the-art computer crimes training to
                                                   a successful intrusion investigation capability.
    employees within the Postal Service, the
                                                   Computer crimes rarely affect only one organi-
    Inspector General community, and the
    law enforcement community. Currently,          zation; rather, cases often cut across agency, and
    the OIG has contracted to provide 260          even national boundaries, making information-
    training slots for the basic course and a      sharing vital. To that end, the OIG:
    new, advanced course. Last year, 250           ◆    Established the Inspector General Intru-
    people were trained to conduct computer             sion Working Group to bring together
    security and intrusion investigations.              representatives from across the Inspector
◆   Served as a member of the International             General community to improve informa-
    Internal Audit Standards Board of the               tion-sharing efforts and promote the
    Institute of Internal Auditors. The board,          leveraging of resources to combat com-
    comprised of audit directors from Fortune           puter crime;
    500 companies, major government audit          ◆    Hosted the first meeting of the Intrusion
    organizations, major accounting firms,              Working Group in February 2000, which
    and academia, sets standards for internal           was attended by 29 representatives from
    auditors worldwide.                                 21 organizations. Topics discussed


                                                                                                            PAGE 27
                                                                                                 included program funding, strategic plan-        catching poster. The poster was initially repro-
                                                                                                 ning, legal issues, recruitment, and lever-      duced in the September 30, 1999, Semiannual
                                                                                                 aging of resources across the Inspector          Report to Congress. It was also distributed to all
                                                                                                 General community to promote high                Postal Service facilities, advertised in the Janu-
                                                                                                 standards in the investigation of comput-        ary/February Postal Life magazine, which is dis-
                                                                                                 er crime. The response to the first meet-        tributed to all Postal employees, and can be
                                                                                                 ing was overwhelmingly positive, and             ordered from the Postal Service Material Distri-
                                                                                                 many organizations have expressed a
                                                                                                                                                  bution Centers. Following publication of the
                                                                                                 commitment to continue, and in some
                                                                                                                                                  poster, Hotline contacts increased dramatical-
                                                                                                 cases expand their participation; and
                                                                                                                                                  ly—from a total of 1,116 during October 1999,
                                 Hotline Awareness                                          ◆    Provided a presentation regarding com-           to 1,888 in March 2000—an increase of nearly
                                 SEMIANNUAL REPORTING PERIOD OCTOBER 1999-MARCH 2000
                                                                                                 puter security and fraud issues in elec-         70 percent.
                          2000
                                                                                                 tronic commerce to over 120 participants
Hotline Poster            1750
                                                                                                 in a joint conference of the Mid-Atlantic        OIG Holds Third Annual Training and
Advertised
in Postal Life
January - February 2000
                                                                                                 and New York/New Jersey chapters of              Recognition Event
                          1500

Hotline Poster
                                                                                                 the Intergovernmental Audit Forum.                     The OIG celebrated its third anniversary
Distributed
to Postal Facilities      1250                                                                   The presentation included not only an            with an employee training and recognition
December 1999
                                                                                                 overview of security risks in electronic         event held January 11-13, 2000, in Washing-
                          1000
Hotline Poster
Announced
                                                                                                 commerce, but also information regard-           ton, DC. The event emphasized the OIG’s core
in Postal Bulletin
October 1999
                           750
                                                                                                 ing emerging technologies currently              vision and values and featured technical train-
                           500
                                                                                                 being developed and implemented to               ing sessions, job-related seminars, and a cere-
                                                                                                 help mitigate those risks.
                           250
                                                                                                                                                  mony recognizing the accomplishments of the
                                                                                                                                                  OIG staff. The OIG senior executives provided
                             0                                                              Video Report of Postal Facility Unsafe
                                 OCTOBER   NOVEMBER DECEMBER   JANUARY   FEBRUARY   MARCH
                                                                                                                                                  a presentation of the history of the OIG and the
                                                                                            Working Conditions Debuts
                                                                                                                                                  duties and responsibilities of functional teams.
                                                                                                 During this six-month period, the OIG
                                                                                                                                                  For the first time, senior executives gave awards
                                                                                            unveiled a new product line - video reports.
                                                                                                                                                  to eleven individuals who best exemplified the
                                                                                            This medium leverages technology to accurate-
                                                                                                                                                  OIG core values and performed in a truly out-
                                                                                            ly depict audit observations at a Postal facility.
                                                                                                                                                  standing manner: Darrell Benjamin, Jeanne
                                                                                            During this period, the OIG issued a video
                                                                                                                                                  Black, William Hencken, Stephanie Hengel-
                                                                                            report on unsafe working conditions at a South-
                                                                                                                                                  mann, Rick Hightower, Aaron Jordan, Tracy
                                                                                            west station. The video report helped Postal
                                                                                                                                                  LaPoint, Kelly Oliver, Rona Shorr, Steve
                                                                                            management visualize the unsafe physical work-
                                                                                                                                                  Suarez, and Joy Thornton.
                                                                                            ing conditions found at the station, including
                                                                                                                                                        The three-day event was highlighted by
                                                                                            potential violations of safety, health, and securi-
                                                                                                                                                  presentations from: U.S. Representative John
                                                                                            ty requirements. These unsafe conditions
                                                                                                                                                  McHugh, Chairman of the Subcommittee on
                                                                                            increased the risk of injury to Postal Service
                                                                                                                                                  the Postal Service; Governor Einar B.
                                                                                            employees and customers, and compromised
                                                                                                                                                  Dyhrkopp, Chairman of the Postal Service
                                                                                            Postal Service property and the safety and secu-
                                                                                                                                                  Board of Governors; Dan Blair, Senior Counsel,
                                                                                            rity of the mail at this facility.
                                                                                                                                                  Governmental Affairs Committee, U.S. Sen-
                                                                                            OIG Hotline Awareness                                 ate; Jerry B. Harvey, Professor of Management
                                                                                                  The OIG Hotline is a vital and confiden-        Science, George Washington University and
                                                                                            tial communications link between the OIG and          author of the Trip to Abilene; and Eileen
                                                                                            persons contacting the Hotline to report alleged      McDargh, motivational speaker on business
                                                                                            violations of laws, rules, or regulations; misman-    excellence. The conference was not only a
  Governor Dyhrkopp, Chairman of the
  Board of Governors, shares his                                                            agement; waste of funds; abuse of authority; or       training vehicle, but also a celebration of the
  perspective on Postal Service operations                                                  danger to public health and safety. Since Octo-       tremendous contributions made by the OIG
  at the Third Annual Recognition Day.                                                      ber 1997, it has received more than 40,000 con-       staff throughout the year.
                                                                                            tacts from employees, customers, and the gener-
                                                                                                                                                  OIG Receives Special Awards
                                                                                            al public.
                                                                                                                                                      The OIG received four 1999 Combined
                                                                                                  During the fall of 1999, the OIG initiated
                                                                                                                                                  Federal Campaign awards, including a unique
                                                                                            a Hotline awareness campaign with an eye-


                                                                         PAGE 28            OVERVIEW
award for the National Capitol Area’s Commu-         ◆   continuing to notify Postal employees at
nication Contest for “Best Special Event.” This          all levels of their right to report wrong-
award was presented by Donna Shalala, Secre-             doing to the OIG without fear of retalia-
tary of the Department of Health and Human               tion;
Services, to the OIG in recognition of excel-        ◆   deploying an electronic subpoena system
lence in efforts to sponsor various special events       to improve processing of Inspector Gen-
that raise money and heighten Combined Fed-              eral administrative subpoenas;
eral Campaign awareness among employees.             ◆   establishing a report processing review
The OIG also received “The Combined Feder-               staff to expedite and standardize issuance
al Campaign President’s Award,” “The Paceset-            of reports;
ter Award,” and the “100 Percent Goal Certifi-
                                                     ◆   working with the Postal Service to
cate Award.”                                             ensure a valid tracking system for recom-
PROGRESS IN BUILDING THE                                 mendations from the external auditor,
OIG’S INFRASTRUCTURE                                     GAO, Inspection Service, and the OIG;
In order to build an effective infrastructure, the   ◆   entering into an agreement with the
OIG established:                                         Financial Crimes Enforcement Network
Human resource processes and systems,                    to access numerous commercial, finan-
including:                                               cial, and law enforcement databases to
                                                         help with criminal financial investiga-
◆   a 360-degree feedback evaluation system;             tions and audits;                            Secretary Shalala, Department of Health
                                                                                                      and Human Services, (second from left)
◆   a Pay-For-Performance system;                    ◆   processing over 56 Freedom of Informa-       presents OIG staff with a special award
◆   an extensive screening process for poten-            tion Act requests and closing 51 Con-        for OIG’s support of the Combined
    tial employees;                                      gressional and Governor responses;           Federal Campaign.

◆   a thorough pre-employment background             ◆   issuing 209 Inspector General subpoenas
    investigation process;                               (164 for the Inspection Service and 45
                                                         for the OIG); and
◆   a one-week orientation class for new
    employees;                                       ◆   providing quarterly firearms qualifica-
                                                         tions and defensive tactics training to
◆   a monthly employee newsletter; and
                                                         the OIG criminal investigators.
◆   a three-week Postal-specific investigative
    training program.                                Strategic processes, including:

Administrative resources services,                   ◆   revising the Five-Year Strategic Plan;
including:                                           ◆   developing a universe of over 1,000
                                                         projects;
◆   management controls over internal
    processes;                                       ◆   preparing the FY 2000 Annual Perfor-
                                                         mance Plan;
◆   development of its own contracting func-
    tion;                                            ◆   achieving over 80 percent of the perfor-
                                                         mance measurements for FY 1999 result-
◆   establishment of the OIG offices by iden-
                                                         ing in a Team Award for the OIG
    tifying, leasing, and developing space to
                                                         employees;
    accommodate the OIG staff in various                                                              The OIG Administrative Resources Team
    locations throughout the country;                ◆   detailing a member of the OIG staff to       provides a variety of important support-
                                                         the Office of Management and Budget to       ing services by utilizing the talents of a
◆   performance of numerous quality assur-                                                            diverse and highly qualified staff.
                                                         serve as a technical expert on Inspectors
    ance and internal reviews; and
                                                         General matters; and
◆   implementation of an automated track-
                                                     ◆   establishing computer intrusion and elec-
    ing system for time and projects.
                                                         tronic commerce units.
Critical audit, investigative and administra-
tive processes, including:
◆   developing internal policies for describing
    the OIG authorities and responsibilities;


                                                                                                        PAGE 29
          CHALLENGES FACING THE OIG                             Transitioning Inspection Service Audit
                                                                Work
          Proposed Changes Conflict with OIG                          Following an OIG audit in the fall of 1999
          Independence                                          of the Inspection Service’s use of criminal inves-
               A recent change by the American Institute        tigators to perform audits, the Inspection Ser-
          of Certified Public Accountants to revise its         vice elected to cease performing audits. As a
          independence requirements for internal, state,        result, the OIG faces the challenge of assuming
          local, and federal auditors could have a major        this work. This challenge includes acquiring the
          impact on the OIG. In response to this change,        staff and infrastructure necessary to perform the
          the GAO has proposed incorporating the                financial and performance audit work critical to
          American Institute of Certified Public Accoun-        the Postal Service’s system of internal controls.
          tants changes into the Government Auditing            The OIG recently submitted a proposal to the
          Standards. Under this revision, Inspectors Gen-       Governors to increase resources for the field
          eral appointed by the agency head or board they       financial audit function. Additional require-
          serve are not considered independent. As a            ments will be identified in connection with the
          result, these Inspectors General would have to        FY 2000 budget submission.
          issue qualified reports noting a lack of organiza-
          tional independence, which could threaten the
                                                                Office Space and Field Offices
                                                                     The OIG has established new offices in
          credibility and usefulness of all reports issued.
                                                                Chicago, New York, Raleigh, and Los Angeles,
               These proposed revisions are inconsistent
                                                                and is hiring personnel to staff these offices.
          with the Inspector General Act and, according
                                                                These new offices will expand the OIG’s abili-
          to an independent legal opinion, may be uncon-
                                                                ty to meet the needs of and better serve the
          stitutional. The Comptroller General has issued
                                                                Postal community.
          a discussion draft and has responded that he
                                                                     However, even more office space will be
          does not believe the proposal is unconstitution-
                                                                needed as the OIG staff grows. Open meeting
          al. The Inspector General Act created indepen-
                                                                areas at headquarters will be converted to office
          dent Inspectors General charged with conduct-
                                                                space temporarily while the OIG looks for a
          ing audits, investigations, and other reviews of
                                                                more permanent solution by obtaining addi-
          programs and operations. The act also provides
                                                                tional space.
          the Inspector General with greater indepen-
          dence than most certified public accounting           OTHER MAJOR CHALLENGES
          firms because top management is prohibited                 The OIG continues to work on other
          from interfering with the Inspector General’s         major challenges. These are in three major
          decision to audit or investigate any matter. The      areas: Internal OIG Infrastructure, Internal to
          OIG is playing an active role in discussing the       the Postal Service, and External to the Postal
          issue with the American Institute of Certified        Service, and are as follows.
          Public Accountants, GAO, and the Inspectors
                                                                Internal OIG Infrastructure:
          General community, to resolve this conflict
          before the proposed changes go into effect.           ◆   building the OIG processes, policies, and
                                                                    procedures;
          Hiring Additional Qualified Staff                     ◆   promoting the OIG values and culture;
                Hiring highly-qualified people during this
          period of record-low unemployment is a major          ◆   continuing to forge ahead with the OIG
                                                                    mission while being sensitive to the vari-
          challenge. With a goal of 648 employees by Sep-
                                                                    ety of extensive demands that are being
          tember 30, 2000, the OIG assembled a cross-
                                                                    placed on the OIG employees in its
          functional team to assure that well-qualified
                                                                    evolving environment; and
          staff is promptly hired by further streamlining its
          hiring and clearance processes. These actions         ◆   preparing the OIG for the triennial peer
          have resulted in a reduction in processing time,          reviews scheduled for FY 2001 that will
                                                                    assess how well the OIG has meet profes-
          a quicker interview process, and more rapid
                                                                    sional standards in performing its work.
          background investigations. The OIG antici-
          pates having all 648 employees hired by               Internal to the Postal Service:
          May 31, 2000.                                         ◆   continuing to add value by providing
PAGE 30   OVERVIEW
    meaningful results on a timely basis;
◆   educating the Postal Service on the OIG
    roles and responsibilities;
◆   resolving differences, including those of
    authority, roles, and responsibilities with
    the Inspection Service;
◆   educating Postal Service management on
    the independence of the OIG and its
    duty to report any significant issues to
    the Postal Service Governors and the
    Congress;
◆   informing Postal Service officials of the
    OIG authority to make independent
    decisions on areas to review; and
◆   performing work and continuing to gain
    expertise in Postal Service programs,
    operations, and emerging issues.
External to the Postal Service:
◆   making the results of the OIG work pub-       The Internal Quality Team helps to rein-
    licly available without affecting the         force the core values of the OIG through
    Postal Service’s competitive position;        team-building and process improvement.

◆   educating Postal stakeholders on the
    OIG’s role;
◆   remaining a significant influence in the
    Inspectors General and federal law
    enforcement communities;
◆   coordinating reviews of Postal Service
    programs and operations with the GAO
    to reduce the possibility of duplication;
    and
◆   effectively responding to Hotline and
    Congressional inquiries.




                                                   PAGE 31
                                                                                                     Along with the coverage of the Postal
                                          INSPECTION SERVICE                                   Inspectors, uniformed Postal Police Officers
                                               For more than two centuries, the role of        provide security around the clock at Postal facil-
                                          the Inspection Service has been to preserve the      ities. Postal Police Officers, at facility control
                                          public trust in the Postal Service. The Inspec-      centers, monitor robbery and burglar alarms to
                                          tion Service enforces over 200 statutes related      provide protection for Postal employees, prop-
                                          to crime against the U.S. Mail, the Postal Ser-      erty, and assets. The Postal Police Officers also
                                          vice, Postal employees, and customers. The           provide escorts for the Postal Service for high-
                                          Inspection Service’s mission has been refined        valued shipments, such as certain registered
                                          over the years by statutes related to the U.S.       mail and Postal remittances.
                                          Mail, creation of a separate OIG, and the needs            Postal Inspectors work cooperatively
                                          and requirements of the Postal Service and its       nationwide with the OIG, Department of Jus-
                                          customers. The Inspection Service provides an        tice, and other federal, state, and local law
                                          essential service to the American public and         enforcement agencies on joint efforts. The
                                          the Postal Service by ensuring the security and      expertise of the Inspection Service is recognized
                                          sanctity of the mails and the safety of Postal       internationally, with Inspectors assigned to the
                                          employees. The Inspection Service has almost         U.S. National Central Bureau of Interpol in
                                          4,500 employees, which includes approximate-         Washington, DC, and to Interpol Headquarters
                                          ly 2,100 Postal Inspectors, about 1,500 uni-         in Lyon, France. The Inspection Service has a
                                          formed Postal Police Officers, and about 900         leading role in the Postal Security Action
                                          professional support associates.                     Group, a committee within the Universal
Postal Police Officers provide security
                                               The national headquarters of the Inspec-        Postal Union, which has established the follow-
and protection for Postal employees,      tion Service is organized into functional groups     ing priorities:
property, and assets.                     that report to the Deputy Chief Inspectors for:
                                                                                               ◆   prevent injuries to customers resulting
                                          ◆   Business Investigations;                             from dangerous goods in the mail;
                                          ◆   Criminal Investigations;                         ◆   prevent the loss or theft of mail entrust-
                                          ◆   Professional Standards and Resource                  ed by customers to world Postal adminis-
                                              Development; and                                     trations;

                                          ◆   Administration.                                  ◆   prevent revenue and asset losses of world
                                                                                                   Postal administrations; and
                                               The Inspection Service includes 18 field
                                                                                               ◆   preserve customers’ confidence in the
                                          divisions, which report directly to two Deputy
                                                                                                   U.S. mail.
                                          Chief Inspectors for Field Operations. Five
                                          Operations Support Groups also support the           Postal Inspectors are active members in coun-
                                          field offices. The Inspection Service Forensic       cils and groups, such as the:
                                          Laboratories, located at five sites, support field   ◆   Financial Crimes Enforcement Network;
                                          office investigations and provide state-of-the-      ◆   Organized Crime Council;
                                          art technology. Inspection Service offices are
                                                                                               ◆   International Policy Committee of the
                                          linked nationally through electronic systems
                                                                                                   International Association of Chiefs of
                                          with online connections to the National Crime            Police;
                                          Information Center and the National Law
                                          Enforcement Telecommunications System.               ◆   International Association of Financial
                                                                                                   Crimes Investigations;
                                               Postal Inspectors conduct criminal investi-
                                          gations and arrest violators for Postal offenses,    ◆   Securities and Commodities Fraud
                                          serve warrants and subpoenas, and present evi-           Working Group;
                                          dence to prosecutors for action. Inspectors          ◆   Economic Crimes Council;
                                          respond to emergencies involving Postal Ser-         ◆   National Health Care Anti-Fraud Asso-
                                          vice crimes, natural disasters, and other prob-          ciation;
                                          lems that affect the Postal Service. The Inspec-
                                                                                               ◆   National Law Enforcement Explorers’
                                          tion Service will continue to conduct financial
                                                                                                   Committee; and
                                          installation audits through the end of FY 2000.


                                PAGE 32
◆   Asset Forfeiture Policy Advisory Group.          cases involving one of America’s fastest growing
     Postal Inspectors also work with the follow-    white-collar crimes: identity theft.
ing organizations regarding child pornography        Annual Report of Investigations
cases: the Child Exploitation and Obscenity               The 1999 Annual Report of Investigations
Section of the Department of Justice; the            of the Inspection Service was released in March
National Center for Missing and Exploited Chil-      2000. The accomplishments described in the
dren; and the Standing Working Party on              report are intended to inform the Postmaster
Offenses Against Minors, which is an interna-        General, the Postal Service Board of Governors,
tional organization sponsored by Interpol.           Postal managers, and employees about Inspec-
     The Inspection Service’s forensic specialists   tion Service activities, and give greater insight
and technical financial analysts play a vital role   into the value and benefits provided by the
in supporting investigative, audit, and security     Inspection Service.
functions of the Inspection Service. These pro-
fessional technical employees perform a variety      Consumer Protection
of tasks, which include:                                  On December 12, 1999, the President
                                                     signed the Deceptive Mail Prevention and
◆   providing forensic examinations;
                                                     Enforcement Act, which became Public Law
◆   developing, procuring, and deploying             106-168. This new law will protect consumers
    electronic security and surveillance equip-      against deceptive mailings and sweepstakes prac-
    ment;                                            tices by establishing standards for sweepstakes
◆   providing photography, video, and graph-         mailings, skill contests, and facsimile checks;
    ics support;                                     restricting government look-alike documents;
◆   publishing policies, reports, manuals,           and creating a uniform notification system
    handbooks, and consumer publications;            allowing individuals to remove their names and
◆   developing and maintaining management            addresses from all major sweepstakes mailing lists
    systems;                                         at one time. Disclosure will make clear that no
                                                     purchase is necessary to enter a sweepstakes and
◆   providing direct contact with Congress
                                                     that a purchase will not improve a consumer’s
    and the public; and
                                                     chances of winning a prize. The law also creates
◆   supplying administrative support.                financial penalties for companies that do not dis-
                                                     close all terms and conditions of a contest. Indi-
NOTABLE INSPECTION SERVICE                           viduals will be able to request that certain mail-
ACHIEVEMENTS
                                                     ings are discontinued to their homes, and com-
Inspection Service Has New Seal                      panies will face liability if they do not honor
     The Inspection Service unveiled a new seal      these requests. Most importantly, the law allows
during this reporting period. The seal represents    the Postal Service to issue administrative sub-
all Inspection Service employees and incorpo-        poenas in these matters. Inspection Service per-
rates the two basic elements of its service, the     sonnel were instrumental in providing Congress
Postal Service eagle, and a five-pointed star.       with important information relating to decep-
New badges for Postal Inspectors and Postal          tive mailings, and in drafting the legislation.
Police Officers were also issued to incorporate      Appendix F provides statistics on this area.
updated elements of the seal.
                                                     National Symposium on Child Sexual
New Movie About Postal Inspectors                    Abuse
     On February 25, 2000, The Inspectors 2, a            The Inspection Service co-sponsored the
ShowTime original movie premiered starring           Sixteenth National Symposium on Child Sexu-
Louis Gossett, Jr., and Jonathan Silverman. The      al Abuse the week of March 6, 2000, in               The Inspection Service’s new seal incorporates
Inspectors 2 is the second ShowTime original         Huntsville, Alabama. This symposium was              the Postal Service eagle in a five-pointed star.
film about the country’s oldest federal law          attended by more than 1,800 people from across
enforcement agency, the Inspection Service.          the country to include local, state, and Federal
This film is based on actual Inspection Service      law enforcement personnel; prosecutors; judges;



                                                                                                           PAGE 33
                                          child protection service workers; and mental           Y2K
                                          health and medical professionals. This sympo-                The Information Technology Division
                                          sium, the largest of its kind, provided state-of-      completed preparations for the Y2K rollover
                                          the-art training in the intervention and investi-      within the Inspection Service, finalized proce-
                                          gation of child sexual abuse and exploitation.         dures to invoke the Inspection Service’s Com-
                                                                                                 ponent Contingency Plans and Business Conti-
                                          Career Development
                                                                                                 nuity Plans, and maintained readiness to ensure
                                                The Inspection Service Career Develop-
                                                                                                 systems, information technology infrastructure,
                                          ment Division provides basic training for candi-
                                                                                                 external data interfaces, and other Inspection
                                          date Postal Inspectors as well as in-service train-
                                                                                                 Service components were Y2K compliant. An
                                          ing for all Inspection Service employees. Certi-
                                                                                                 Inspection Service Information Technology
                                          fication of threat management instructors is also
                                                                                                 Y2K Command Center was also set up to mon-
                                          provided.
                                                                                                 itor the status of its systems and respond to
                                                All Postal Inspector candidates undergo 14
                                                                                                 Inspection Service Y2K-related information
                                          weeks of scenario-based basic training consist-
                                                                                                 technology problems. All Inspection Service
                                          ing of investigative techniques, defensive tac-
                                                                                                 applications that were remediated on the com-
                                          tics, firearms, legal matters, search and seizure,
                                                                                                 puter system or migrated to the new infrastruc-
                                          arrest techniques, court procedures, Postal oper-
                                                                                                 ture were certified and tested to be Y2K compli-
                                          ations, and a detailed study of the Federal
                                                                                                 ant. Telecommunications hardware and soft-
                                          statutes over which the Inspection Service has
                                                                                                 ware supporting approximately 190 sites was
                                          jurisdiction. The training program has been
                                                                                                 also thoroughly tested. Around-the-clock
                                          revised to focus on building problem-solving
                                                                                                 staffing occurred during the rollover period,
                                          abilities, critical thinking, and cognitive skills.
                                                                                                 beginning December 31, 1999.
                                          During this reporting period, the Career Devel-
                                          opment Division graduated one basic Postal             Information Technology
                                          Inspector training class. The 24 graduates are              The Inspection Service’s Correspondence
                                          currently completing various phases of post-           Management System, Fraud Complaint System,
The second movie based on actual          basic training.                                        Polygraph Examiner System, Complement
Inspection Service cases recently aired
                                                                                                 Reporting System, and Prohibited Mailings and
on cable television.                      Security
                                                                                                 Narcotics System were completed, tested, and
                                               To assist in carrying out its responsibilities,
                                                                                                 deployed on the new infrastructure. Enhance-
                                          the Inspection Service maintains a security
                                                                                                 ments to the Inspection Service Database Infor-
                                          force staffed by uniformed Postal Police Officers
                                                                                                 mation System were also completed. Based on
                                          who are assigned to major Postal facilities
                                                                                                 the Inspection Service’s increased use of the
                                          throughout the country. The officers provide
                                                                                                 Internet, the Information Technology Division
                                          perimeter security, escort high-value mail ship-
                                                                                                 doubled the connection speed to the Internet.
                                          ments, and perform important protective func-
                                          tions. Postal Police Officers undergo a 10-week
                                          basic training course at the Federal Law
                                          Enforcement Training Center in Glynco, Geor-
                                          gia, which includes firearms training, constitu-
                                          tional law, ethical behavior, conflict manage-
                                          ment, communications/interviewing, criminal
                                          law, search/seizure, civil liability, detention and
                                          arrest, physical security, patrol procedures, victi-
                                          mology, and radio communications. One Postal
                                          Police Officers class, comprised of 45 candi-
                                          dates, graduated from the Federal Law Enforce-
                                          ment Training Center Postal Police basic train-
                                          ing program during this period.




                               PAGE 34    OVERVIEW
Organization




  DID YOU
  KNOW?
 What are the locations of the OIG Headquarters and field offices?
 The OIG Headquarters is in Rosslyn, Virginia. Additional offices are
 located in Los Angeles, California; Denver, Colorado; Atlanta, Georgia;
 Chicago, Illinois; New York, New York; Raleigh, North Carolina; and
 Dallas, Texas; and at the three Postal Data Centers in Minneapolis,
 Minnesota; St. Louis, Missouri; and San Mateo, California.




                                            PAGE 35
                                           Office of Inspector General
                                            Organizational Structure
                                                                                                                         PE
                                                           NER
                                                              AL                                                    T INS CTOR
                                                         GE                                                      TAN STRATEGIC GE
                                                       R                                                        S                N
                                                      O AUDITS                                                SI     PLANNING




                                                                                                                                                       ER
                                                                                                        AS
                                                 CT




                                                        Robert Emmons (Acting)                                             & QUALITY




                                                                                                                                                         AL
                                               PE




                                                        Deputy Debra Ritt                                                  MANAGEMENT
                                    SISTANT INS




                                                        Accepting & Processing
                                                                                                                           Ronald Merryman
                                                        Stew Dorris
                                                        Delivery                                                           Deputy Wayne Goleski
                                                        Bennie Cruz                                                        Electronic Commerce
                                                        Developmental                                                      Robert Batta
                                                        Tracy LaPoint                                                      Forensic & Technical Services
                                                        Financial Audit                                                    John DeMaggio
                                                                                                                           Information Technology
                                                        John M. Seeba
                                                                                                                           David Sidransky
                                  AS




                                                        Support
                                                                                                                           Internal Quality
                                                        Gwen Johnson                                                       Jim Nugent
                                                        Transportation                                                     Quality Assurance/Internal Affairs
                                                        Debra Ritt (Acting)                                                George Davis
                                                                                                                           Strategic Planning
                     AL                                                                                                    Russ Barbee
                   ER
                 EN
                                                                                                                                                      EMPLOYEE
                    G




                        INVESTIGATIONS                                        INSPECTOR GENERAL
                 OR




                                                                                                                                                      Billy Sauls
                        Sylvia L. Owens                                       Karla Corcoran                                                          Deputy Ronnie Wainwright




                                                                                                                                                                                           R G E N ER AL
        T INSPECT




                        Deputy Ronald K. Stith                                Executive Representative for Field Liaison
                                                                                                                                                      Administrative Resources
                        Deputy Richard S. Trinidad                            Colleen McAntee                                                         Steve Spratt
                        Contracts
                                                                              Special Assstant                                                        Human Resources
                        Kim Stroud
                                                                              Rona Shorr                                                              Connie Ambush
                        Facilities
                        Anthony T. Cannarella                                 DEPUTY                                                                  Information Systems
      AN




                        Healthcare Fraud                                                                                                              David I. Berran
                                                                              INSPECTOR GENERAL




                                                                                                                                                                                          TO
                        Katherine K. Johnson                                                                                                          Labor Management
    ST




                        Revenue Generation                                    Richard Chambers                                                        Joyce Hansen




                                                                                                                                                                                          EC
   I




                        Larry Chisley                                         Special Assstant
 SS




                                                                                                                                                      Chris Nicoloff
                        Revenue Protection                                    David Shelley




                                                                                                                                                                                     SP
A




                        Dan O'Rourke
                                                                                                                                                                                     IN
                        Mike Shiohama
                                                                                                                                                                        N        T
                                                                                                                                                                ASSISTA
                                                                                                                      CUSTOMER
                                                                                                                      Norm Hancock
                                                       GENERAL                                                        Deputy Debra Pettitt
                                                       COUNSEL TO THE                                                 Computer Intrusion
                                                                                                                      Howard Cox
                                                       INSPECTOR
                                                                                                                                                                ER AL




                                                                                                                      Executive Investigations
                                                       GENERAL                                                        Tommy Hampton
                                                       Thomas Coogan                                                  Hotline
                                                                                                                                                               EN




                                                       Deputy General Counsel Kirt West                               Joe Oliva
                                                                                                                                                            RG




                                                       Congressional & Public Relations                               Oversight
                                                       Laura A. Whitaker                                              Bob Pemberton
                                                                                                                                                          TO




                                                       Legal Services
                                                       Gladis Griffith
                                                                                                                                                      EC




                                                                                                                                                     SP
                                                                                                                                      IN
                                                                                                                            ASSISTANT




                                      PAGE 36               ORGANIZATION
This section describes the organization of            FORENSIC & TECHNICAL SERVICES
the OIG and the Inspection Service. The               TEAM
OIG is organized consistent with the three            Director, John Demaggio - provides techni-
Voices of the Postal Service CustomerPer-             cal support in such areas as surveillance, evi-
fect! Program: Voice of the Customer,                 dence recovery, firearms, computer forensics,
Voice of the Employee, and Voice of the               and polygraph examinations; and maintains
Business. The Inspector General, Deputy               close liaison with technical experts in the law
Inspector General, General Counsel, five              enforcement community.
Assistant Inspectors General, and the
                                                      INFORMATION TECHNOLOGY TEAM
Executive Representative for Field Liaison,
form the OIG management committee. In
                                                      Director, David Sidransky - manages com-
                                                      puter operations and telecommunications
order to differentiate between the OIG and
                                                      within the OIG; operates the local and wide-
the Inspection Service, the pages concerning
                                                      area networks; provides computer security and
the Inspection Service have been color
                                                      technical support to the OIG staff; and man-
screened.
                                                      ages agency-wide information systems.
                                                      INTERNAL QUALITY TEAM
OFFICE OF INSPECTOR                                   Director, Jim Nugent - instills continuous
GENERAL                                               internal process improvement and facilitates
     The OIG is designed to support Postal Ser-       internal communications through orientation,
vice business and public policy objectives. It is a   teambuilding, and mentoring.
unique, non-traditional, and diverse organiza-        QUALITY ASSURANCE/INTERNAL
tion that conducts audits, evaluations, investi-      AFFAIRS TEAM
gations, and other core Inspector General func-
tions identified by the Inspector General Act of      Director, George Davis - conducts internal
1978, as amended.                                     reviews of OIG operations and procedures to
     The OIG’s core values of teamwork, lead-         ensure that they are effective and appropriate,
ership, communication, creativity, and concep-        provides advice on improving operations, and
tualization are demonstrated by teams that focus      conducts reviews of allegations made against
on improving Postal Service business processes        OIG employees.
and overall organizational achievement. The
following section describes the OIG organiza-         STRATEGIC PLANNING TEAM
tional structure during the semiannual reporting      Director, Russ Barbee - anticipates and
period ending March 31, 2000.                         plans for current and future changes in the
                                                      Postal Service, the OIG operations, and tech-
DEPUTY INSPECTOR GENERAL,
                                                      nology by identifying workload, providing
Richard Chambers - assists the Inspec-
tor General and the OIG Management Com-               research and statistical analysis, informing
mittee and leading the organization.                  Postal Service employees and customers about
                                                      the OIG mission, and promoting the vision of
ASSISTANT INSPECTOR GENERAL                           the OIG.
FOR STRATEGIC PLANNING &
QUALITY MANAGEMENT,
Ronald Merryman                                       ASSISTANT INSPECTOR GENERAL
                                                      FOR AUDIT (PERFORMANCE),
Deputy Assistant Inspector General,                   Robert L. Emmons (Acting)
Wayne Goleski
                                                      Deputy Assistant Inspector General,
ELECTRONIC COMMERCE TEAM                              Debra Ritt
Director, Robert Batta - conducts reviews of          ACCEPTING & PROCESSING TEAM
Postal Service initiatives in the emerging field      Director, Stew Dorris - conducts audits and
of electronic commerce, including areas such as       reviews focusing on mail acceptance and col-
information-based indicia and electronic bill         lection operations, and mail processing and dis-
payment.                                              tribution processes.


                                                                                                         PAGE 37
                                                                                      DELIVERY OPERATIONS TEAM                             FACILITIES TEAM
                                                                                      Director, Bennie Cruz - conducts audits and          Director, Tony Cannarella - conducts
                                                                                      reviews to enhance delivery processes and            audits, management reviews, and investiga-
                                                                                      operations and improve customer satisfaction.        tions of all aspects of Postal facilities, including
                                                                                                                                           repair, renovation, and new construction.
                                                                                      DEVELOPMENTAL TEAM
                                                                                                                                           REVENUE GENERATION TEAM
                                                                                      Director, Tracy LaPoint - conducts audits
                                                                                      and reviews of new or redesigned Postal Service      Director, Larry Chisley - examines and
                                                                                      systems, programs, and operations that are           evaluates the major sources of revenue from
                                                                                      under development.                                   marketing, advertising, stamp services, retail,
                                                                                                                                           and international mail business operations, and
                                                                                      FINANCIAL TEAM                                       also monitors Postal rate cases.
                                                                                      Directors, John Seeba and Sheila Bruck
                                                                                                                                           REVENUE PROTECTION TEAM
                                                                                      - conducts audit work in support of the inde-
                                                                                      pendent public accounting firm’s annual finan-       Directors, Dan O’Rourke and Michael
                                                                                      cial audit opinion and conducts other finan-         Shiohama - investigates bribery, kickbacks,
                                                                                      cial-related audits to identify areas for improve-   embezzlements, and other cases involving rev-
                                                                                      ment.                                                enue losses and contract fraud, such as defec-
                                                                                                                                           tive pricing, product substitution, and cost mis-
                                                                                      SUPPORT TEAM                                         charging.
                                                                                      Director, Gwen Johnson - provides inves-
                                                                                      tigative support to all Performance teams and        ASSISTANT INSPECTOR GENERAL
                                                                                      conducts audits and reviews of Postal Service
                                                                                                                                           FOR EMPLOYEE, Billy Sauls
                                                                                      enabling operations, including quality, govern-      Deputy Assistant Inspector General,
                                                                                      ment relations, and customer service.                Ronnie Wainwright
Number of Investigations Completed
During Semiannual Period                                                              TRANSPORTATION TEAM                                  ADMINISTRATIVE RESOURCES TEAM

                                                                                      Director, Debra Ritt (Acting) - conducts             Director, Steve Spratt - provides the OIG
                                                                                      audits and reviews focusing on domestic and          staff with facility, procurement, financial, bud-
25                                                                                                                                         get, and other services necessary to accomplish
                           4/1/99-9/30/99
                                                                                      international transportation and logistics oper-
                                                                                      ations, specifically addressing Postal Service       the OIG mission.
                           10/1/99-3/31/00


20                                                                                    fleet operations and contracts for airline, high-    HUMAN RESOURCES TEAM
                                                                                      way, and rail services.                              Director, Connie Ambush - delivers full-
                                                                                      ASSISTANT INSPECTOR GENERAL                          service human resources programs for the OIG
15
                                                                                      FOR INVESTIGATIONS (REVENUE                          in the areas of employee relations, ethics, pay
                                                                                      & COST CONTAINMENT), Sylvia                          and benefits, retirement, awards, performance
10
                                                                                      Lindquist Owens                                      management, counseling, diversity, and train-
                                                                                      Deputy Assistant Inspectors General,                 ing.
                                                                                      Ronald K. Stith and Richard S. Trinidad              INFORMATION SYSTEMS TEAM
5
                                                                                      CONTRACT AUDIT TEAM                                  Director, Dave Berran - audits major auto-
                                                                                      Director, Kim Stroud - improves Postal Ser-          mated Postal management and information
0    COMPUTER    CONTRACT AUDIT   FACILITIES   HEALTH CARE    REVENUE     EXECUTIVE
                                                                                      vice contracting by conducting audits and            systems to determine Y2K readiness, and
     INTRUSION                                               PROTECTION
                                                                                      investigations of purchasing activities and          whether applications are properly established
                                                                                      operations.                                          and systems are properly designed to provide
                                                                                                                                           accurate data to management; and provides
                                                                                      HEALTH CARE TEAM
                                                                                                                                           computer-assisted audit techniques to support
     The Assistant Inspector General for                                              Director, Katherine K. Johnson - identi-
     Investigations oversees all investigations                                                                                            the OIG staff.
                                                                                      fies and investigates medical providers that
     performed by the OIG.
                                                                                      have falsely billed the Postal Service for work-     LABOR MANAGEMENT TEAM
                                                                                      related injury claims, and conducts audits of        Directors, Joyce Hansen and Chris
                                                                                      systemic issues involving the Workers’ Com-          Nicoloff - conducts audits and evaluations of
                                                                                      pensation Program.                                   labor management and employee relations


                                                                           PAGE 38    ORGANIZATION
issues within the Postal Service to assist in fos-   LEGAL SERVICES TEAM
tering and maintaining a healthy organization-       Director, Gladis Griffith - provides legal
al climate for employees and improving opera-        advice to the Inspector General and OIG staff
tional efficiency; also audits and evaluates         on criminal, civil, and administrative issues;
Postal Service systems and operations involv-        processes subpoenas; responds to Freedom of
                                                                                                                    DID YOU
ing violence prevention.                             Information and Privacy Act requests; and                      KNOW?
ASSISTANT INSPECTOR GENERAL                          serves as liaison with the Postal Service Law
FOR CUSTOMER, Norm Hancock                           Department and Department of Justice legal
Deputy Assistant Inspector General,                  staffs.                                              What is the background of the
Debbie Pettitt                                       EXECUTIVE REPRESENTATIVE FOR                         OIG staff?
COMPUTER INTRUSION TEAM                              FIELD LIASON, Colleen McAntee -
                                                     provides a senior level communications link          OIG personnel include auditors,
Director, Howard Cox - detects and investi-          between the OIG Headquarters and its ten             evaluators, criminal investigators,
gates computer hacking and other high-tech-          field offices, and all Postal Service field opera-
nology crimes involving Postal Service com-          tions.                                               lawyers, technicians, and adminis-
puters and telecommunications systems; and                                                                trative personnel from Federal
assists in identifying computer systems vulnera-     REVISED ORGANIZATIONAL
bilities so that appropriate countermeasures         STRUCTURE                                            and state government agencies,
may be implemented.                                       Near the end of the semiannual reporting
                                                                                                          private industry, non-profit organi-
                                                     period, the OIG decided to revise its structure
EXECUTIVE INVESTIGATIONS TEAM                                                                             zations, and the Postal Service.
                                                     to better reflect Postal Service business process-
Director, Tommy Hampton - investigates               es, the new Designation of Functions between
allegations of criminal activities and miscon-       the OIG and Inspection Service, and to be
duct involving Postal Service executives.            more effective and responsive in dealing with
HOTLINE TEAM                                         its customers. These changes include:
Director, Joe Oliva - operates the OIG Hot-          ◆   Renaming and realigning all teams under
line to provide a vital and confidential com-            the following areas: e-Business, Business
munication link between the Postal Service               Operations, Business Protection, Over-
and the public.                                          sight and Business Evaluations, and
                                                         Internal Business;
OVERSIGHT TEAM
                                                     ◆   Dividing the field liaison function into
Director, Bob Pemberton - conducts audits                East and West areas of operation; and
and evaluations of Inspection Service programs
                                                     ◆   Moving the Strategic Planning, Congres-
and operations.
                                                         sional & Public Relations, and Quality
GENERAL COUNSEL TO THE                                   Assurance/Internal Affairs Teams to
INSPECTOR GENERAL,                                       more prominent positions in the organi-
Tom Coogan                                               zation.
Deputy General Counsel, Kirt West                    A copy of the revised organization chart
CONGRESSIONAL & PUBLIC                               follows.
RELATIONS TEAM
Director, Laura Whitaker - serves as liaison
to Congress, the Board of Governors, and the
media; coordinates congressional testimony
and presentations; reviews legislation and regu-
lations; coordinates internal policies and pro-
cedures; and reviews and comments on Postal
Service policies and procedures.




                                                                                                          PAGE 39
                               Office of Inspector General
                             Revised Organizational Structure
                                                                       as of May 8, 2000



                                                   GENER                                        TANT INSPEC
                                               TOR      AL
                                            PEC                                             SSIS           TO
                                           S                                               A                 R
                                          N
                                     I




                                                                                                                       G
                                           Audits                                         Investigations
                                      T




                                                                                                                        EN
                                     N




                                          (Business Operations)                           (Business Protection)
                                   TA




                                                                                                                          ER
                              ASSIS




                                          Accepting & Processing                          Business Integrity




                                                                                                                            AL
                                          Business Support                                Contracts
                                          Delivery                                        Facilities
                                          Financial Statement                             Health Care Fraud
                                          Marketing
                                          Transportation




                     AL
                   ER
                 EN
                    G




                                                                  Inspector General
                 OR




                Oversight &                                       Strategic Planning                               Business




                                                                                                                                                      R G E N ER AL
        T INSPECT




                Business Evaluation                                                                                Computer Intrusion
                Executive Investigations                          Deputy IG                                        Developmental
                Hotline                                           Congressional & Public Relations                 Electronic Commerce
                Labor Management                                  Quality Assurance &                              Information Systems
      AN




                Oversight                                              Internal Affairs                            Information Technology




                                                                                                                                                     TO
     T




                                                                  General Counsel
    S




                                                                                                                                                     EC
  SI




                                                                  Legal Services
 S




                                                                                                                                                SP
A




                                                                                                                                                IN
                                                                                                                                           NT
                                                                                                                                   ASSISTA


                                               Field Offices                                Internal Business
                                               Atlanta
                                                                                            Administrative Resources
                                                                                                                            E N ER AL




                                               Chicago
                                                                                            Diversity
                                               Dallas
                                               Denver                                       Hiring
                                               Los Angeles                                  Human Resources
                                               New York
                                                                                                                         RG




                                                                                            Internal Quality
                                               Minneapolis
                                                                                            Policies
                                               Raleigh
                                                                                                                       TO




                                               San Mateo
                                                                                                                   EC




                                               St. Louis
                                                                             N                                    SP
                                                                                                             IN
                                                                      IS O                         ASSISTANT
                                                     F I E L D LI A




                                     PAGE 40       ORGANIZATION
INSPECTION SERVICE
     At the end of FY 1999, the Inspection Ser-                            gency response, and a more uniform span of con-
vice completed a realignment of reporting rela-                            trol among division Inspectors-in-Charge will
tionships among field divisions. Over the last                             enhance the Inspection Service’s ability to
few years, 30 Inspection Service Field Divisions                           address Inspection Service goals. The Inspection
have been consolidated to 18. This has resulted                            Service remains committed to the ongoing eval-
in increased efficiency and effectiveness. The                             uation of organizational performance, employee
consolidation of specific support functions, the                           development, and customer service with the                                                  Chief Postal Inspector
                                                                                                                                                                       Kenneth C. Weaver
availability of additional staff resources for emer-                       goal of continuous improvement.




               Inspection Service Organizational Structure
                                                                                           Chief Postal Inspector
                                                                                             K. C. WEAVER



  Inspector in Charge   Deputy Chief Inspector   Deputy Chief Inspector      Deputy Chief Inspector     Deputy Chief Inspector      Deputy Chief Inspector     Deputy Chief Inspector   Inspector in Charge
   Office of Counsel       Administration        Business Investigations     Criminal Investigations     Field Operations East      Field Operations West        Prof. Standards &      Office of Inspections
                                                                                                                                                                   Resource Dev.
  H. J. BAUMAN              J. K. BELZ               A. B. KIEL               K. W. NEWMAN              L. S. CRAWFORD                J. J. DUPILKA              D. P. WRIGHT           J. M. SOMERSET


         AIC                    INC                        INC                       INC                  Inspectors in Charge       Inspectors in Charge              INC                      AIC
    Deputy Counsel           Congressional        International Security       Computer Crimes &                Florida -                Gulf Coast -             Career Develop.
                                                                                                                                                                                           E. CRESPO
       Z. HILL              & Public Affairs           D. HILL                    Commerce                    M. GREY                    R. DODD                     Division
                           D. MIHALKO                                             J. EASLEY                                                                         K. BOND
                                                                                                               Mid Atl. -                 Michiana -
         AIC                                              INC                                             A. CRAWFORD                 W. MITCHELL
                                                                                                                                                                         INC
    Deputy Counsel               INC                  Performance                     INC                     NY Metro -                  Midwest -            Strategic Plng. & Man-
      L. KATZ            Corporate Information        T. DENNEY                Fraud, Child Expl.,           L. HEATH                   R. TERLEP                  agement Process
                             Management                                        Asset Forfeture &
                                                                                                         North Jersey/Caribbean -          No. Ca -             J. STINCHFIELD
                             R. LUERS                    INC                   Money Laundering
                                                    Revenue & Asset             L. MAXWELL                 J. SKIDMORE                   D. DAVIS
                                                    Protection Prog.                                                                                             Manager Employee
                                INC                                                                           Northeast -                No. Illinois -            Development
                                                  S. SCHMERBECK                                              M. AHERN                     I. GILLIS
                         Finance and Admin.                                            INC                                                                        N. JOHNSON
                              Services                                        Forensic & Tech. Ser-       Philadelphia Metro -           Northwest -
                           M. MUNLEY                      INC                     vices Division          B. CHAMBERS                  R. MORGAN                      Manager
                                                         Security                 R. GEFFEN                                                                        Exec. Resources
                                                                                                               Southeast -            Rocky Mountain -
                                                     F. MARION                                                                                                    and Ldrship. Dev.
                                 INC                                                                          I. CARIFE                  M. COBOS
                             Information                                              INC                                                                          E. LUCERO
                             Technology                                          Mail Theft &             Washington Metro -               So. Ca -
                                                        Manager
                            R. COCCIA                                            Violent Crimes              J. ROWAN                  J. FREEMAN
                                                        ISOSG                                                                                                     Manager Training
                                                        Memphis
                                                                               A.CLEMMONS                   W. Allegheny -                Southwest -
                                                                                                                                                                    Assessment
                                                     L. BROOKS                                                J. BIRCH                  A. HOLMES                   S. CLARK
                              Managers
                               ISOSGs                                               Manager
                             Bala Cynwyd                                            IS0SG
                                                                                                                                                                 Manager Workforce
                                                                                    Chicago
                             L. KLAUS                                                                                                                             Strategic Plng.
                                                                                 D. HARRIS
                                                                                                                                                                  N. ARROYO
                                Newark
                          V. BELLINGER
                           So. San Francisco
                          K. PARAMORE




AIC - Assistant Inspector in Charge
INC - Inspector in Charge
ISOSG - Inspection Service Operations Support Group




                                                                                                                                                             PAGE 41
PAGE 42   ORGANIZATION
Goals and Strategies




     DID YOU
     KNOW?
    Why does the Postal Service need an OIG
    in addition to the Inspection Service?
    In a word - Independence. The Inspection
    Service is part of and reports through
    Postal management. The OIG is independent
    from Postal management, and by law, must
    report findings without interference from
    management.




                                                PAGE 43
                                                                                                         verse, which includes all projects that could be
                                                    This section describes the OIG and
                                                                                                         considered, is the umbrella of the plan. This
                                                    Inspection Service vision and goals for
                                                                                                         year, the OIG identified nearly 1,000 projects
                                                    assisting the Postal Service in achieving
                                                                                                         for consideration. To hire staff to complete the
                                                    its operational, performance, and finan-
                                                                                                         entire universe of projects in one year would be
                                                    cial goals in the 21st century. In addi-
                                                                                                         unrealistic. Therefore, OIG management selects
                                                    tion, this section describes the process by
                                                                                                         projects from the universe on the basis of risk.
                                                    which the OIG translates its vision into
                                                                                                         These risk factors include the:
                                                    an annual performance plan. In order to
                                                    differentiate between the OIG and the                  ◆ level of Postal Service labor and capital
                                                    Inspection Service, the pages concerning                resources;
                                                    the Inspection Service have been color                 ◆ impact on Postal-wide operations and
                                                    screened.                                               goals; and
                                                                                                           ◆ degree of sensitivity and level of
                                                                                                            visibility.
                                                   OFFICE OF INSPECTOR                                        The OIG selected the highest priority pro-
                                                   GENERAL                                               jects for inclusion in the annual performance
                                                                                                         plan, the second component of the planning
                                                   STRATEGIC GOALS                                       process. For FY 2000, this plan consists of over
                                                        To assure long-term success, the OIG rec-        200 projects, many of which are identified in
                                                   ognizes that it must address Postal Service oper-     the Major Management Challenges section of
                                                   ations and activities, broadly define realistic       this report. The third component is the OIG
Planning System                                    goals, set priorities in line with business vision,   annual audit workload plan, which is extracted
Interrelationships                                 and conceive effective strategies and action          from the annual performance plan. This audit
                                                   plans. Therefore, in January 1998, the OIG            workload plan, which includes Inspection Ser-
                                                   issued its first Five-Year Strategic Plan             vice audits, is presented to the Postal Governors
POSTAL             ANNUAL
PROJECT            PERFORMANCE
                                        AUDIT
                                        WORKLOAD
                                                        In the published Strategic Plan for              each year.
UNIVERSE           PLAN                 PLAN       FY’s 1998-2002, three external and three inter-
                                                   nal goals were identified that were aligned with      PERFORMANCE RESULTS
                                                   each of the Postal Service’s CustomerPerfect!              Each year the OIG establishes annual per-
AUDITS & AUDIT RELATED PROJECT
                                                   goals. The revised plan will reflect one external     formance goals to support its strategic goals.
INVESTIGATIONS
                                 CONSULTING        and one internal goal, aligned with the               During FY 1999, the OIG accomplished over 80
OTHER PROJECTS                   QUICK RESPONSE
                                 FACT-FINDINGS     CustomerPerfect! goals. These five-year goals         percent of its plan. For FY 2000, OIG has estab-
INTERNAL ENABLING FUNCTIONS
                                                   are:                                                  lished eight annual performance goals—one for
                                                                                                         each major operating area—and two for inter-
                                                   External Goal                                         nal operations. To date, OIG is on target to sub-
                                                     Enhancing the Postal Service’s:                     stantially meet its plan.
                                                     ◆ customer service and value;
                                                                                                         THE ROAD AHEAD
                                                     ◆ employee and workplace environment;
                                                                                                              As the OIG expands its infrastructure, it
                                                      and
                                                                                                         will transition its focus to more intensive pre-
                                                     ◆ financial integrity and business viability.       vention and detection of fraud, waste, abuse,
                                                                                                         and mismanagement, as well as the promotion
                                                   Internal Goal                                         of effectiveness, efficiency, and economy
                                                     ◆ effective use of OIG resources.
                                                                                                         throughout the Postal Service. The OIG will
                                                                                                         continue to work with the Inspection Service to
                                                   OIG PLANNING PROCESS
                                                                                                         transition additional responsibilities to support
                                                        These goals play a crucial role in the OIG’s
                                                                                                         CustomerPerfect! goals and help the Postal Ser-
                                                   planning process. The planning process has
                                                                                                         vice meet its major management challenges.
                                                   three interrelated components: the project uni-
                                                   verse, the annual performance plan, and the
                                                   annual audit workload plan. The project uni-



                                        PAGE 44    OIG GOALS AND STRATEGIES
   INSPECTION SERVICE
        The Inspection Service continues to support the Postal Service’s CustomerPerfect! model
   which consists of three voices— Voice of the Customer, Voice of the Employee, and Voice of the
   Business. The management cycle of planning, implementation and review provides a practical and
   tangible method for establishing Inspection Service goals. This process resulted in the identifica-
   tion of the five goals and ten indicators for FY 2000 as follows:




                                 Inspection Service
                             FY2000 Goals and Indicators

                             GOALS                                    INDICATORS


                  Increase Customer Confidence              Customer Satisfaction Measurements-
CUSTOMER      in the Security & Integrity of the Mail              Residential (Security)
                                                                      Volume Thefts



                                                                  Number of Robberies
                      Ensure Employee Safety                      Robbery Solution Rate
                                                                   Number of Assaults
                                                                Number of Credible Threats
EMPLOYEE
               Enhance the Workplace Environment              Performance Management Profiles
              to Improve Organizational Performance                     Recruitment




                    Prevent Loss of Revenue                    Fraudulent Schemes Involving
                          and Assets                             Underpayment of Postage

BUSINESS
                          Reduce Costs                           Fraudulent Compensation
                                                                      Costs Avoided




                                                                                                         PAGE 45
                                                                                                         PAGE 45
PAGE 46   OIG GOALS AND STRATEGIES
Customer Service




  DID YOU
  KNOW?
 Why must the OIG report all of its findings and
 issues to the Governors and Congress?
 The OIG is required by law to keep the Governors
 and Congress fully and currently informed. The
 OIG also reports its findings and issues to Postal
 management so that they can take appropriate
 action to improve the efficiency and effectiveness
 of Postal programs and operations.




                                              PAGE 47
                                                      This section describes the OIG and Inspec-          ◆   facilitating and monitoring OIG internal
                                                      tion Service’s efforts to provide Customer              processing of all Congressional and Gov-
                                                                                                              ernors’ requests to help ensure accurate
                                                      Service including initiatives by support fun-
                                                                                                              and timely responses;
                                                      tions to enhance service to internal cus-
                                                      tomers. Customer satisfaction and service is        ◆   monitoring legislation and attending
                                                      the underlying creed of most successful                 Congressional hearings that affect the
                                                      organizations and businesses. In order to               Postal Service and the Inspector General
                                                      differentiate work reported by the OIG and              community;
                                                      the Inspection Service, pages concerning the        ◆   coordinating preparation of written and
                                                      Inspection Service have been color screened.            oral testimony for Congressional hearings
                                                                                                              and questions arising from such hearings;
                                                                                                              and
                                                      OFFICE OF INSPECTOR                                 ◆   working with Congressional staff mem-
                                                      GENERAL                                                 bers to address important issues as appro-
                                                                                                              priate.
                                                           The OIG’s customers include Members of
                                                      Congress, the Postal Service Governors, Postal      In addition, the OIG keeps the Governors’ and
                                                      managers and employees, other government            Congressional staff members informed about
                                                      agencies, and the American public. In addition      matters that are referred to the OIG from Postal
                                                      to conducting audits, investigations, and other     Service stakeholders and constituents.
                                                      reviews, the OIG demonstrates its commitment              The OIG conducts independent audits and
                                                      to service by responding to customer concerns       investigations of Postal Service programs and
                                                      in a variety of ways as described below.            operations to help ensure their efficiency and
                                                                                                          integrity. The OIG does not, however, normal-
                                                      COMMUNICATING WITH                                  ly perform audits and investigations when the
                                                      CONGRESS AND THE POSTAL
                                                                                                          case involves an individual employee issue that
                                                      SERVICE GOVERNORS
                                                                                                          can be resolved through contractual grievance-
                                                           The OIG is legally responsible for keeping
                                                                                                          arbitration procedures or the Equal Employ-
                                                      Members of Congress and the Postal Service
                                                                                                          ment Opportunity process.
                                                      Governors fully and currently informed. The
                                                                                                                Instead, the OIG focuses its efforts on iden-
                                                      OIG keeps Congress informed by issuing the
                                                                                                          tifying systemic issues and performing Postal-
 Congressional Inquiries                              Semiannual Report to Congress, testifying at
                                                                                                          wide reviews designed to assist in promoting a
 Closed During this Semi-                             oversight and other hearings, and briefing
 annual Period by Category                                                                                healthy and productive work environment for
                                                      Members and their staffs on issues related to the
                                                                                                          all Postal Service employees. By performing sys-
                                                      Postal Service. The OIG keeps the Governors
                 FINANCIAL
                MANAGEMENT        7                                                                       temic rather than individual reviews, the results
         6           3        PERFORMANCE             informed through regular briefings at monthly
        OTHER                                                                                             of OIG work will affect a large number of peo-
                                                      Board meetings, a monthly activity report from
                                                                                                          ple and have a wide-ranging beneficial impact
1OVERSIGHT                                            the Inspector General, and responses to requests
                                                                                                          on Postal Service operations. Information about
                                                      for information. The OIG also regularly pro-
                                                                                                          individual concerns, however, is incorporated
                                                      vides Congress and the Governors with copies
                                                                                                          into a database to identify systemic issues and
                                                      of audit and management advisory reports.
                                                                                                          potential areas for Postal-wide review by the
                             34                            One of the highest priorities of the OIG is
                      LABOR MANAGEMENT
                                                                                                          OIG.
                                                      to provide accurate and timely responses to
                                                                                                                During this six-month reporting period,
                                                      Congress and the Postal Governors. The OIG
                                                                                                          the OIG closed 51 Congressional and Governor
                                                      Congressional and Public Relations team serves
                                                                                                          inquiries. Appendix A of this report lists the
                                                      as the liaison between OIG staff and Congress
                                                                                                          OIG responses to these inquiries by subject area.
                                                      and the Governors and provides a myriad of ser-
                                                                                                          In addition to the following summaries, narra-
                                                      vices, such as:
                                                                                                          tives describing significant OIG work in
                                                      ◆   serving as the point of contact and conduit     response to Congressional and Governor
                                                          of information for all of OIG communica-        requests appear in subsequent sections, as appro-
                                                          tions with Congress and the Governors;          priate.
                                                                                                                The following are a few examples that illus-


                                            PAGE 48   CUSTOMER SERVICE
trate the variety of inquiries the OIG closed              The OIG considers all Hotline contacts
during this reporting period:                         when planning OIG audits and projects. How-
                                                      ever, the Hotline does not replace formal
◆    An investigation into allegations of con-        avenues of problem resolution like grievance
     tract fraud and conflict of interest             arbitration procedures established under agree-
     revealed that the Postal Service was pay-        ment between the Postal Service and its
     ing a contractor for services performed
                                                      Unions, or Equal Employment Opportunity
     for another company (owned by the con-
                                                      complaint procedures established under Federal
     tractor’s spouse) while on the job for the
                                                      guidelines.
     Postal Service. Although the United
                                                           As mentioned in the Overview section,
     States Attorney’s office declined to pros-
     ecute, the matter is being pursued under         during the fall of 1999, the OIG initiated a Hot-
     the Program Fraud Civil Remedies Act.            line awareness campaign by distributing a
                                                      “Fraud, Waste, Abuse, and Mismanagement”
◆    An allegation of a delayed payment of a
                                                      poster throughout the Postal Service. As a
     $25,000 indemnity claim to an individ-
                                                      result, Hotline contacts increased dramatically,
     ual, when coupled with other similar
     inquiries, led to the OIG initiating a           by almost 70 percent, and total contacts during
     systemic review of the indemnity claim           the reporting period exceeded 9,000—the sec-
     process. The individual was eventually           ond largest total for a semiannual reporting
     issued a check for the full amount               period since the Hotline was established in
     claimed, plus postage.                           1997.
                                                           Of the more than 9,000 contacts received:
◆    After an individual was ordered by a
                                                      ◆ Twelve percent were referred internally
     Postal Service manager to vacate Postal
                                                           to the OIG staff for resolution or infor-      The OIG Hotline poster should be posted in all
     Service premises where he was collecting
                                                           mation, and pertained to allegations of        Postal facilities.
     signatures for a political election, he con-
                                                           fraud, waste, abuse, and mismanagement,
     tacted the OIG through his Congression-
                                                           or violations of health and safety rules;
     al representative. The OIG found that
     Postal Service regulations expressly pro-        ◆   Thirty-five percent were referred to the
     hibit political activity on Postal property.         Inspection Service and involved allega-
     Therefore, the Postal Service manager                tions of criminal activity, including
     acted lawfully and in accordance with                threats of violence, mail theft, vandal-
     applicable Postal Service regulations.               ism, or mail tampering;
                                                                                                             Referral of Contacts
     In its continuing efforts to improve overall     ◆   Seven percent were customer service                Received by the Hotline
responsiveness to Congressional requests, the             matters that were referred directly to the         During this Semiannual Period
OIG has improved its tracking system that pro-            Postal Service Consumer Advocate; and
                                                                                                                                        CONSUMER

                                                      ◆
                                                                                                                                         ADVOCATE
vides information on the status of each request.          Forty-six percent related to miscella-                                             7%
The tracking system also provides historical              neous requests for information such as
data on all Congressional and Governor                    job opportunities, ZIP Codes, postal                                                                 35%
                                                                                                                                                          INSPECTION SERVICE

inquiries since the OIG’s inception.                      meters, and other Postal Service-related
                                                          matters.                                                     46%
RESPONDING TO HOTLINE                                                                                           CLOSED DIRECTLY BY HOTLINE

INQUIRIES                                                   The OIG’s national toll-free Hotline num-                                                12%
                                                                                                                                                  FURTHER OIG REVIEW
                                                      ber, 1-888-USPS-OIG (1-888-877-7644), is
     The OIG Hotline provides a vital and con-
                                                      staffed from 7:00 a.m.-7:00 p.m., Eastern Time,
fidential communication link between the OIG
                                                      Monday through Friday (except federal holi-
and persons who contact the Hotline. The Hot-
                                                      days). Threats and any other potentially violent
line receives complaints from employees, cus-
                                                      work situations are routed immediately to the
tomers, and the general public. Complaints
                                                      Postal Police Control Center for action 24-
include alleged violations of laws, rules, or regu-
                                                      hours a day either by an OIG Hotline analyst or
lations; mismanagement; waste of funds; abuse
                                                      through a caller-directed menu system. If the
of authority; or danger to public health and safe-
                                                      emergency call is answered by an OIG Hotline
ty. Complaints and allegations received by the
                                                      analyst, it is evaluated and immediately for-
Hotline are analyzed to identify systemic issues
                                                      warded to Postal Inspectors for appropriate
affecting the Postal Service.


                                                                                                            PAGE 49
          attention. Contacts can also be received at any      judicial determination. In a third case, a federal
          time by fax, e-mail, and voicemail. To increase      court in Philadelphia gave the OIG 24 hours to
          efficiency and Postal customer service satisfac-     respond to a challenge to a Right to Financial
          tion, the OIG uses a caller-direct menu that         Privacy Act subpoena. The legal staff filed its
          allows callers to route inquiries to the appropri-   response within 24 hours, and the following day
          ate office for response.                             the court dismissed the challenge, directing the
                People interested in contacting the Hot-       financial institution to turn over the records.
          line may also write to the United States Postal
                                                               ANSWERING FREEDOM OF
          Service, OIG, Attn: Hotline, 1735 North Lynn
                                                               INFORMATION AND PRIVACY
          Street, Arlington, VA 22209-2020; e-mail the         ACT INQUIRIES
          OIG at hotline@uspsoig.gov; or fax information
                                                                    The OIG responds to many requests for
          to (703) 248-2259.
                                                               reports and other information made to the OIG
          ISSUING INSPECTOR GENERAL                            under the Freedom of Information Act and the
          SUBPOENAS                                            Privacy Act. The Freedom of Information Act
                The Inspector General is authorized under      requires that the OIG respond to the requestor
          section 6(a)(4) of the Inspector General Act to      within 20 working days. Upon receiving a
          issue subpoenas in support of audits and investi-    request, OIG staff conduct a search of OIG
          gations. The Inspector General issues subpoenas      records to determine whether the OIG has any
          in support of activities it performs and in sup-     responsive documents. The OIG disclosed
          port of selected investigations undertaken by        many audit and management advisory reports.
          the Inspection Service.                              Open criminal investigations, however, are not
                The OIG is fully utilizing technology to       released, and generally, only portions of closed
          process subpoenas and has deployed its elec-         criminal investigations are released.
          tronic subpoena system. The OIG “e-subpoena”              Because some audit and management advi-
          system enables OIG special agents and Postal         sory reports contain sensitive Postal Service
          Inspectors to process subpoena requests online       business information, the OIG asks Postal Ser-
          by completing standard forms and transmitting        vice management and Law Department officials
          the requests electronically. This greatly reduces    to identify any business or proprietary informa-
          the time and resources involved in processing        tion that may be exempted from disclosure
          requests that previously were received by mail or    under the Freedom of Information Act. After
          fax and had to be re-entered in the subpoena         reviewing management’s comments, the OIG
          system. The e-subpoena system was recognized         makes the final determination as to whether an
          last year with an Award of Excellence from the       exemption is applicable to an OIG document.
          Executive Council on Integrity and Efficiency.            Often, the OIG receives requests for Postal
                In this reporting period, the OIG issued       Service documents and documents from other
          209 subpoenas: 164 subpoenas supporting the          agencies. In those cases, requestors are notified
          Inspection Service and 45 subpoenas supporting       that their request is being forwarded to the
          the OIG. Eighteen of these subpoenas were            appropriate agency for determination.
          issued in accordance with the Right to Financial          Requestors have the right to appeal an
          Privacy Act, which requires notifying the cus-       OIG determination to withhold all or part of a
          tomer before obtaining financial information.        document. The appeal is sent to the OIG, who
          The OIG issued its first subpoena under the          forwards it to the Law Department, which is
          Electronic Right to Privacy Act in response to       responsible for handling all Freedom of Infor-
          an investigation into cyber-attacks on Postal        mation appeals in the Postal Service.
          Service computer systems.                                 During this six-month period, the OIG
                The OIG legal staff provides assistance in     received 56 requests for information pursuant to
          enforcing subpoenas when the subpoenaed              the Freedom of Information and Privacy Acts.
          party refuses to provide the records. Subpoenas      Two of these requests were answered in full,
          issued under the Inspector General Act are           seven were withheld totally, twenty-seven were
          enforced with the assistance of the Department       partially withheld, and six were referred outside
          of Justice. Two enforcement cases are pending        the OIG. The OIG did not have any documen-


PAGE 50   CUSTOMER SERVICE
tation for the remaining 14 requests. During             Florida’s, respective, education systems.
this reporting period, two appeals were trans-           Each State’s Department of Education
mitted to the Postal Service’s Law Department,           will determine whether Postal job duties
Civil Practice Section, for final decisions. One
appeal was decided in the OIG’s favor and the
                                                         of former students relate to their educa-
                                                         tion.                                                      DID YOU
other appeal is pending. In addition, the Law        ◆   The Department of Education requested                      KNOW?
Department rendered a final decision on two              a computer matching agreement to
appeals that were transmitted in the last report-        obtain information from the Postal Ser-
ing period, upholding the OIG’s initial decision         vice to identify Postal employees who are
                                                         in default on student loan obligations
                                                                                                         How does the OIG handle
to withhold information.
     A majority of Freedom of Information Act            held by the Department. The purpose of          Freedom of Information Act
requests were from individuals interested in             the match is to collect those debts under
                                                         the salary offset provisions of the Debt
                                                                                                         requests?
obtaining their applicant files and for specific
audit reports.
                                                         Collection Act of 1982 when voluntary           Public requests for OIG informa-
                                                         payment is not forthcoming.
                                                                                                         tion are processed pursuant to the
MONITORING COMPUTER                                  ◆   The Department of Veterans Affairs
MATCHING REQUESTS FOR                                    requested an extension of a computer            Freedom of Information Act
POSTAL INFORMATION                                       matching agreement to obtain informa-           (FOIA) by OIG staff. FOIA
      Under the Privacy Act, a matching pro-             tion from the Postal Service to identify
gram is defined as any computerized comparison           Postal employees who owe delinquent             requests may be made in writing,
involving the automated Federal system of                debts under programs administered by            or the public can review informa-
records of two or more agencies. Information             the Department. The purpose of the
contained in a system of records may be dis-             match is to collect those debts under the       tion posted on the world wide
closed to a recipient agency for use in a com-           salary offset provisions of the Debt Col-       web at www.uspsoig.gov
puter matching program pursuant to a written             lection Act of 1982 when voluntary pay-
agreement between the source and recipient               ment is not forthcoming.
agencies, and after publication in the Federal            In addition, the OIG itself follows the
Register. The Postal Service receives requests       computer matching requirements of the Privacy
from other government agencies for Postal Ser-       Act. The OIG and the Department of Labor,
vice data that are used in computer matching         Office of Workers’ Compensation Programs,
programs for a variety of purposes, including sta-   recently agreed to a process by which the OIG
tistical studies and law enforcement activities.     would construct a computer matching program.
Pursuant to the Privacy Act, the Postal Service      In this computer match, the OIG would com-
Data Integrity Board reviews requests seeking        pare Postal Service payroll records with the
information to perform computer matches. The         Department of Labor, Office of Workers’ Com-
Inspector General is a member of the Data            pensation Programs records as part of an audit of
Integrity Board along with the Vice President,       workers’ compensation payments to Postal Ser-
Employee Resources Management; Vice Presi-           vice employees. The OIG is awaiting final
dent, General Counsel; Chief Financial Officer       approval from the Postal Service Data Integrity
and Executive Vice President, Finance; and the       Board. Upon approval, the OIG will initiate a
Chief Postal Inspector.                              review of the Postal Service Injury Compensa-
      During this six-month period, the Inspec-      tion Program to determine the extent of over-
tor General, as a member of the Data Integrity       payment of Federal Employee Compensation
Board, reviewed and approved the following           Act benefits to Postal Service employees who
four requests for computer matching data from        have returned to work.
the Postal Service
◆   Separate requests from the South Dakota          RESPONDING TO MANAGEMENT
    Department of Labor and the Florida              REQUESTS FOR OIG REVIEWS
    Department of Education asking for                    The OIG provides timely and accurate
    information from the Postal Service to           information and recommendations to Postal
    identify Postal employees who were               Service management. The OIG asked Postal
    former students of South Dakota’s and


                                                                                                          PAGE 51
          Service managers to identify operations and          abuse. They achieve these goals through estab-
          emerging issues that would benefit from the          lished committees, which include Audit,
          OIG’s review. Their suggestions are considered       Inspection and Evaluation, Integrity, Investiga-
          during the OIG annual planning process and, to       tions, Legislation, and Professional Develop-
          the extent practical, are given priority consider-   ment. The Postal Service Inspector General
          ation for inclusion in the plan. This process cre-   serves on the President’s Council on Integrity
          ates a unique opportunity to assist management       and Efficiency’s Investigations Committee and
          by providing independent analysis and addi-          the Assistant Inspector General for Audits
          tional information that will assist management       serves on the Federal Audit Executive Council.
          officials in fulfilling their responsibilities.           Both Councils frequently request assistance
               Some examples of suggestions from Postal        and information from the Inspector General
          Service management for operations and issues         community about specific projects, and solicit
          that the OIG plans to review in FY 2000              ideas, comments, and suggestions regarding
          include:                                             other Inspector General-related issues. Main-
                                                               taining an ongoing relationship with these
          ◆   workers’ compensation;
                                                               groups allows the OIG to respond to requests
          ◆   marketing systems;                               and participate in discussions and decisionmaking
          ◆   alternative dispute resolution; and              on important issues of mutual interest within
          ◆   computer security.                               the Inspector General community.
                                                                    The OIG received over 50 inquires from
                The OIG plans to continue to solicit sug-
                                                               these Councils during this reporting period. A
          gestions from Postal managers and will consider
                                                               sampling of some of the various requests
          all suggestions as it plans projects.
                                                               include:
          REVIEWING LEGISLATION AND                            ◆   providing information for the President’s
          REGULATIONS                                              Council on Integrity and Efficiency FY
               As required by the Inspector General Act,           1999 Progress Report to the President,
          the OIG monitors legislative and regulatory              which outlined the Postal Service OIG’s
          developments to advise Congress and the Gov-             audit and investigative accomplishments
          ernors of the impact of such legislation and reg-        for the year;
          ulations on Postal Service programs and opera-       ◆   joining with the Inspector General com-
          tions. The relevant legislative and regulatory           munity and commenting to Congress on
          reviews are included at the end of the appropri-         the Webster Report, which addressed the
          ate sections that describe the OIG and Inspec-           need for criminal investigators to remain
          tion Service reviews performed during the last           within the Inspector General community;
          six months. During the six-month period, the             and
          OIG evaluated 47 legislative proposals and 49        ◆   participating in significant discussion and
          regulatory initiatives.                                  debate of a possible GAO auditing standard
                                                                   that would question the organizational
          ASSISTING INSPECTORS
          GENERAL COUNCILS                                         independence of Inspectors General and
                                                                   have a significant negative impact on the
               The OIG is a member of the Executive
                                                                   Inspector General community.
          Council on Integrity and Efficiency, whose
          member Inspectors General are appointed by           USING COMPUTER FORENSICS
          their agency heads. The OIG also interacts with
                                                                     The OIG Computer Forensics Team is
          the President’s Council on Integrity and Effi-
                                                               staffed by specialists trained and certified in the
          ciency, whose members are appointed by the
                                                               seizure of computers and the recovery of elec-
          President.
                                                               tronic evidence. Their mission is to identify
               The President’s Council on Integrity and
                                                               individuals who use computers for criminal pur-
          Efficiency and Executive Council on Integrity
                                                               poses generally in one of three ways. First, a
          and Efficiency conduct interagency audits,
                                                               computer may be the target of the offense. In
          inspections, and investigative projects to
                                                               these cases, the criminal’s goal is to steal infor-
          address government-wide fraud, waste, and
                                                               mation from or cause damage to a computer.


PAGE 52   CUSTOMER SERVICE
Second, the computer may be a tool of the
offense. This occurs when an individual uses a
computer to facilitate some traditional offense
such as fraud. Lastly, computers are sometimes
incidental to the offense but significant to law
enforcement because they contain evidence of
a crime.
◆    During the reporting period, Computer
     Forensics team members participated in
     five search warrants and seized thousands
     of megabytes of data. The data will be
     analyzed in the OIG computer forensics
     laboratory located in headquarters.
◆    Members of the team are active in the
     High Technology Crime Investigation
     Association, the Regional Computer
     Forensics Group, and the International
     Association of Computer Investigative
     Specialists.
                                                      OIG staff sharing skills and knowledge to
PROVIDING POLYGRAPH                                   achieve effective results.
SERVICES
    The OIG Polygraph program aids criminal
investigators and is an effective tool to assist in
proving guilt as well as innocence. OIG poly-
graph examiners represent the OIG within the
polygraph community and on the Federal Poly-
graph Executive Committee.

DEPLOYING A COMMUNICATIONS
SYSTEM
      Law enforcement agencies use two-way
radio communications during field operations.
The OIG utilizes state-of-the-art handheld
radios to ensure operational readiness and prac-
ticality for field agents. In addition, the OIG
utilizes the Customs Service radio network,
called SECTOR, to enhance the effectiveness
of its communications abilities and assure that
communications are secure.
      SECTOR increases the range of the hand-
held radios through a nationwide system of over
368 repeaters. The SECTOR system also gives
field agents a communication link to a dis-
patcher who can send emergency assistance
immediately 24 hours a day, seven days a week.
The Customs Service is compensated by the
OIG on a per handheld or subscriber basis. This
arrangement benefits the OIG by reducing
manpower, repair, and site costs.




                                                        PAGE 53
                                                                                            the National Association of Attorneys General,
                                        INSPECTION SERVICE                                  the Better Business Bureau, the American
                                             The Inspection Service has adopted             Association of Retired Persons, and the Federal
                                        numerous initiatives to improve customer ser-       Trade Commission. One such teaming involved
                                        vice. The Inspection Service endeavors to alert     “surfing the net” for get rich quick scams for
                                        consumers and businesses to current crimes by       project “Get Rich Quick.con.” Another initia-
                                        attracting media attention to Postal crime          tive involved Internet auction frauds. The
                                        trends, publicizing positive law enforcement        Inspection Service contributed to this effort by
                                        accomplishments, circulating media releases,        highlighting at least 26 Internet auction inves-
                                        and hosting crime prevention presentations.         tigations that involved use of the mail.
                                                                                                  Additionally, a survey commissioned by
                                        CONGRESSIONAL LIAISON
                                                                                            the Inspection Service revealed that 48 percent
                                              On December 13, 1999, Senate and House        of respondents who were victims of fraud did
                                        staff members and a representative from the         not report the crimes. The reason most often
                                        Postal Service’s Government Relations office        cited was that did not know where to go for
                                        toured the Forensic and Technical Service Divi-     assistance. In an effort to educate and help con-
                                        sion facility in Virginia, during which the capa-   sumers, the Inspection Service joined forces
                                        bilities and technical expertise of each depart-    with several federal, state, and private agencies,
                                        ment were explained. A positive response from       including the Department of Justice, Federal
                                        congressional staffers resulted in additional       Bureau of Investigation (FBI), Federal Trade
                                        tours being scheduled.                              Commission, Securities and Exchange Com-
                                              The Inspection Service recently participat-   mission, National Association of Attorneys
                                        ed in the spring session of the Brookings Insti-    General, American Association of Retired Per-
                                        tution’s LEGIS Fellows Program. The program         sons, and Better Business Bureau to launch
                                        offers a one-month orientation to the structure     KNOW FRAUD, the largest consumer protec-
                                        and organization of Congress, followed by an        tion effort ever undertaken. The purpose of the
                                        assignment on Capitol Hill working for a mem-       nationwide campaign was to connect the public
                                        ber of Congress, a Congressional committee, or      with agencies that can help and provide con-
                                        a support agency in Washington, DC. A six-          sumers with new resources to “slam the phone”
                                        month detail assignment was completed in            on telemarketing scams.
                                        December by a Postal Inspector serving as a               A toll-free number, 1-877-987-3728, and a
                                        Legislative Assistant on the personal staff of a    KNOW FRAUD web site were established to
                                        member of the House Committee on Govern-            provide consumers with additional fraud pre-
                                        ment Reform, the oversight committee of the         vention information and to link consumers
                                        Postal Service.                                     with law enforcement officials who would share
                                              The Inspection Service coordinated meet-      information. To date, over 80,000 visits to the
                                        ings for the Chief Postal Inspector with the        web site have been received as well as nearly
                                        Chairman of the Subcommittee on the Postal          42,000 calls to the toll-free number.
                                        Service and the Ranking Minority member,
                                        Subcommittee on the Postal Service, to discuss      CRIME LABORATORIES
The Inspection Service KNOW FRAUD       Inspection Service matters.                              Solving investigations and convicting
campaign was designed to help protect                                                       criminals often requires the unique scientific
consumers.                              CONSUMER PROTECTION
                                                                                            and technical support of the Forensic and Tech-
                                             Mail fraud is a crime that can be prevented    nical Services Division. The Forensic and Tech-
                                        through education and awareness because every       nical Services Division oversees polygraph,
                                        victim or potential victim must decide whether      technical, and laboratory services for the
                                        or not to participate in a given promotion.         Inspection Service. Five forensic laboratories
                                        Accordingly, this year Postal Inspectors fre-       provide scientific support by analyzing and
                                        quently joined forces with consumer protection      examining document and physical evidence
                                        agencies and organizations in fraud prevention      gathered from Postal crime scenes.
                                        initiatives. The Postal Service has partnered
                                        with the Securities and Exchange Commission,


                              PAGE 54   CUSTOMER SERVICE
TECHNICAL SERVICES                                         arrest of seven subjects, including an
      Technical services personnel assist and sup-         employee of a private carrier, and the
port field division staff in the acquisition and use       seizure of $60,000 in cash, jewelry, and six
                                                           vehicles.
of various sophisticated equipment and services
to make their job easier and safer. The unit uti-      ◆   The Mail Screening Program involves
lizes Inspectors, security technicians, and com-           acquiring and maintaining portable and
munications specialists to meet program objec-             fixed mail screening equipment utilized by
tives. Programs include radio, electronic surveil-         Inspection Service personnel and Postal
lance, and mail screening. Information relating            employees assigned to Mail Recovery
                                                           Centers and the national headquarters
to each program follows.
                                                           mailroom. Currently, the Inspection Ser-
◆    The division provides and manages a $40               vice maintains 107 portable units used by
     million national two-way radio communi-               Postal Inspectors nationwide and 16 fixed
     cations system for Postal Inspectors and              units in Postal facilities. In addition,
     Postal Police Officers. The system                    seven mobile trailers are maintained and
     includes the hardware infrastructure                  ready for immediate deployment for
     (mobiles, portables, base stations and                urgent mail screening initiatives autho-
     repeaters) and ancillary equipment                    rized by the Chief Postal Inspector. Eighty
     including satellite telephone services. The           portable units were recently upgraded for
     systems provide the Inspection Service                Y2K compatibility. The Inspection Ser-
     with reliable and efficient law enforce-              vice provided mail screening during the
     ment communications and emergency                     World Trade Organization Conference
     national or local disaster communications             held in Seattle, Washington, on Novem-
     for the Postal Service (e.g., floods, hurri-          ber 30 through December 3, 1999.
     canes, etc.). During this reporting period,
     the Rocky Mountain, Western Allegheny,            POLYGRAPH SERVICES
     and Philadelphia Metro Divisions were                  Polygraph examinations have proven to be
     being upgraded with digital narrow band           effective in resolving cases involving employee
     systems. Special projects this period                                                                   The Inspection Service’s forensic spe-
                                                       assaults, registered and other mail thefts, allega-   cialists provide technical expertise to
     included upgrading the radio system for
                                                       tions of assault, and misappropriation of Postal      support investigations of criminal
     the San Juan office and setting up a com-
                                                       funds or property.                                    activities.
     munications system for the Y2K Com-
     mand Center.                                      ◆   A casual clerk/rural carrier associate of
◆ The National Electronic Surveillance                     the Appalachian District Accounting
  Program includes the administration and                  Office was polygraphed in conjunction
  asset management of the Inspection Ser-                  with an investigation of lost registered
  vice’s approved or court-ordered intercep-               mail. The clerk took a polygraph test and
  tion of electronic transmissions, which                  was found deceptive; however, the clerk
  requires strict adherence to legal and                   denied any knowledge of the theft and
  operational guidelines, and continued                    agreed to an automobile and residence
  maintenance of state-of-the-art technolo-                consent search. During the search, Postal
  gy and expertise.                                        Inspectors recovered a substantial amount
                                                           of cash and other documents that were
◆    Forensic and Technical Service Division               contained in the registered mail. The
     staff supplied the equipment and installa-            employee then confessed to stealing.
     tion for a Title III wiretap on land-line
     and cellular telephone circuits used by           ◆   A New York distribution clerk accepted
     Postal Inspectors and Arizona police                  $7,500 in counterfeit U.S. currency. In
     detectives after they uncovered a multi-              all, the clerk had 150 counterfeit $50
     million dollar marijuana trafficking orga-            bills. When Postal Inspectors responded,
     nization. Large quantities of marijuana               the employee claimed he could not
     were being sent via a private carrier to              remember any one person coming to his
     several states, and proceeds returned via             window with these counterfeit bills and
     Express Mail to commercial mail receiv-               did not realize they were counterfeit when
     ing agencies. The case resulted in the                he accepted them. The clerk was then


                                                                                                             PAGE 55
                                        polygraphed and found deceptive. In the
                                        subsequent interrogation, he acknowl-
                                        edged he knew the money was counter-
                                        feit when he accepted it and admitted
                                        that he exchanged the money for Postal
             DID YOU                    money orders.

             KNOW?                  FORENSIC SERVICES
                                          Inspection Service forensic analysts pro-
                                    vide expert examinations and testimony on
Are mailboxes considered            evidence submitted by Postal Inspectors for
Federal property?                   document, fingerprint, chemical, and physical
                                    evidence analyses. Lab personnel are available
Yes, Federal law (18 USC § 1705)
                                    to respond to the most critical, violent criminal
makes it a crime to vandalize       investigations to assist in processing and evalu-
mailboxes (and to injure, deface,   ating evidence. During this reporting period,
                                    over 108 sets of fingerprints were matched on
or destroy any mail deposited in    Automated Fingerprint Identification System
them). Violators can be fined up    searches. This significantly reduced investiga-
                                    tive hours by identifying suspects from latent
to $250,000 or imprisoned for       prints developed. Ten identifications were
up to three years for each act of   made just on volume mail theft cases in two
                                    western cities. In Virginia, a suspect was identi-
vandalism.
                                    fied through an Automated Fingerprint Identi-
                                    fication System search after 43 fingerprints
                                    were obtained and then matched in the system.
                                    The suspect was responsible for stealing mail
                                    from 200 residents and possessed 12 counterfeit
                                    driver’s licenses when arrested. Forensic ana-
                                    lysts also made 45 court appearances to provide
                                    testimony.

                                    DIGITAL EVIDENCE
                                          Inspection Service personnel assigned to
                                    this unit preserve, access, retrieve, and recover
                                    evidence stored on computers and related
                                    media. The unit also conducts forensic exami-
                                    nations of audio and video media. They pro-
                                    vided assistance with search warrant and affi-
                                    davit preparation, pre-search planning, on-site
                                    search assistance, and marking, packing, trans-
                                    porting, and processing seized computer equip-
                                    ment.
                                          Significant activities of the Digital Evi-
                                    dence Program include testimony in a child
                                    molestation case that resulted in a successful
                                    prosecution. On-site support of search warrant
                                    activities was also provided in Maryland, Vir-
                                    ginia, Illinois, and Texas. Program managers
                                    assisted in a child exploitation case in Mon-
                                    tana, which involved finding over 3,500 child
                                    pornography images on the suspect’s seized
                                    computers.



                          PAGE 56   CUSTOMER SERVICE
Performance Reviews




 OFFICE OF INSPECTOR GENERAL
      Accepting and Processing
      Transportation
      Delivery
      Marketing
      Legislative and Regulatory Reviews
 INSPECTION SERVICE
      Transportation
      Delivery
      Mail Theft
      Service Investigations



                                           PAGE 57
                                                                                              accurate delivery of mail, accepting and pro-
                                          This section highlights audits, reviews,
                                                                                              cessing procedures must be state-of-the-art. Sit-
                                          and investigations conducted by the OIG
                                                                                              uations that result in delayed mail processing
                                          and the Inspection Service in the Perfor-
                                                                                              must be vigorously evaluated and the underly-
        DID YOU                           mance area. Also, included at the end of
                                          the OIG section are the OIG legislative
                                                                                              ing causes promptly resolved. During the past
        KNOW?                             and regulatory reviews. In order to dif-
                                                                                              six months, the OIG issued six reports in the
                                                                                              Accepting and Processing Area, including the
                                          ferentiate the work products by the OIG
                                                                                              External First-Class Measurement System and
                                          and Inspection Service, the pages con-
What is a “performance”                                                                       delayed mail volume, which are discussed
                                          taining the Inspection Service work have
                                                                                              below.
audit?                                    been color screened. Report numbers are
                                          shown in parentheses after the narra-               EXTERNAL FIRST-CLASS
Performance auditing is a specific        tives, as appropriate.                              MEASUREMENT SYSTEM
type of audit that assesses                                                                         The OIG evaluated the Postal Service’s
                                                                                              controls for detecting and preventing compro-
whether Postal Service programs
                                                                                              mise of the External First-Class Measurement
and operations are managed
                                         OFFICE OF INSPECTOR                                  System and its capabilities for measuring First-
                                         GENERAL                                              Class Mail service. The audit confirmed the
economically and efficiently,
                                              To deliver world-class service, businesses      current contractor has adequate internal con-
achieve desired results, or are          and government agencies must excel in per-           trols for detecting and preventing compromise
conducted in compliance with             forming their core business processes. For the       of the system. However, the current system does
                                         Postal Service, these core business processes and    not include all ZIP Code areas in the selection
applicable laws and regulations.         systems encompass accepting, processing, trans-      process, relies on a sample size that is larger than
The OIG plans and executes a             porting, and delivering the mail as well as mar-     necessary to obtain projectable results, and does
                                         keting Postal products and services. In the past     not measure the mail volume flow of many
wide range of performance audits
                                         six months, the OIG has completed 27 reviews         modes of First-Class Mail.
of Postal Service efforts to             of key and emerging issues relating to the Postal          The audit identified that the External First-
                                         Service’s performance of core business processes.    Class Measurement System may not accurately
respond to their businesses,
                                         The reviews identified opportunities to save         measure overall performance of First-Class Mail
customers, and employees.                over $31 million during current and future           service ZIP Codes that are not represented in the
                                         years. The reports with the major savings or sig-    testing universe. The OIG offered a recommen-
                                         nificant findings are:                               dation designed to enhance the system and
                                                                                              ensure that External First-Class Measurement
                                         ◆   External First-Class Measurement                 Systems results would not be misinterpreted by
                                             System, page 58;                                 users outside of the Postal Service. Manage-
                                         ◆   Commercial Air Carrier Performance,              ment agreed with a recommendation to fully dis-
                                             page 59;                                         close that the External First-Class Measurement
                                         ◆   Breast Cancer Research Stamp Program,            System is not a system-wide measurement of all
                                             page 61; and                                     First-Class Mail performance. Specifically, man-
                                                                                              agement agreed to include the following dis-
                                         ◆   Security of Stamp Stock, page 61.
                                                                                              claimer in connection with External First-Class
                                         ACCEPTING AND PROCESSING                             Measurement System results: “External First-
                                                                                              Class Measurement is an external measurement sys-
                                              Each day, over 650 million pieces of mail
                                                                                              tem of collection box to mailbox delivery perfor-
                                         are accepted by the Postal Service in a variety of
                                                                                              mance. External First-Class Mail Measurement
                                         ways, including collections from more than
                                                                                              continuously tests a panel of 465 ZIP Code areas
                                         300,000 blue collection boxes and residential
                                                                                              selected on the basis of geographic and volume densi-
                                         and business collection mailboxes. Express
                                                                                              ty from which 90 percent of First-Class volume orig-
                                         Mail, First-Class Mail, and some Priority Mail
                                                                                              inates and 80 percent destinates. External First-
                                         and periodicals are sorted at the more than 300
                                                                                              Class Mail Measurement is not a system-wide mea-
                                         processing and distribution plants, while Stan-
                                                                                              surement of all First-Class Mail performance.”
                                         dard Mail is generally handled at the 21 bulk
                                                                                              Management also agreed to establish milestones
                                         mail centers. In order to ensure timely and

                               PAGE 58   PERFORMANCE REVIEWS
for using planned information technology to           $4.4 billion annually on transportation services.
measure all streams of First-Class Mail.              For most of these services, the Postal Service
(OIG DS-AR-00-001)                                    relies on private transportation contractors. In
                                                      addition to its contracts with commercial carri-
DELAYED MAIL IDENTIFIED
                                                      ers, the Postal Service operates its own truck
    During this period, the OIG conducted             fleet for some routes and manages three dedi-
two reviews of mail processing activities that        cated transportation networks for expedited ser-
identified delayed mail at Postal facilities.         vices. During the past six months, the OIG per-
Because mail processing delays are potentially        formed eight transportation-related reviews, the
damaging to the Postal Service’s reputation           most significant of which are highlighted below.
with its customers, the OIG reported results to
Postal management expeditiously and manage-           COMMERCIAL AIR CARRIER
ment took immediate action to correct the             PERFORMANCE
problems identified.                                       In response to a request from the Postal
                                                      Service’s Chief Operating Officer, the OIG
◆    In the first review, the OIG discovered
                                                      conducted an audit of commercial air carrier
     approximately 20 trailers of delayed mail
                                                      performance. The Chief Operating Officer
     at a Kentucky processing and distribution
     center. The mail was found inside sealed         expressed concern that air carriers were not
     and unsealed trailers and was several            meeting expected on-time delivery targets
     weeks old. Delayed mail was also found           established by the Postal Service’s Air Systems
     in various staging areas on the plant floor      Contract, despite pay-for-performance incen-
     and in unsecured storage areas. Facility         tives offering incremental pay for higher levels
     personnel also inaccurately reported             of service. To address these concerns before
     delayed mail volumes and processing              renewal of the Air Systems Contract in
     deadlines to Postal Service Headquarters.        September 2000, the OIG issued three reports.       Containers of delayed mail indicate
     Postal management took immediate steps                                                               management problems with mail
                                                      ◆   The first report disclosed the Postal Ser-      processing operations.
     to correct the underlying causes of the
                                                          vice could save $28 million over a five-
     mail delays and indicated that the OIG’s
                                                          year period by reducing contract rates
     review led to decisions that will improve
                                                          where Postal Service employees perform
     controls and integrity in the processing
                                                          ground-handling services expected of car-
     and reporting of mail volumes.
                                                          riers. Although the contract requires air
     (OIG TR-MA-00-001)
                                                          carriers to unload the mail at Postal Ser-
◆    In the second review, the OIG evaluated              vice facilities, local agreements were made
     the Standard Mail processing operation at            at 17 locations to have Postal Service per-
     a Virginia location to determine if mail             sonnel unload mail without any decrease
     delays similar to those in Kentucky also             in the payments to the carriers. In negoti-
     occurred at other locations. While the               ating the terms of the new Air Systems
     review did not disclose the same type of             Contract, the OIG recommended man-
     mail delays and processing issues identi-            agement assess the value of delivery ser-
     fied in Kentucky, the OIG determined                 vices, reduce the contract rate where
     that mail could be more efficiently staged           Postal employees are unloading the mail,
     for mail processing and identified prob-             and eliminate provisions prohibiting con-
     lems with the procedure for reporting mail           tract rate adjustments.
     status. Management took immediate
                                                          Management concurred with the OIG
     action to correct the problems identified.
                                                          findings and recommendations, but did
     (OIG AC-LA-00-001)
                                                          not fully agree with estimated savings.
 TRANSPORTATION                                           However, management indicated they
                                                          would give special consideration to price
     Transportation of mail is a vital part of the        adjustments in the upcoming contract
Postal Service’s mission of binding the nation            renewal. (OIG TR-AR-00-006)
together by providing prompt, reliable, effi-
                                                      ◆   In the second report, the OIG determined
cient, and universal mail delivery. To fulfill this
                                                          the measurement system for evaluating air
mission, the Postal Service spends in excess of


                                                                                                           PAGE 59
                                              carrier performance did not provide the         mine contractors’ actual costs and recover any
                                              Postal Service and commercial air carriers      overpayments. (OIG TR-AR-00-005)
                                              with the type of information needed to
                                              make performance improvements. Also,            DELIVERY
                                              the method for measuring volumes did not             Universal service—delivering mail to
                                              represent overall air carrier performance       everyone, everyday, everywhere in America, at
                                              and data supporting performance measure-        uniform rates—is the cornerstone of the Postal
                                              ment was inaccurate. Postal Service man-        Service’s mission. To fulfill this mission, the
                                              agement agreed with the OIG’s recom-            Postal Service developed a delivery network of
                                              mendations, and suspended use of the cur-       about 233,000 mail routes that are serviced by
                                              rent system, effective February 26, 2000.       nearly 300,000 letter carriers and 200,000 deliv-
                                              Postal management also agreed to either         ery vehicles. During FY 1999, the Postal Ser-
                                              redesign performance measurement or             vice delivered over 200 billion pieces of mail to
                                              explore other alternatives for improving
                                                                                              130 million homes and businesses—an average
                                              performance. (OIG TR-AR-00-003)
                                                                                              of 1,500 pieces of mail for every household and
                                          ◆   The third report disclosed the pay-for-per-     business in America. In the last six months, the
                                              formance clause introduced in September         OIG performed five delivery-related reviews,
                                              1998 was not effective in improving air car-    two of which are highlighted below.
                                              rier performance and that data underlying
The OIG Transportation Team focuses on        incentive payments was unreliable. The          ACCEPTANCE OF ALTERNATIVE
improving the Postal Service’s airline,       audit concluded that continued use of the       FUEL DELIVERY VEHICLES NOT
highway, and rail operations.                                                                 MEETING SPECIFICATION
                                              current pay-for-performance system would
                                              not produce the service improvements orig-            Management requested that OIG review
                                              inally envisioned. The OIG recommended          plans to accept 21,775 delivery vehicles under a
                                              Postal Service management immediately           $441 million contract with an automobile man-
                                              discontinue incentive payments and elimi-       ufacturer. Postal Service management had
                                              nate the current pay-for-performance clause     already determined that fuel pumps on the vehi-
                                              in future renewals of the Air Systems Con-      cles failed within 100 hours of engine run time
                                              tract. Management agreed with the find-
                                                                                              when used with ethanol fuel. The OIG agreed
                                              ings and recommendations and suspended
                                                                                              with management that the Postal Service
                                              use of the Performance Measurement Sys-
                                                                                              should accept the vehicles after the manufac-
                                              tem on February 26, 2000.
                                              (OIG TR-AR-00-004)                              turer agreed to correct the problem by retro-
                                                                                              fitting the vehicles after delivery.
                                          EXCESSIVE EXPENDITURES                                    The OIG recommended the Postal Service
                                          FOR HIGHWAY TRIPS IN THE                            identify and recover all expenses, including
                                          SOUTHWEST AREA                                      salaries, fringe benefits, and other costs incurred
                                               In an audit of extra highway trips in the      by Postal Service personnel to retrofit the vehi-
                                          Southwest Area, the OIG reported that con-          cles, and that the manufacturer be required to
                                          tractors were overpaid approximately $848,000       provide details on its retrofitting plans to ensure
                                          for extra trips operated under a service improve-   only minimal disruption to Postal operations.
                                          ment initiative. Although required by Postal        Management agreed with the OIG recommen-
                                          policy, contract rates for the extra trip service   dations and indicated that if the manufacturer is
                                          were not adjusted and contracts were not            unable to comply with the contract, they will
                                          amended to authorize the use of leased equip-       enter negotiations to return the vehicles or
                                          ment. As a result, the Postal Service continued     obtain a price reduction, identify and recover all
                                          to make excessive payments to contractors for       costs to retrofit vehicles, and obtain a written
                                          33 months after the service improvement pro-        retrofit plan from the manufacturer.
                                          gram was initiated. Management agreed with          (OIG DS-MA-00-001)
                                          the OIG’s findings and recommendations, but
                                          disagreed with the amount of the overpayments.
                                          However, despite this disagreement, manage-
                                          ment indicated they would review and deter-


                               PAGE 60    PERFORMANCE REVIEWS
IMPROVEMENTS IN VEHICLE                              number of semi-postal stamps required in the
MAINTENANCE ASSIGNMENTS                              future. Management agreed to issue regulations
AND REDUCTION IN RELATED                             on recoverable semi-postal stamp costs by July
TRANSPORTATION COSTS                                 2000. However, management only intended to
     The OIG conducted a review of delivery          recover $482,000 of $841,000 in incremental
operations and determined that 3 of 10 area          costs, and disagreed that improvements are
offices did not always send vehicles to the near-    needed to improve estimates of semi-postal
est facility for maintenance. In addition, the       stamp printing requirements. The OIG plans to
Postal Service used mechanics to transport the       perform additional work in the area of estimat-
vehicles to the maintenance facility. The OIG        ing stamp printing volumes. The GAO recent-
reported the Postal Service could achieve cost       ly issued a separate report on the appropriate-
savings by transporting vehicles to the nearest      ness of the Postal Service as a fundraising
maintenance facility, obtaining contractors to       agency and the overall effectiveness of semi-
transport vehicles when cost effective, and          postal stamps. (OIG RG-AR-00-002)
using personnel other than mechanics to trans-
port vehicles. Management generally agreed
                                                     SECURITY OF STAMP STOCK
with the suggestions and initiated action to              The Postal Service prints over 38 billion
address the issues in the report.                    stamps each year, which generates over $12 bil-
(OIG DS-MA-00-002)                                   lion in annual revenue. Sales include approxi-
                                                     mately 30 billion First-Class Mail stamps. Secu-
MARKETING                                            rity of stamp inventory is important because
     The Postal Service operates in a competi-       stamps can easily be converted to cash. The
tive environment. The Postal Service’s ability       OIG performed two reviews as discussed below.
to maintain or increase its market share is essen-
                                                     ◆   During one review, the OIG observed
tial to provide universal service at affordable
                                                         unsecured stamp stock, valued in excess of     The Breast Cancer Research Stamp pro-
rates. During the past six months, the OIG per-          $6 million, on the outbound dock of a          gram has raised over $8.6 million for
formed eight reviews of marketing, including             North Carolina processing and distribu-        breast cancer research.
stamp operations. The most significant market-           tion center. The stamp stock, which was
ing-related reviews are highlighted below.               transported as registered mail, was not
                                                         properly accounted for and secured. The
BREAST CANCER RESEARCH
                                                         audit disclosed that the registered mail
STAMP PROGRAM
                                                         clerk had not taken custody of and
     The OIG conducted an audit of the Breast            secured the stamp stock as required
Cancer Research Stamp Program to determine               because storage space was not available at
whether revenues, costs, and payments were               the plant.
accounted for adequately, and whether Postal
                                                         The OIG offered three suggestions to pro-
Service management acted on suggestions in a
                                                         vide adequate security. Postal Service
prior OIG audit report. The audit disclosed
                                                         management agreed to take steps to
that the Postal Service had raised about $8.6            ensure employee compliance with Postal
million for breast cancer research.                      security regulations, investigate options
     The OIG found, however, that the Postal             for securing the stamp stock at the present
Service had not collected $841,000 in recover-           facility, and ensure that adequate space is
able program costs incurred for the Breast Can-          provided for stamp stock storage in the
cer Research stamp. The OIG also reported the            new facility. (OIG TR-MA-00-002)
Postal Service spent more than $940,000 to           ◆   Another OIG audit identified 27 manage-
print an additional 131.7 million Breast Cancer          ment control weaknesses in the areas of
Research stamps that, based on past sales data,          physical security, interior facility design,
may not be needed.                                       stamp accountability, stamp destruction,
     The OIG recommended the Postal Service              separation of duties, and stamp inventory
recover the incremental costs, issue guidance            management at six Postal Service sites.
on tracking and reporting program costs, and             At one of the sites, weaknesses con-
develop an improved system for estimating the            tributed to a $79,680 loss in stamp stock.



                                                                                                         PAGE 61
                                               Management generally agreed with the            LEGISLATIVE AND REGULATORY
                                               OIG findings and recommendations, and           REVIEWS
                                               offered additional information or proposed
                                               solutions to mitigate concerns raised in        PROPOSED LEGISLATION
                                               the report. (OIG RG-AR-00-001)
                                                                                               S. 1359 – The Postal Hazardous Materials
                                           COST/BENEFIT OF THE                                 Safety Enhancement Act
                                           INTERNATIONAL STAMP                                      This legislation would remove the exemp-
                                           COLLECTION PROGRAM                                  tion the Postal Service currently enjoys from
                                           QUESTIONED                                          Federal regulation of hazardous material shipped
                                                As a result of a Congressional inquiry, an     in the mails. The Postal Service self-governs
                                           OIG review of the Postal Service’s Internation-     hazardous materials transportation through
                                           al Stamp Collection Program disclosed that,         internal regulations and inspections.
                                           since its inception in FY 1997, the program had          The sponsor of the legislation has stated
                                           lost about $3.9 million. In addition, about $4.5    the National Transportation Safety Board has
                                           million in costs had not been accurately charged    made numerous recommendations over the
                                           to the program. Postal Service management           years to subject the Postal Service to Depart-
                                           agreed with the OIG’s suggestions to consider       ment of Transportation inspections and
                                           past financial performance in addition to rev-      increased enforcement efforts. In addition, the
                                           enue and cost projections in determining            sponsor maintains that the National Trans-
                                           whether to continue the program, and to ensure      portation Safety Board has also recommended
                                           accurate identification of future program costs.    the Postal Service be subject to enforcement
                                           The Postmaster General notified Congress that       obligations similar to those observed by other
                                           the International Stamp Collection Program          package and express mail companies.
                                           would be discontinued which will save the                The Postal Service is concerned that
                                           Postal Service about $1.5 million annually in       adding another layer of regulation could create
                                           catalogue printing costs. (OIG RG-MA-00-001)        more problems than it would solve, and would
                                                                                               be an impediment to efficient Postal operations.
                                           INADEQUATE INTERNAL                                 Mail might not be able to move when scheduled
                                           CONTROLS OVER GRAND
                                                                                               due to Department of Transportation inspec-
                                           CANYON STAMP
                                                                                               tions and a diminished level of service could
                                                The OIG issued its second report on errors
                                                                                               result. This legislation has been referred to the
                                           in the issuance of the Grand Canyon stamp.
                                                                                               Senate Commerce Committee for their consid-
                                           The first report determined that a printing error
                                                                                               eration. The OIG has not performed specific
                                           occurred because management did not adhere
                                                                                               work to evaluate the impact of this proposal.
                                           to established control processes to prevent text
                                                                                               However, the OIG will consider including
                                           errors, specifically the use of the name Colorado
                                                                                               appropriate steps in future reviews to develop
                                           rather then Arizona. The second report
                                                                                               independent and objective information to assist
                                           disclosed that additional controls were needed
                                                                                               Congress in its decisionmaking.
The Postal Service decided not to recall   to prevent the second error, the reversal of
the Grand Canyon Stamp which was           photo images used in the stamp designing            H.R. 3202 – Door Delivery of Mail to
printed with a reversed photo image.       process. Stamp Services’ management imple-          Persons Residing in Senior Communities
                                           mented additional controls that should prevent            This legislation would require the Postal
                                           the errors noted in these reports from occurring    Service to deliver mail to the doors of persons
                                           in future stamp designs. (OIG RG-LA-00-002)         who reside in senior communities. Senior
                                                                                               communities are defined in the bill as housing
                                                                                               facilities or communities designed for persons
                                                                                               age 55 or older. Eighty percent of the units in
                                                                                               the facility or community would have to have at
                                                                                               least one resident age 55 or older residing in
                                                                                               them to qualify the facility or community for




                                PAGE 62    PERFORMANCE REVIEWS
door delivery. The bill has been referred to the     sale of stamps at prices above the normal First-
House Postal Service Subcommittee for legisla-       Class rate. Under the semi-postal legislation,
tive consideration.                                  the difference between the stamp sales price,
     This legislation could have an impact on        less the First-Class rate and an amount suffi-
the economy and efficiency of the Postal Ser-        cient to cover reasonable costs incurred by the                 DID YOU
vice. The Postal Service believes that requiring
it to employ dismounted delivery in areas
                                                     Postal Service in printing, selling, and distribut-
                                                     ing the stamp, would be paid to the benefiting
                                                                                                                     KNOW?
encompassed by the bill would increase labor         organization. Both bills have been referred to
costs and diminish delivery efficiency. The          the Senate Governmental Affairs Committee             What is the OIG Hotline
OIG has not performed specific work to evalu-        for legislative consideration.
ate the impact of this proposal. However, the              The OIG has reviewed the only semi-             number?
OIG will consider including appropriate steps        postal stamp bill to have become law to date –        The number to call for reporting
in future reviews to develop independent and         the Breast Cancer Research Stamp. The review
objective information to assist Congress in its      disclosed that management controls for rev-           possible fraud, waste, abuse, and
decisionmaking.                                      enues, costs, and payments were ineffective.          mismanagement in the Postal Ser-
                                                     Additional information concerning this review
H. R. 3768 – Dedicated ZIP Codes for                                                                       vice is 1-888-USPS-OIG or
                                                     is contained in the Performance section of this
Communities Surrounded by a City                                                                           1-888-877-7644.
                                                     report. The GAO has also reviewed the appro-
      This bill would require the Postal Service
                                                     priateness of the Postal Service as a fundraising
to issue a ZIP Code to any city, town, or munici-
                                                     agency and the overall effectiveness of semi-
pality of 5,000 or more persons that is com-
                                                     postal stamps.
pletely surrounded by any other city. The
Postal Service has established an extensive and
thorough process for assigning ZIP Codes.
Before any ZIP Code can be authorized or
assigned, Postal Service management prepares a
long-range study that includes input from local
delivery office managers. The bill has been
referred to the House Government Reform
Committee for legislative consideration.
      This legislation could impact the economy
and efficiency of the Postal Service. Postal Ser-
vice officials have expressed the need to be able
to develop and assign ZIP Codes based on criteria
that will facilitate the efficient and timely
delivery of the mail. The adoption of addition-
al criteria in assigning ZIP Codes is unrelated to
processing and delivery of mail and could
impact mail service. This could result in added
costs and delays in mail delivery. The OIG has
not performed specific work to evaluate the
impact of this proposal. However, the OIG will
consider including appropriate steps in future
reviews to develop independent and objective
information to assist Congress in its decision-
making.

S. 2044 / S. 2062 – Stamp Out Domes-
tic Violence Act of 2000
    These two legislative proposals authorize
the sale of semi-postal stamps, providing a
fundraising mechanism for various causes by the



                                                                                                           PAGE 63
                                                                                            time usage, approximately 39 percent of the
                                                                                            overtime hours was not justified by carrier work-
                                      INSPECTION SERVICE                                    load. Management concurred with recommen-
                                           The Inspection Service is responsible for        dations to improve controls over the counting,
                                      investigations that ensure the sanctity of the        recording, input, utilization of data, delivery of
       DID YOU                        mail. The Inspection Service completed 12 per-        service, supervision to clarify carrier expecta-
       KNOW?                          formance audits related to area, district, and        tions, procedures for assistance/overtime autho-
                                                                                            rization, and management of attendance con-
                                      local issues. This section describes some of their
                                      more significant work in the areas of transporta-     trol. (IS 052-1289574-PA(3))
                                      tion and delivery. Included are selected Inspec-
Does the Postal Service’s                                                                   IMPROVEMENTS NEEDED
                                      tion Service mail theft reviews at the end of this    IN CITY CARRIER OPERATIONS
External First-Class Measure-         section.                                              AT A SOUTHWEST DISTRICT
ment System measure the               TRANSPORTATION                                              An audit of the City Carrier and Flat Sort-
                                                                                            ing Machine Operations at a Southwest district
delivery performance of all                The following reviews are highlights of
                                                                                            was performed to assist management in identify-
                                      Inspection Service work on transportation-relat-
First-Class Mail?                     ed issues at the area, district, and local levels.    ing operational efficiencies and cost-savings.
                                                                                            The review found that carrier overtime was
No. According to Postal manage-
                                      HUB AND SPOKE OPERATIONS                              excessive and not justified, sorting machines
ment, “External First-Class Mea-      REVIEWED AT A MIDWEST SITE                            operations were not fully utilized, and that a
surement is an external measure-           An audit was conducted to review surface         staffing study was not initiated to determine the
                                      transportation operations supported by the Hub        quantity and level of employees needed on the
ment system of collection box to      and Spoke in order to identify redundant trans-       sorting machine operations. Postal manage-
mailbox delivery performance.         portation routings. The review found numerous         ment agreed with the recommended corrective
                                      trips within routes that were underutilized at        actions and projected annual savings of over
External First-Class Mail Mea-        five plants, and weaknesses in the areas of           $3.8 million. (IS 052-1290664-PA(3))
surement continuously tests a         untimely clearance for surface mail, improper
                                                                                            MAIL THEFT
                                      operations, placards in use, surface transporta-
panel of 465 ZIP Code areas                                                                      Postal Inspectors are committed to
                                      tion mail being routed to air carriers, and
selected on the basis of geographic   untimely dispatch of mail to meet scheduled           reducing mail theft to maintain the public’s
                                      transportation. These findings can result in sig-     confidence in the Postal Service and preserve
and volume density from which                                                               the sanctity of the mail. Postal Inspectors are
                                      nificant savings by reducing work hours and
90 percent of First-Class volume      transportation costs. Management has taken            currently working with major mailers to prevent
                                      action to address many of the findings reported.      mail theft and related problems. Mail losses
originates and 80 percent desti-
                                      (IS 039-1295484-PA(2))                                attributed to the Postal Service are often
nates. External First-Class Mail                                                            consequences of actions taken by one of its
                                      DELIVERY                                              business “partners.” These actions may occur at
Measurement is not a system-
                                           Delivery-related reviews conducted by the        some point in the process of mail acceptance,
wide measurement of all First-        Inspection Service at the area, district, and local   processing, transportation, or delivery. During
Class Mail performance.”              level are highlighted in the following sections.      this reporting period, Postal Inspectors have
                                                                                            arrested 404 employees, and 2,522 non-employ-
                                      CITY CARRIER                                          ees or contractors for mail theft resulting in 368
                                      OPERATIONS/OVERTIME                                   and 1,997 convictions, respectively. Mail theft
                                           An audit of City Carrier Operations/Over-        targets include not only items of obvious value
                                      time in a district in Pennsylvania was conduct-       in the mail, such as jewelry, computers, cash,
                                      ed to determine whether delivery unit managers        credit cards and checks, but mail containing
                                      and supervisors were effectively reviewing, eval-     personal and financial information. The follow-
                                      uating, and approving city carrier’s overtime to      ing are examples of significant reviews reported
                                      ensure overtime usage was judicious and justi-        during this semiannual reporting period.
                                      fied. Reviews at 5 post offices representing 10
                                      delivery zones disclosed untimely and inaccu-
                                                                                            NON-EMPLOYEE MAIL THEFT
                                      rate mail counts, lack of utilization of idle time,        Thieves frequently concentrate on targets
                                      and insufficient overall supervisory action. The      that offer a large volume of mail. Inspection
                                      audit revealed that of the total city carrier over-   Service efforts are continuing to lessen the vul-


                           PAGE 64    PERFORMANCE REVIEWS
nerability of such targets to attack. Examples of       ing the removal of empty mailbags and
case activity related to mail theft by non-             trays from the armored car, a one-gallon
employees are highlighted below:                        plastic water bottle was found behind a
                                                        seat. A search of the bottle, which
◆   A joint task force consisting of Postal
                                                        belonged to a company employee, dis-
    Inspectors and over 40 other law enforce-
                                                        closed a large bundle of money. Federal
    ment officers arrested 16 individuals for
                                                        prosecution is pending.
    their involvement in a debit card scheme
    centered in Florida. The task force             EMPLOYEE MAIL THEFT AND
    learned that individuals were recruited to      THE DELAY OR DESTRUCTION
    open checking accounts at area banks and        OF MAIL
    to obtain debit cards that would allow
                                                         The overwhelming majority of Postal
    them to retrieve money from the
                                                    employees work conscientiously to move the
    accounts. Stolen and counterfeit checks
    were then deposited into checking               nation’s mail to its proper destination, and it is
    accounts. Losses exceeded $700,000.             a responsibility they take very seriously. Unfor-
                                                    tunately, there are a few who abuse the public
◆   Postal Inspectors on a New York task
                                                    trust placed in them. It is the job of the Inspec-
    force arrested an individual for conspiring
                                                    tion Service to identify these individuals and
    to open a bank account with almost
                                                    take steps to have them removed from the
    $286,000 in stolen checks. Over
    $113,000 was actually withdrawn from            Postal Service. Examples of employee mail
    the account. The task force investigation       theft cases are highlighted below:
    further revealed that the individual had        ◆   Postal Inspectors arrested a New York let-       Postal Inspectors help ensure the
    previously opened an account in which               ter carrier and another individual and           integrity and safety of the mail system,
    five stolen checks totaling over $400,000                                                            identify lost revenue, and maintain
                                                        charged them with conspiracy to steal
    were deposited. The account was frozen                                                               effective customer service.
                                                        mail. The letter carrier admitted provid-
    before the funds could be withdrawn.                ing approximately 100 credit cards to the
◆   An individual was arrested in New York              individual over the past two years. The
    for his involvement in the fraudulent               letter carrier was placed on emergency
    negotiation of over 500 convenience                 suspension pending removal from the
    checks, which resulted in bank losses that          Postal Service.
    exceeded $2 million dollars. The individ-       ◆   A casual employee of a California airport
    ual stated he received the checks from              mail center was terminated from the
    another individual and was paid for his             Postal Service after being confronted by
    services when the checks cleared his                Postal Inspectors with about 24 parcels
    account.                                            due for delivery with altered and/or over-
◆   A mailroom employee in New York was                 labeled parcel addresses. The employee
    arrested by Postal Inspectors and charged           admitted to Postal Inspectors that he
    with possession of stolen mail. Postal              altered and over-labeled the 24 parcels.
    Inspectors determined the employee stole        ◆   Postal Inspectors and local police uncov-
    checks sent from various suppliers and              ered a stolen credit card and counterfeit
    vendors. Approximately $250,000 was                 credit card scheme that resulted in the
    used by an organized crime group, with              recovery of over 520 stolen credit cards.
    which the employee was associated, to               To date, there has been one arrest and
    open investment accounts in Illinois and            over 40 additional suspects identified.
    California.                                         Losses are estimated at over $750,000.
◆   Postal Inspectors were notified by bank         ◆   The Inspection Service and the FBI
    employees of a missing daily remittance             worked together to investigate a scheme
    that was sealed for dispatch in a pouch in          where fraudulent bank accounts were
    a Mississippi post office. Postal Inspectors        opened and deposits made with stolen and
    were on hand when the armored car                   counterfeit checks. The investigation
    transporting the remittance returned to             revealed that a debit card was obtained for
    the company’s secured loading area and              the fraudulent account and withdrawals
    conducted interviews and searches. Dur-             were made through cash advances and

                                                                                                          PAGE 65
              purchases. The individuals also used the
              debit cards to purchase large volumes of
              Postal money orders, which were kept
              under the $3,000 reporting requirement.
              Losses exceeded $26 million. To date, one
              suspect has been sentenced to 4 years and
              9 months in prison, 5 years of probation,
              and restitution of over $360,000.

          SERVICE INVESTIGATIONS
               Service investigations are conducted to
          address localized service-related concerns or to
          verify the accuracy and timeliness of reports of
          mail processing conditions or delivery services.
          Some of the more significant reviews are noted
          below.

          FLAT SORTING MACHINE
          OPERATIONS
                A review of the Flat Sorting Machine
          Operations was conducted at a processing and
          distribution center in Michigan. The objective
          of the review was to determine if processes were
          in place to ensure flat sorting machines were
          fully and effectively utilized. The flat sorting
          machine unit was not properly staffed and over-
          lapping employee schedules caused unproduc-
          tive time. Postal Inspectors recommended that
          management reschedule the clerk staff and the
          resulting increase of machine utilization would
          save the Postal Service over $466,000 in each
          month. Management implemented two of the
          five recommendations and agreed to implement
          the remaining recommendations during
          FY 2000. (IS 071-1294372-SI(2))

          REVIEW OF THE ACCURACY
          OF EXTERNAL FIRST-CLASS
          REPORTING AT A NORTHEAST
          DISTRICT
               A review was conducted at a Northeast
          district to verify the accuracy of external First-
          Class reporting for a sample of post office boxes.
          The review found several problems, including
          reporters who did not pick up their mail for a
          number of days, mail that was not picked up on
          a daily basis, and mail pieces that were not
          reported upon pickup or picked up late.
          The results of the review were provided to man-
          agement. (IS 071-1296235-SI(2))




PAGE 66   PERFORMANCE REVIEWS
Financial Management
Reviews




 OFFICE OF INSPECTOR GENERAL
      Financial Opinion Audits
      Financial-Related Reviews
      Contracting and Facilities
      Marketing
      Legislative and Regulatory Reviews
 INSPECTION SERVICE
      District and Installation Financial Audits
      Contracts and Facilities Audits
      Revenue Investigations
      Embezzlements



                                               PAGE 67
                                                                                                  During the course of this audit, the OIG
                                          This section highlights audits, reviews,
                                                                                                  found interest penalty payments had
                                          and investigations performed by the OIG
                                                                                                  steadily increased from $1.7 million in
                                          and Inspection Service in the Financial
                                                                                                  FY 1995 to over $3.5 million in FY 1999.
                                          Management area. Also included at the
                                                                                                  The OIG provided management with a
                                          end of this section are OIG legislative
                                                                                                  list of 128 finance numbers that account-
                                          and regulatory reviews. In order to dif-
                                                                                                  ed for a majority of the total interest
                                          ferentiate the work reported by the OIG
                                                                                                  penalty payments in order to target
                                          and Inspection Service, the pages con-
                                                                                                  improvements in this area. Management
                                          taining the Inspection Service work have
                                                                                                  agreed to implement the OIG’s recom-
                                          been color screened. Report numbers are                 mendations to improve compliance with
                                          shown in parentheses after the narrative,               the Prompt Payment Act.
                                          as appropriate.                                         (OIG FR-AR-00-007)
                                                                                              ◆   An audit at the Minneapolis Accounting
                                                                                                  Service Center identified two internal
                                         OFFICE OF INSPECTOR                                      control weaknesses. First, the Center did
                                         GENERAL                                                  not have adequate procedures and con-
                                               The Postal Service is a $62 billion business       trols to prevent or recover overpayments
                                         that relies on strong financial management con-          to employees who separated prior to the
                                         trols to maximize revenue and minimize costs.            end of a pay period. Second, controls
                                                                                                  over back pay awards were weak, leading
                                         In the past six months, the OIG has completed
                                                                                                  to frequent disbursement errors. In a ran-
                                         65 financial-related reviews. In addition, the
                                                                                                  dom sample of back pay awards, the OIG
                                         OIG has conducted investigations that have
                                                                                                  found 17 of 24 awards contained errors
                                         resulted in one conviction, nine arrests, two
                                                                                                  totaling $44,000. In addition, the OIG
                                         indictments, and investigative recoveries and
                                                                                                  recommended a $433 million adjusting
                                         restitution of over $1.1 million. These reviews          journal entry, which impacted the FY
                                         add value by identifying opportunities for cost          1999 general ledger account balances.
                                         savings and by improving financial manage-               Postal management agreed with the find-
                                         ment, contracting, and facilities practices.             ings and recommendations, and accepted
                                         FINANCIAL OPINION AUDITS                                 the $433 million balance sheet adjust-
                                                                                                  ment. The Postal Service also took action
                                              The Postal Reorganization Act of 1970
                                                                                                  to correct two of the prior years’ findings
                                         requires annual audits of the Postal Service’s
                                                                                                  but a third finding was reported again in
                                         financial statements. In FY 1999, the OIG                this year’s review. (OIG FR-AR-00-006)
                                         assumed full responsibility from the Inspection
                                         Service for the financial audit work conducted       ◆   An audit at the St. Louis Accounting
                                         at Postal Service Headquarters, and at the three         Service Center resulted in five findings
                                                                                                  and three financial accounting adjust-
                                         Accounting Service Centers. This audit work
                                                                                                  ments. With the exception of two areas,
                                         supports the independent public accounting
                                                                                                  Postal management generally agreed with
                                         firm’s overall opinion of the Postal Service’s
                                                                                                  the findings and recommendations con-
                                         financial statements. The most significant six
The OIG San Mateo Financial Team                                                                  tained in the five reports and accepted
                                         reports are highlighted below:
performs reviews at the data center.                                                              the proposed adjustments. The adjust-
Also pictured are Inspector General      ◆   An audit at the San Mateo Accounting                 ments decreased income by $340,000.
Corcoran, Deputy Inspector General           Service Center resulted in four findings             The audit also noted that four of the
Chambers, and possibly, a future OIG                                                              nine findings from prior years had been
                                             and eight financial accounting adjust-
employee.
                                             ments. Postal management agreed to                   completely implemented while substan-
                                             three findings and accepted all proposed             tial progress has been made on three; two
                                             adjustments. The adjustments increased               are still outstanding.
                                             income by $32.5 million. The audit also              (OIG FR-AR-00-005)
                                             noted that five of the seven prior years’        ◆   An audit at Postal Service Headquarters
                                             findings had been completely implement-              examined cash, investments, retirement,
                                             ed while substantial progress had been               workers’ compensation, postage in the
                                             made on the other two.                               hands of the public estimation model, and

                               PAGE 68   FINANCIAL MANAGEMENT REVIEWS
    the Postal Service’s year-end accrual            advised that written guidelines and criteria
    model . The audit disclosed that manage-         would be incorporated in subsequent budget
    ment’s policies, accounting procedures,          activities. (OIG FR-MA-00-001)
    and internal controls conformed with
    generally accepted accounting principles.        REVIEW SUGGESTS LOWER                                          DID YOU
                                                     DINERO SEGURO ELECTRONIC
    (OIG FR-AR-00-004)
                                                     FUND TRANSFER THRESHOLDS                                       KNOW?
◆   The OIG also reviewed travel and miscel-
                                                           The OIG has continued to take a proactive
    laneous expenses for the Postal Service
                                                     role in Postal Service operations by reviewing a
    officers and the Board of Governors and                                                                Does the Postal Service follow
    determined that the expenses were valid,         draft solicitation to expand the Dinero Seguro
    adequately supported, and properly               electronic funds transfer service to the Domini-      Federal Government Statutes
    recorded in Postal Service accounts.             can Republic. The review disclosed the solici-
                                                     tation specified a daily transaction threshold of
                                                                                                           and Regulations?
    (OIG FR-AR-00-001 and
     OIG FR-AR-00-002)                               $2,999 for an individual. The OIG suggested           Except for certain statutes and
                                                     that the threshold be lowered to $2,000 for this      regulations expressly made applic-
FINANCIAL-RELATED REVIEWS                            solicitation and future expansions, which would
      Financial-related audits are reviews that      reduce the risk of money laundering but have          able to the Postal Service, most
examine areas that have significant financial        little impact on the revenues of the program.         federal laws of government-wide
implications and offer the potential to save         Management concurred with the recommenda-
                                                     tion. (OIG FR-LA-00-001)                              applicability do not apply to
Postal resources. The OIG has taken a proac-
tive approach to identify areas that offer poten-                                                          Postal Service. This permits the
tial cost savings and improve Postal operations.     CONTINUED INVESTIGATION
                                                     OF DINERO SEGURO PROGRAM                              Postal Service, an independent
During this semiannual period, the OIG com-
pleted 25 reviews in areas such as the Head-         LEADS TO MORE ARRESTS                                 establishment of the executive
quarters Management Challenge and Dinero                  Following the audit of the Dinero Seguro
                                                                                                           branch, to operate in a business-
Seguro.                                              Program, which was reported in the previous
                                                     Semiannual Report to Congress, OIG person-            like manner.
HEADQUARTERS SURPASSES                               nel continued using sophisticated computer
MANAGEMENT CHALLENGE                                 analysis techniques to review more than
      The OIG reviewed cost containment mea-         500,000 transactions to identify suspicious
sures to reduce budgeted expenses by $400 mil-       activity. The review identified a series of suspi-
lion during FY 1999 as part of the Postmaster        cious transactions by various senders. This led
General’s Management Challenge initiative.           to a joint investigation by the OIG and other
The initiative was implemented to ensure the         federal law enforcement agencies that uncov-
Postal Service would achieve its targeted $200       ered a scheme involving drug traffickers using
million net income for the year despite delays in    the Dinero Seguro money transfer program to
rate increases and decreased revenue projec-         wire drug proceeds from the United States to
tions. The OIG review disclosed the Postal Ser-      Mexico. As of March 31, 2000, four additional
vice surpassed its Management Challenge              arrests had been made for distribution of con-
goals—cutting $675 million in expenses with          trolled substances, conspiracy, and money laun-
little impact on customer service. However, key      dering. In addition, $854,000 of marijuana,
personnel were told to make reductions without       $60,000 of cocaine, and currency totaling over
specific guidance on how to reduce costs. As a       $568,000 were seized.
result, personnel often did not focus on strategic
goals and long-term implications when making         INTERNATIONAL TRAVEL
budget reductions. Because the focus was on          LODGING EXPENSES
short-term goals, value-added programs were
                                                     WERE REASONABLE
sometimes eliminated or deferred. The OIG                The OIG reviewed 39 international travel
recommended several process improvements             vouchers totaling $445,000 and determined that
and that a method be developed to assess the         reported lodging expenses were reasonable based
impact of future budget reductions. Manage-          on a comparison to State Department rates.
ment concurred with the OIG suggestions and          However, while Postal Service travel policies



                                                                                                          PAGE 69
                                   and procedures encouraged prudent planning of        management. An investigation revealed there
                                   travel, they did not set expense limits for inter-   was no criminal activity or intent on the part of
                                   national lodging. (OIG RG-LA-00-001)                 Postal Service employees. However, the investi-
                                                                                        gation did reveal pay and compensation policies
                                   EMPLOYEE CHARGED WITH
                                                                                        for employees on detail, temporary assignment, or
                                   EMBEZZLEMENT
                                                                                        in training status were vague and confusing—an
                                         During an OIG audit of cancelled checks
                                                                                        opinion shared by officials at the district and area
                                   originally disbursed by the San Mateo Account-
                                                                                        level. The issue was brought to the attention of
                                   ing Service Center, the OIG discovered irregu-
                                                                                        Headquarters Offices of Corporate Accounting,
                                   larities associated with payments of tort claims
                                                                                        Human Resources, and Compensation. As a
                                   handled by a Postal Service employee. Investi-
                                                                                        result, Postal Service Management issued a com-
                                   gation by the OIG and Inspection Service dis-
                                                                                        pensation clarification directive to the field to clar-
                                   closed that an employee fraudulently prepared,
                                                                                        ify pay policy and alleviate confusion resulting in
                                   approved, and submitted vehicle accident
                                                                                        potential cost savings and enhanced employee
                                   claims to the Accounting Service Center for
                                                                                        morale.
                                   payment. The scheme resulted in the issuance
                                   of 14 checks totaling nearly $68,000 to accom-       TORT CLAIM RECEIVABLES
                                   plices that the employee recruited to be                  The OIG found that tort claim receivables
                                   claimants and payees. The employee was subse-        were neither aggressively managed nor written
Documents siezed from a major      quently arraigned in Federal court and charged       off after the statute of limitations for collection
procurement fraud investigation.   with embezzlement. Prosecution is pending.           had expired. Fourteen of twenty accounts
                                                                                        receivable reviewed were uncollectible and
                                   CALLING CARD SAVINGS
                                   IDENTIFIED                                           needed to be written off. Three receivables
                                                                                        transferred to a collection agency were not
                                        Review of contract rates and billing prac-
                                                                                        followed up on, and two others needed to be
                                   tices of a major telecommunications provider
                                                                                        referred to a collection agency. One account
                                   disclosed opportunities to save on monthly
                                                                                        needed a review by the legal department for
                                   expenses. Specifically, the review indicated that
                                                                                        improper denial of a claim by a municipality.
                                   the Postal Service paid an average of 38 cents
                                                                                        Management did not agree with the findings
                                   per minute for calling card calls, which was 22
                                                                                        but took corrective action to write-off the
                                   cents higher per minute than its toll free, “dial
                                                                                        outstanding tort receivables.
                                   1,” and local phone services. Contractor per-
                                                                                        (OIG FR-FA-00-006)
                                   sonnel responsible for billing and invoicing
                                   explained that the calling card charges were          CONTRACTING AND FACILITIES
                                   higher because Postal Service personnel used              In FY 1999, the Postal Service had contract
                                   operator assistance instead of direct dial when      actions of $9.1 billion for supplies and services,
                                   making calls. Using direct dial would save           equipment, transportation, and facilities. These
                                   $13,000 per month over the remaining life of         contracts included $581.8 million in non-com-
                                   the contract. The OIG suggested that district        petitive purchases and $374.5 million in credit
                                   personnel be instructed to use direct dial when      card purchases. The Postal Service is also one of
                                   using calling cards. Management agreed with          America’s largest owners, developers, and man-
                                   the OIG’s suggestion and took corrective             agers of real estate, committing over $1.6 billion
                                   action. (OIG FA-MA-00-003)                           in FY 1999 for repair, renovation, and new con-
                                                                                        struction of facilities, and paying $727.5 million
                                   COMPENSATION POLICIES WERE                           in rent.
                                   VAGUE AND CONFUSING                                       Effective October 1, 1999, the OIG
                                         As a result of an employee complaint, an       assumed responsibility from the Inspection Ser-
                                   investigation was initiated by the OIG to deter-     vice for contract audits designed to assist Postal
                                   mine whether employees at a Postal Service facil-    Service contracting officers in determining fair
                                   ity were fraudulently or illegally receiving night   and reasonable contract prices, as well as provid-
                                   differential, overtime, and Sunday premium pay.      ing them with reviews of contractor accounting
                                   The complainant alleged this situation existed       systems. The OIG contracted with the Defense
                                   with the knowledge and concurrence of upper          Contract Audit Agency to assist with this effort.


                        PAGE 70    FINANCIAL MANAGEMENT REVIEWS
      During the semiannual period, the OIG         Three are highlighted below.
conducted 34 reviews of contracting and facili-     ◆ During an OIG investigation into the
ties-related issues. Of these, the Defense Con-         production and deployment of a flat sort-
tract Audit Agency completed 18 reviews of              ing machine, the OIG identified six issues
Postal Service contracts at the request of the          related to potential overcharges and ques-
OIG. Also, the OIG has 255 open criminal                tioned costs associated with a $935,000
investigations, many of which target fraud and          claim for an equitable adjustment submit-
                                                        ted by the contractor. Three of these
corruption in these areas. The most significant
                                                        issues have been resolved, resulting in the
contracting and facilities reviews are highlight-
                                                        contractor reducing its claim by $35,000.
ed below.
                                                        The remaining issues are pending final
TELECOMMUNICATIONS                                      contract negotiations.
CONTRACTOR AGREES TO                                ◆   In another investigation, the OIG
ADDITIONAL SETTLEMENT                                   reviewed allegations that an indefinite
     An investigation into charges submitted by         quantity contractor was overcharging the
a large telecommunication contractor responsi-          Postal Service. The OIG discovered that
ble for installing telecommunications wiring for        the contractor improperly billed the
8,000 Postal facilities resulted in an additional       Postal Service $12,500. As a result of the
settlement agreement. The investigation                 investigation, the contractor made full
revealed that the contractor had subcontractors         restitution.
completing most of the work and had been            ◆   In a separate investigation, the OIG dis-
billed for services not rendered, incomplete, or        covered a contractor had paid gratuities to
defective. After being notified of this, the con-       Postal Service representatives and improp-
tractor recouped an additional $900,000 from            erly charged the costs of these gratuities to
its subcontractors, which is being credited to          the Postal Service through an existing
the Postal Service contract. Including the              contract. The contractor refunded the
amount above, the total recovery to date is $2.9        Postal Service $2,145. As a result of the
million.                                                investigation, Postal Service agreed to a
                                                        contract modification to account for unal-
IMPROVEMENTS NEEDED IN                                  lowable costs revealed in the audit report.
CONTRACTOR SUSPENSION
AND DEBARMENT POLICY                                CONTRACTOR INDICTED ON
     A review of the Postal Service’s suspension    KICKBACK SCHEME
and debarment actions disclosed the Postal               A joint investigation conducted by the
Service had only suspended or debarred 29           OIG, the Defense Criminal Investigative Ser-
individuals/firms during the past four years.       vice, the National Aeronautics and Space
The OIG found this was in sharp contrast to         Administration OIG, and the Environmental
other Federal agencies with similar or smaller      Protection Agency OIG resulted in a seven-
                                                                                                         Investigators secure documents
contracting programs. The review noted that         count indictment against the president of a
                                                                                                         supporting an ongoing review.
Postal Service’s policy was vague and subject to    printing services company for allegedly paying
misinterpretation. Further, the OIG noted the       kickbacks to obtain subcontracts related to the
policy did not facilitate timely processing of      Postal Service and other government agencies.
suspension and debarment actions, and Postal        If convicted, the contractor faces a maximum
management did not maintain a list of problem       sentence of five years in prison for the conspir-
contractors. Postal Service management gener-       acy count affecting the Postal Service and ten
ally agreed with the findings and established a     years for each of the violations of the anti-kick-
team to review current practices.                   back act affecting the non-Postal agencies, as
(OIG FA-AR-00-001)                                  well as a $250,000 fine for each count.

CONTRACTOR CHARGES
DISPUTED/FOUND IMPROPER
    The OIG conducted several investigations
and reviews that questioned contractor charges.


                                                                                                          PAGE 71
                                                        DEFECTIVE ROOFING PRODUCT                                that the lessor’s claimed operating
                                                        AT A POSTAL FACILITY                                     expenses were almost $640,000 more
                                                                                                                 than the costs included in its records.
                                                             An OIG investigation determined that
                                                                                                                 The lessor could not provide supporting
                                                        there was no merit to a Hotline complaint that
                                                                                                                 documentation for the disallowed
                                                        the new roof at a Texas Processing and Distribu-
                                                                                                                 amounts and stated that most of the
                                                        tion Center was defective and had to be replaced         records were lost as a result of a change
                                                        at an additional cost of $1 million. Specifically,       in ownership of the building. The lessor
                                                        a general contractor had installed a new roof at         was also unable to provide a reconcilia-
                                                        the center using a defective roofing product;            tion of the company’s books and records.
                                                        however, the roof was replaced under warranty            The results of this audit are still pending
                                                        at no additional cost to the Postal Service. Man-        resolution between the contracting offi-
                                                        agement agreed to implement two OIG sugges-              cer and the contractor.
                                                        tions designed to ensure that the Postal Service         (OIG CA-CAR-00-009)
                                                        does not incur costs for repairing roofs, which      ◆   Another audit of a recyclable release
                                                        were initially installed using a defective roofing       liner contractor questioned over
Types and Number of                                     product. (OIG FA-MA-00-002)                              $498,000 in overhead costs and identi-
Contract Audits Initiated                                                                                        fied unsupported costs of $382,500 due to
                                                        CONTRACT PRICING REVIEWS
                                                                                                                 the contractor’s lack of support for pro-
                         DEFECTIVE                           During the reporting period, the Defense            posed travel costs. The excessive over-
                         PRICINGS
               5             3        8                 Contract Audit Agency initiated 50 contract              head resulted from the contractor’s use of
          CLAIMS                     OTHER
                                                        audits on the OIG’s behalf. Eighteen audits              outdated financial data. The findings of
      9                                                 were requested because of concerns by the OIG            this audit are still pending resolution
   PROPOSALS
                                                        and 32 were requested by Postal contracting              between the contracting officer and the
                                             14         officials. The audits consisted of various types,        contractor. (OIG CA-CAR-00-010)
                                          SYSTEMS
                    11                                  such as incurred costs, proposals, defective pric-
               INCURRED COSTS
                                                                                                             ◆   In a third audit, approximately $465,000
                                                        ing, and systems reviews. Incurred cost audits           of a contractor’s proposed cost for sorter
                                                        evaluate the reasonableness of costs incurred by         equipment was questioned. The ques-
                                                        contractors, while audits of proposals evaluate          tioned costs related to a sorter previously
                                                        the reasonableness of contractor cost estimates.         built by the contractor, which was not
                                                        Defective pricing audits are performed to deter-         part of the current contract effort. The
                                                        mine whether contact prices significantly                findings are still pending resolution
                                                        increased because of defective contractor pric-          between the contracting officer and the
                                                        ing data. Lastly, contractor systems such as             contractor. (OIG CA-CAR-00-015)
                                                        accounting, estimating, and billing systems are      ◆   Finally, an audit determined wheather
                                                        reviewed to determine their adequacy to                  over $538,000 in claimed costs submitted
                                                        account for contract costs. The chart shows the          by a contractor was acceptable as a basis
                                                        number of audits by type initiated in this report-       for an agreement of a settlement. How-
                                                        ing period.                                              ever, the audit questioned over $121,000
                                                             Of the 50 audits, 18 were completed during          of the contractor’s costs resulting from
                                                        the semiannual period and auditors took excep-           overstated overhead costs and the con-
                                                        tion to $2.3 million that consisted of ques-             tractor’s inability to provide supporting
                                                        tioned, unsupported, or unresolved costs. The            documentation for electrical costs. The
                                                                                                                 findings are pending resolution between
                                                        chart shows the types of audits that resulted in
                                                                                                                 the contracting officer and the contrac-
                                                        the $2.3 million in audit exceptions.
                                                                                                                 tor. (OIG CA-CAR-00-006)
                                                             The most significant of the 18 contract
                                                        audits completed during the semiannual period        LEGISLATIVE AND REGULATORY
                                                        are highlighted below:                               REVIEWS
                                                                                                                  During this reporting period, the OIG did
                                                        ◆   An audit of the 1994 operating expenses
                                                                                                             not identify any significant legislation or regula-
                                                            associated with a lease between the
                                                                                                             tions affecting Postal Service financial manage-
                                                            Postal Service’s Los Angeles West Coast
                                                                                                             ment, contracting, and facilities areas.
                                                            Training Center and the lessor concluded


                                              PAGE 72   FINANCIAL MANAGEMENT REVIEWS
INSPECTION SERVICE
                                                        of customer funds or loss of Postal rev-
     Within the financial management area,
                                                        enue. Management agreed with the
the Inspection Service performed District               finding and initiated corrective action.
Accounting Office, financial installation, con-         (IS 011-1299819-AF(1))
tracting, and facilities audits. In addition, the
                                                    ◆   A financial audit at a California business
Inspection Service conducted financial and
                                                        mail entry unit identified over $14,000
contract audits, revenue investigations, and
                                                        in revenue deficiencies. Established pro-
embezzlements.
                                                        cedures were not sufficient to ensure that
                                                        mailing statements were controlled,
DISTRICT AND INSTALLATION                               required reviews were conducted, bypass
FINANCIAL AUDITS                                        mailings were identified, and revenues
     The Inspection Service conducts District           were collected. Improving procedures
Accounting Office audits to evaluate account-           and ensuring timely performance of Peri-
ing controls over district accounts as a supple-        odicals, First-Class and Standard Mail
ment to financial installation audits and the           reviews would help prevent loss of rev-
security provided district computer systems.            enue due to clerical errors, inappropriate-
                                                        ly applied discounts and rates, missing
Inspectors also conduct financial installation
                                                        mailing statements and bypass mailings.
audits to review the adequacy of internal con-
                                                        Management agreed with the recommen-
trols at the installation level. During this
                                                        dations and began an action plan to
reporting period, the Inspection Service report-        improve internal controls and collect the
ed the results of 2 opinion audits, 135 financial       revenue deficiencies.
installation audits and 18 District Accounting          (IS 011-1298831-AF(1))
Office audits, for a total of 155 audits. These
                                                    ◆   A financial audit at an Illinois business
audits resulted in 87 findings being presented to
                                                        mail entry unit identified a $5,300 peri-
Postal management and identified $126,680 in
                                                        odicals revenue deficiency. Management
revenue deficiencies. Some of the more signifi-         did not have a procedure in place to
cant audits are noted below.                            review mailing histories to verify publish-
◆   A financial audit of a Mississippi business         ers were maintaining periodicals’ stated
    mail entry unit identified over $27,000             mailing frequencies and to check for
    in revenue deficiencies. Clerks were not            missing mailing statements. The proper
    properly monitoring bulk mailings.                  completion of mail acceptance verifica-
    Amounts were not entered into a permit              tion procedures, timely entry of mailing
    account because of an insufficient bal-             statements and managerial oversight of
    ance in the account; however, mailings              operations would improve internal con-
    were accepted and processed. Automa-                trols within the unit. Management
    tion rate mailers were not providing sup-           agreed with the recommendations, col-
    port documentation for postage rates                lected the revenue deficiency and initiat-
    claimed. Management agreed with the                 ed an action plan to improve internal
    finding and initiated collection proce-             controls. (IS 011-1302193-AF(1))
    dures. (IS 011-1299014-AF(1))                   ◆ Two financial installation audits at Ohio
◆   A financial installation audit at a               post offices identified problems with Post
    Michigan post office disclosed a break-           Office Box/Caller Service. Post office box
    down in internal controls. The review             fees were not properly charged or collect-
    disclosed 34 permit accounts were can-            ed. The weakness in the Post Office
    celled from 1995 through 1997, with               Box/Caller Service internal control proce-
    over $19,000 in customer deposits that            dures resulted in revenue deficiencies of
    had not been refunded. The review also            $4,400 and $3,750, respectively. Manage-
    disclosed that permit imprints disclosed          ment agreed with the findings and recom-
    105 inactive permit accounts with bal-            mendations and provided plans to take
    ances totaling over $25,000 had not               corrective action.
    been refunded. The lack of internal con-          (IS 011-1300965-AF(1) and
    trols could lead to the misappropriation          IS 011-1300969-AF(1))



                                                                                                      PAGE 73
          CONTRACTING AND FACILITY
          AUDITS                                             ◆   Postal Inspectors completed an audit of
                The Inspection Service conducts pre-             SiteMETA (Method to Evaluate Techno-
          award and post-award audits to ensure                  logical Alternatives) model usage.
          efficiency, effectiveness, and economy in the          SiteMETA is a set of interrelated pro-
          procurement process. Questioned costs relate to        grams that are used to model complex
          post-award audits and recommendations to put           mail flows in mail processing facilities.
          funds to better use relate to contract proposal        The model is used to determine automa-
                                                                 tion equipment and facility space require-
          audits. In addition, the Inspection Service has
                                                                 ments for Postal facilities. The audit
          responsibility for new construction or leasing
                                                                 identified systemic deficiencies related to
          activity estimated with a cost of $5 million or
                                                                 the utilization, review, and approval of
          less.                                                  the SiteMETA process. Management
                During this reporting period, Postal             agreed with the report’s findings and
          Inspectors reported the results of two contract        developed policies and procedures to
          proposal audits, six post-award audits, and one        include usage guidelines, standardized
          facility audit. These reviews identified $266          reporting, validation procedures, and for-
          million in questioned costs. Details of signifi-       mal review and approval processes.
          cant audits reported during the period appear          (IS 267-1293180-FPA(1))
          below.
                                                             REVENUE INVESTIGATIONS
          ◆   Postal Inspectors completed a contract
              audit of a $13.5 million contract claim              The Inspection Service conducts revenue
              submitted by a contractor for the delay        investigations to help ensure that Postal Service
              associated with the Tray Management            revenue is properly assessed and collected.
              System, Phase III-A. The audit identi-         Priority is given to investigating alleged
              fied over $7 million in questioned costs       schemes to avoid payment of postage and to
              of which $1.7 million was unsupported          identify, pursue, and seek prosecutive actions
              costs. (IS 181-1294644-AC(1))                  against violators, through civil, administrative,
          ◆   Postal Inspectors audited approximately        and criminal remedies.
              $421 million in costs that a contractor              Postal Inspectors focus attention on rev-
              represented as costs incurred for the per-     enue investigations where there is intent on the
              formance of a contract during 1998. The        part of the customer to defraud the Postal Ser-
              Inspection Service questioned a total of       vice. In this reporting period, there were 59
              $95.9 million in incurred costs. Of this       arrests and 45 successful criminal prosecutions
              amount, $13.2 million represented ques-        resulting from revenue investigations. Inspec-
              tioned administrative costs and $4.1 mil-      tors reported the results of 58 revenue investiga-
              lion represented unsupported costs. The        tions during the reporting period, which identi-
              contracting officer utilized the results of    fied $12.6 million in revenue deficiencies.
              the audit in making a decision not to          Examples of case activity related to revenue
              increase the per piece rate as requested       investigations follow.
              by the contractor.
              (IS 184-1281717-AC(1))                         ◆   Inspectors identified the mailer of a
                                                                 national publication as the perpetrator of
          ◆   Inspectors completed an audit of the $163
                                                                 a scheme to misrepresent its eligibility to
              million claim submitted by a contractor,
                                                                 mail at the periodical rates of postage.
              which related to the operation of a dedi-
                                                                 The case has been referred to the U.S.
              cated network. The purpose of the audit
                                                                 Attorney’s Office for prosecution. The
              was to verify the accuracy of the claimed
                                                                 loss to the Postal Service to date is over
              amount. The audit identified the entire
                                                                 $1 million.
              $163 million claim as questioned costs.
              (IS 182-1300114-AC(1))




PAGE 74   FINANCIAL MANAGEMENT REVIEWS
◆   A mailer took advantage of a $30,000               made fraudulent California driver’s
    over-setting on its postage meter. The             licenses matching bank victim identities,
    mailer normally brought the meter in               and generated counterfeit checks to
    several times a month for resetting.               fraudulently purchase approximately
    After several months passed and the                $166,000 worth of postage stamps.
    “free” postage ran out, the mailer                 Inspectors notified bank authorities of
    brought the meter in to purchase                   weaknesses in their internal controls
    postage and waited to see if the Postal            compromising bank account holder
    clerk would notice the error. The meter            information. Additional charges are
    was reset three times before the Postal            expected as the investigation continues.
    Service discovered the problem. Only
    after the matter was brought to the            EMBEZZLEMENTS
    mailer’s attention did he offer to pay for          Embezzlement is appropriating property
    the additional postage used.                   fraudulently for individual gain. Within the
◆   A Federal grand jury in Missouri               Postal Service, embezzlements include stealing
    returned a seven-count indictment              from cash drawers by Postal Service or contrac-
    against a Texas man for his involvement        tor employees; kiting schemes involving Postal
    in purchasing postage stamps with coun-        money orders or falsified financial records; and
    terfeit corporate checks. The suspect          the theft of merchandise from retail stores.
    used a scheme that had been previously              Postal Inspectors investigated 200
    identified in a rash of fraudulent stamp       employee embezzlements this reporting period,
    purchases in Tennessee, Alabama, Mis-          with documented losses of $2.7 million. Exam-
    souri, and Ohio. Postal Inspectors
                                                   ples of significant Inspection Service case
    obtained information relating to the
                                                   activity during the period follow.
    involvement of others, which resulted in
    a search of a Georgia residence. Seized        ◆   A Federal grand jury in Virginia returned
    in the search was nearly $14,000 in                a 12-count indictment against a former
    postage stock, a computer, numerous                Virginia postmaster for mail fraud,
    color printers, credit card embossing and          embezzlement, and making false entries
    scanning equipment, check paper stock,             in the issuance of postal money orders.
    blank credit card stock, and other related         The former postmaster was charged with
    items.                                             the embezzlement of $60,179 in money
◆   Postal Inspectors arrested a Kansas man            order funds.
    for passing forged checks to purchase          ◆   A Florida window clerk was charged with
    coils of postage stamps. The forgeries             misappropriating $26,500 in Postal funds.
    started in August 1996, ceased for                 An investigation was initiated at the
    approximately two years, then began                Postal retail store based on reported
    again in December 1998. Latent finger-             shortages and disclosed the clerk
    prints taken from the forged checks were           consistently under-reported postage sales
    analyzed and a successful match identi-            and failed to remit Postage revenues.
    fied the suspect.                                  During the investigation, Postal Inspec-
◆   The owner of a New York commercial                 tors observed the clerk placing Postal
    mail receiving agency pled guilty to pos-          funds in his pocket. Inspectors recovered
    sessing and using counterfeit meter                $2,276 pocketed by the clerk.
    stamps. In addition to receiving four          ◆   The former postmaster of a Maryland
    months in prison, he was ordered to pay            post office pled guilty to the embezzle-
    $5,000 in restitution to the Postal Service.       ment of 150 postal money orders, valued
◆   Postal Inspectors arrested a California            at over $58,000. The former postmaster
    man for his participation in a scheme to           made full restitution and was sentenced
    fraudulently purchase postage stamps               to 18 months supervised probation, 250
    from various places in northern Califor-           hours of community service, a $1,000
    nia. The suspect and his accomplices               fine, and ordered to continue mental
    stole bank account holder information,             health counseling.



                                                                                                      PAGE 75
PAGE 76   FINANCIAL MANAGEMENT REVIEWS
Technology Reviews




 OFFICE OF INSPECTOR GENERAL
      Y2K and Information Systems
      Developmental Reviews
      Computer Security
      Electronic Commerce
      Computer Intrusion
      Legislative and Regulatory Reviews
 INSPECTION SERVICE
      Electronic Commerce




                                           PAGE 77
                                                                                                and at its two major data processing centers in
                                           This section highlights audits, reviews,
                                                                                                California and Minnesota.
                                           and investigations performed by the OIG
                                                                                                     The Postmaster General lauded the OIG’s
                                           and the Inspection Service in the technol-
                                                                                                contributions to the Postal Service’s Y2K
                                           ogy area. Also, included at the end of
                                                                                                initiative in a public session with the Board of
                                           this section are the OIG legislative and
                                                                                                Governors. Also, the President’s Council on
                                           regulatory reviews. In order to differenti-
                                                                                                Integrity and Efficiency and the Executive
                                           ate the work reported by the OIG and
                                                                                                Council on Integrity and Efficiency recognized
                                           Inspection Service, the pages containing
                                                                                                the Postal Service OIG’s Y2K oversight role
                                           the Inspection Service work have been
                                                                                                with the Award for Excellence. This award rec-
                                           color screened. Report numbers are
                                                                                                ognized the team’s efforts that led to “increased
                                           shown in parentheses after the narrative,
                                                                                                level of senior management involvement, re-
                                           as appropriate.
                                                                                                examination of the initiative’s scope, and
                                                                                                expansion testing.”
                                                                                                     Key OIG efforts on the Y2K initiative are
                                          OFFICE OF INSPECTOR                                   highlighted below:
                                          GENERAL                                               ◆   The OIG addressed the Postal Service’s
                                               Through technology, the Postal Service is            Y2K progress in the critical areas of auto-
                                          able to deliver more than 650 million pieces of           mated mail processing equipment, critical
                                          mail every day, and maintain its network of over          suppliers, embedded chips, and technolo-
                                          38,000 post offices and facilities. The Postal            gy-dependent facilities. Aside from
                                          Service recognizes that technology is key to pro-         remediation of severe and critical com-
                                          ductivity and affordability. Its technology strat-        puter applications, no other area was as
                                          egy is to provide convenient access to all con-           important to the Postal Service’s Y2K
                                                                                                    initiative. The OIG concluded the
                                          cerned on a daily basis through increasingly
                                                                                                    Postal Service had made substantial
                                          sophisticated retail systems, expansion into new
                                                                                                    progress and adequate processes were
                                          electronic access channels, and electronic link-
                                                                                                    developed to make facilities, including
                                          ages that integrate customer and postal process-          mail-processing equipment, Y2K-ready
                                          es. The OIG technology reviews encompass the              before the new millennium. The OIG
                                          Y2K initiative, information systems, informa-             recommended the Postal Service place
                                          tion technology infrastructure, developmental             more emphasis on supplier contingency
                                          systems, telecommunications, computer securi-             planning, establish deadlines to activate
                                          ty, and computer intrusion. During this period,           these plans for high risk critical suppliers,
                                          the OIG performed 11 reviews in the technolo-             and monitor processing equipment soft-
                                          gy area. Significant reviews are highlighted              ware deployment to ensure installation of
                                          below.                                                    the proper Y2K compliant software.
                                                                                                    Management implemented all the OIG
                                          YEAR 2000 (Y2K) AND                                       recommendations. (OIG IS-AR-00-001)
                                          INFORMATION SYSTEMS
                                                                                                ◆   In December 1999, the OIG reported the
                                               The Postal Service recognized the criticali-
                                                                                                    Postal Service had demonstrated signifi-
                                          ty of technology in its future and invested heav-
                                                                                                    cant progress in making its severe and
                                          ily in Y2K preparedness - an investment that
                                                                                                    critical information systems Y2K compli-
                                          paid off! During Y2K preparations, the OIG                ant, implementing Y2K solutions for its
                                          continued to provide timely audit support by              information technology infrastructure
                                          evaluating ongoing Y2K efforts to identify issues         and mail-processing equipment, complet-
                                          and recommend corrective actions. During this             ing information system readiness testing,
Postal Service Management thanked         period, the OIG performed independent obser-              and determining whether its data
the OIG for its timely and outstand-      vations of system tests of critical mail processing       exchange partners would be Y2K ready.
ing efforts in assisting the Postal
                                          equipment and other mission-critical applica-             The Postal Service also demonstrated
Service with its Y2K challenge.
                                          tions, issued three Y2K reports, and monitored            considerable progress in assessing the
                                          the Y2K rollover at Postal Service Headquarters           Y2K readiness of its facilities and exter-



                                PAGE 78   TECHNOLOGY REVIEWS
    nal suppliers. While strides had been              Management agreed with the findings
    made in these areas, the OIG advised               and recommendations and took immedi-
    management that more work was needed               ate action to mitigate potential problems.
    in developing component contingency                (OIG TR-AR-00-002)
    and business continuity plans. Manage-                                                                        DID YOU
    ment agreed with the findings.
    (OIG IS-AR-00-002)
                                                   OIG AND POSTAL
                                                   MANAGEMENT WORK TO
                                                                                                                  KNOW?
◆   The OIG also addressed the develop-
                                                   IMPLEMENT POSTAL-WIDE
                                                   Y2K EMERGENCY RESPONSE
    ment and testing of continuity and con-
    tingency plans designed to mitigate oper-
                                                   CAPABILITY                                           What is computer “hacking?”
    ational failures and the ability of the              In the months prior to the Y2K rollover,       Computer hacking is an event
    Postal Service to recover expeditiously        the OIG and Postal management discussed
                                                   concerns regarding the potential for computer        in which someone within or
    from such events. The OIG noted the
    Postal Service made significant progress       intrusion into the Postal Service systems by         outside the Postal Service
    in developing business continuity and          unauthorized individuals or groups, particularly
    contingency plans. However, a plan had         those that could be masked as Y2K disruptions.       illegally attempts to gain entry
    not been developed for one critical sys-       The OIG worked with Postal management to             into the Postal Service computer
    tem and other plans were not completed,        underscore the potential harm to Postal Service
    well integrated, or adequately tested.                                                              systems. The OIG is developing
                                                   operations from a successful intrusion into the
    The OIG recommended the Postal Ser-            Postal Service network by unauthorized indi-         a computer intrusion network
    vice develop a plan for the omitted criti-     viduals. The OIG stressed that such a disrup-
    cal system, expand testing to those areas                                                           that will enable OIG to detect
                                                   tion could place critical Postal Service comput-
    where plans were not fully developed,          er systems at risk, degrade the performance of       and investigate hacking attempts.
    and integrate all continuity and contin-
                                                   the Postal Service network, and hamper the
    gency plans with other supporting plans.
                                                   overall function of the Postal Service.
    The OIG also recommended the Postal
                                                         Postal management requested the assis-
    Service pursue comprehensive plans for
    all severe or critical systems and for high-   tance of the OIG in establishing a 24-hour
    impact failure scenarios in the long-term.     emergency response capability that would
    Management generally agreed with the           address potential disruptions during the days
    findings and recommendations and took          preceding and following the Y2K rollover. By
    action to mitigate potential problems.         evaluating the programs implemented by other
    However, management disagreed with             law enforcement agencies and computer emer-
    OIG’s recommendation to expand the             gency response organizations, the OIG was able
    testing but planned to require business        to assist the Postal Service in establishing an
    owners to provide additional testing jus-      emergency response capability. After coordi-
    tification. (OIG TR-AR-00-001)                 nating emergency preparedness efforts, several
◆   Finally, the OIG reviewed the “Day             members of the OIG joined Postal personnel in
    One” strategy that comprised a compre-         staffing the Y2K emergency response teams.
    hensive set of actions to be executed dur-     Although there were isolated reports of general
    ing the last days of 1999 and the first        computer problems, which the OIG helped to
    days of 2000. The OIG noted the Postal         assess, no intrusions into the Postal Service net-
    Service established an effective infra-        work were detected.
    structure and process to communicate,
    react to, and track resolution of potential    DEVELOPMENTAL REVIEWS
    Y2K failures. The Postal Service also               The Postal Service is developing numerous
    had developed a complete “Day One”             business systems that will improve performance,
    strategy to identify Y2K problems and          enhance service, and reduce operating costs.
    take corrective actions. However, the          The OIG understands the importance of
    OIG determined that, although dedicat-         reviewing these systems as they are developed
    ed resources were available, the Postal        and has completed three audits of major pro-
    Service needed to further define the crit-     jects currently under development during the
    ical staff needed for the rollover period
                                                   reporting period.
    and rehearse its “Day One” strategy.


                                                                                                        PAGE 79
                                           TRAY MANAGEMENT SYSTEM                               PHASE I REMOTE ENCODING
                                                The Tray Management System automates            CENTER CONSOLIDATION
                                           the movement and staging of mail between                   Last year, the Postal Service announced
                                           most mail sorting operations in a processing         that remote encoding center operations would
                                           plant. The OIG audited this system to deter-         be consolidated to control overhead costs as
                                           mine if cost estimates and projected savings         technological improvements reduced the work-
                                           were reasonable and achievable, and whether          load at the centers. The OIG assessed Phase I
                                           system capacity was adequate to move candi-          of the planned consolidation and determined
                                           date mail. Despite progress made to date in          that it was properly approved and economically
                                           designing and deploying the Tray Management          justified, and that policies, procedures, and con-
                                           System, the OIG determined the projected             trols over the process were sufficient. However,
                                           return on investment for the system was over-        the net cash flow estimated in the initial eco-
                                           stated and that the Postal Service will incur at     nomic analysis of Phase I was overstated. Postal
                                           least $27.9 million more in equipment mainte-        Service personnel agreed with the OIG and
                                           nance, labor, and operations disruption costs        revised the estimated cash flows.
                                           than projected.                                      (OIG DA-AR-00-001)
                                                The audit also disclosed that system capac-
                                                                                                COMPUTER SECURITY
                                           ity was less than projected, a plan for attrition
                                                                                                      Computers and electronic data have
                                           maintenance training did not exist, and Phases
                                                                                                become indispensable to the critical operations
                                           II and III of contract administration contained
                                                                                                of the Postal Service. The Postal Service relies
                                           weaknesses. Management’s comments were
                                                                                                upon a massive computer infrastructure to
                                           responsive to the majority of issues identified in
                                                                                                accomplish and streamline operations, from
                                           the report. However, management did not
                                                                                                managing one of the largest civilian workforces
                                           agree to revalidate the savings associated with
                                                                                                in the world, to moving billions of pieces of mail
                                           the Tray Management System or to reassess
                                                                                                per year. In addition to using information tech-
                                           whether the continued deployment was in the
                                                                                                nology to promote efficiency, Postal manage-
                                           Postal Service’s best interest. The OIG and
                                                                                                ment has initiated projects intended to bolster
                                           Postal Service management subsequently
                                                                                                the Postal Service’s position as a major partici-
                                           resolved their disagreements.
                                                                                                pant in electronic commerce, a strategy that
                                           (OIG DA-AR-00-002)
                                                                                                necessarily requires further reliance upon infor-
                                           POS (POINT OF SERVICE) ONE –                         mation technology. Although information
                                           VENDOR SOLUTION                                      technology has enhanced efficiency and rev-
                                                 At the request of the Postal Service’s Chief   enue, security issues related to computers place
                                           Marketing Officer, the OIG reviewed the bene-        Postal operations at risk for fraud, inappropriate
                                           fits of transitioning from two vendors to one for    disclosure of sensitive data, and disruption of
                                           the POS ONE system. The audit revealed the           critical operations and services.
                                           cost model reasonably projected the financial              As the Postal Service continues to trans-
                                           impact of transitioning to one POS ONE ven-          form itself into a technology and service leader
                                           dor. However, the OIG was unable to validate         in the digital marketplace, computer security
                                           the overall benefits from such a transition and      will translate into competitive advantage by
The OIG has been reviewing the new Point   determined that relying on one vendor posed          protecting the Postal Service brand image, pro-
of Service terminals installed at retail   some risks. The OIG did not solicit formal com-      viding a secure accessible environment for con-
stores nationwide.                         ments but encouraged Postal Service manage-          sumers and business partners, reducing legal and
                                           ment to carefully weigh the potential risks          financial liability, and ensuring service continu-
                                           against projected benefits prior to relying on       ity. To that end, the OIG continues to work
                                           one vendor. Management subsequently decided          with Postal management to improve the overall
                                           to continue with two vendors.                        computer security posture of the Postal Service.
                                           (OIG DA-LA-00-001)                                         The OIG is looking at the Postal Service’s
                                                                                                ability to protect its investment in technology
                                                                                                by evaluating computer security. During this



                              PAGE 80      TECHNOLOGY REVIEWS
reporting period, the OIG completed two               other vital computer systems, and to assist in
computer security reviews. The results of these       reporting criminal attacks to the OIG.
and other OIG computer security initiatives           (OIG CI-CSA-00-001)
during the period are highlighted below.

PRIVACY ACT ALLEGATIONS
                                                      COMPUTER SECURITY
                                                      CONCERNS IDENTIFIED TO NEW
                                                                                                                     DID YOU
      Allegations involving Privacy Act viola-        CHIEF TECHNOLOGY OFFICER                                       KNOW?
tions concerning four Postal Service systems                Since computer security issues affect finan-
prompted the OIG to conduct a review. The             cial, operational, strategic, and legal concerns
complainant alleged that Postal Service securi-       within an organization, implementing effective       What is the OIG’s web
ty policies for systems of records were not fol-      security policy is largely dependent upon the        address?
lowed and recommendations provided by the             support of high-level decisionmakers. In order
                                                      to promote organization-wide computer securi-        http://www.uspsoig.gov
Postal Service’s National Computer Security
Group were not implemented. The OIG sub-              ty within the Postal Service, the OIG reported
stantiated the systems security allegations but       to the Postal Service’s Chief Technology Officer
could not substantiate specific “willful” Privacy     on the need to take immediate action to address
Act violations. The OIG recommended Postal            Postal-wide computer security issues identified
Service management reemphasize existing               at Federal agencies by Congress and the GAO.
restrictions on the use of production data in test    These issues included use of warning banners,
facilities, and that the necessary systems securi-    outdated security policy, and computer security
ty approvals be obtained before moving produc-        organizational structure. (OIG CI-LA-00-001)
tion data to test facilities. Postal management       ELECTRONIC COMMERCE
concurred with three of OIG’s recommenda-
                                                            Businesses world-wide are facing the
tions and provided acceptable alternatives as
                                                      threats and opportunities presented by electron-
solutions for two other recommendations.
                                                      ic commerce. Like many other businesses, the
(OIG IS-AR-00-003)
                                                      Postal Service is expecting little or no growth in
OIG EFFORTS TO MITIGATE                               its traditional markets (e.g., First-Class Mail)
COMPUTER SECURITY RISKS                               and needs to develop new sources of revenue.
     The OIG issued its first Computer Securi-        The Postal Service views electronic commerce
ty Advisory this reporting period to assist Postal    as a strategy for obtaining new sources of rev-
management in improving computer security.            enue. Several of these strategies in electronic
This advisory was prepared from information           commerce are beginning to emerge. For
received from Federal law enforcement and             instance, the Postal Service is building a strong
intelligence sources as well as major computer        Internet presence and working on becoming
security organizations. The advisory addressed        the “carrier of choice” for merchandise pur-
“denial of service” attacks, the subject of intense   chased on the Internet. However, the Postal
press coverage and multiple criminal investiga-       Service faces a formidable challenge in imple-
tions. While the main advisory was prepared to        menting electronic commerce strategies for the
address information technology management             new century.
concerns, supporting technical supplements                  Clearly, electronic commerce will forever
were written to communicate vital technical           change the way the Postal Service conducts
information to network administration person-         business. The OIG has established a separate
nel. Together, the Computer Security Adviso-          electronic commerce team directly involved in
ry and technical supplements outlined the             day-to-day consultations and reviews of the
“denial of service” security problems relevant to     electronic commerce initiative, and a number
Postal computer systems and provided informa-         of other teams are available to perform related
tion regarding risk and damage mitigation.            reviews and investigations. In addition to the
Such advisories are intended to provide officials     work being done in other related areas, ongoing
with technical information to identify, prevent,      OIG electronic commerce-related activities
and respond to attacks on Postal web sites and        include: (1) a Postal-wide survey of electronic




                                                                                                           PAGE 81
                                        commerce; (2) an examination of the electron-
                                        ic commerce organizational structure, planning
                                        and budgeting process; and (3) a review of com-
                                        petition and management of mail from Internet
                                        retailers. The OIG will continue to help the
                                        Postal Service move successfully and securely
                                        into the electronic marketplace of the 21st cen-
                                        tury.
                                        COMPUTER INTRUSION
                                             The Computer Intrusion Team investigates
                                        violations of federal law pertaining to computer
                                        activity such as the Computer Fraud and Abuse
                                        Act. Law enforcement activities include devel-
                                        oping and implementing intrusion detection
                                        systems for law enforcement purposes, working
                                        with Postal management in responding to com-
The Computer Intrusion Team uses the
latest technology to investigate        puter-based attacks, and conducting criminal
computer hacking attacks on Postal      investigations of attacks. During this period,
Service systems.                        the OIG completed one review and closed two
                                        investigations in this area.

                                        OIG REVIEWS ALLEGATION
                                        MADE BY “WATCH-DOG”
                                        GROUP
                                              At the request of Postal Service manage-
                                        ment, the OIG conducted a review of allega-
                                        tions made by an outside agency that proclaims
                                        itself as the “Watchdog over the Postal Service.”
                                        The outside agency alleged that repeated visits
                                        by Postal Service employees to the organiza-
                                        tion’s web site were causing service disruptions.
                                        The OIG indicated that, in at least two loca-
                                        tions, the Postal Service Government Rela-
                                        tions’ web site had a direct link to the outside
                                        organization’s web site. As a result of these
                                        links, over 1,000 visits per day were made by
                                        Postal Service employees to this web site. The
                                        OIG determined that this high number of visits
                                        could be construed as excessive. The OIG fur-
                                        ther suggested that steps be taken to remove the
                                        links to the outside web site. Postal manage-
                                        ment disagreed saying that there was no evi-
                                        dence of abuse or excessive usage by Postal
                                        employees. The OIG intends to reexamine this
                                        issue as part of a future review of the Postal
                                        Internet. (OIG CI-MA-00-001)
                                        LEGISLATIVE AND REGULATORY
                                        REVIEWS
                                             During this reporting period, the OIG did
                                        not identify any significant legislation or regula-
                                        tions affecting Postal Service technology.


                              PAGE 82   TECHNOLOGY REVIEWS
INSPECTION SERVICE
      The Inspection Service plays an important
role in the support of Postal Service e-Com-
merce initiatives and technical applications.
The Inspection Service’s Computer Crimes and
Commerce Units and their Information Tech-
nology Division utilize the latest technology to
facilitate their work.
ELECTRONIC COMMERCE
      The Inspection Service monitors the
development of new Postal electronic products
and services as well as provides advice to Postal
managers on the security, loss prevention, rev-
enue protection, and evidence retention capa-
bilities of the electronic products and services.
Members of the Inspection Service units have
developed and conducted training on computer
crimes, particularly those involving the Inter-
net. The units also provide program manage-
ment and guidance to field divisions conducting
online investigations.
      To increase the technical knowledge and
skills of Postal Inspectors, the Inspection Ser-
vice developed a two-day training course for
Postal Inspectors and others entitled Computer
Searches and Internet Investigations. The course
provides Postal Inspectors with a basic intro-
duction to new investigative and evidentiary
issues relating to high-technology crime, and
introduces them to the Internet as a valuable
source of information and as a potential crime
scene. In November, reporters from ABC’s
broadcast news program “20/20” visited the new
computer class to highlight the new role of
Postal Inspectors as “cybercops.”
      The Inspection Service maintains a securi-
ty infrastructure for national computing and
telecommunications needs, including develop-
ing and maintaining business applications to
support core business functions.
      While the Postal Service worked to miti-
gate the potentially debilitating effects of the
Y2K calendar rollover, the Inspection Service
provided continuous security, emergency plan-
ning advice, and a Recovery Management Plan.
The Postal Service provided reports on Postal
conditions related to Y2K and helped prepare
personnel to react to potential problems, based
upon Inspection Service crisis management
plans.


                                                    PAGE 83
PAGE 84
Labor Management
Reviews




 OFFICE OF INSPECTOR GENERAL
      Violence in the Workplace
      Workplace Climate
      Healthcare
      Postal Employees Safety Enhancement Act
      Legislative and Regulatory Reviews
 INSPECTION SERVICE
      Workplace Climate
      Postal Robberies
      Drugs in the Workplace
      Workers’ Compensation



                                          PAGE 85
                                                                                                 dence that managers singled out employees for
                                           This section highlights audits, reviews,
                                                                                                 unwarranted discipline, resulting in monetary
                                           and investigations performed by the OIG
                                                                                                 awards and settlements totaling about $70,000
                                           and the Inspection Service in the Labor
                                                                                                 in back pay to 13 employees. The audit further
                                           Management area. Also included at the
                                                                                                 disclosed district officials knew of employees’
                                           end of the section are the OIG legislative
                                                                                                 concerns for about three years, but did not
                                           and regulatory reviews. In order to dif-
                                                                                                 address employee issues or respond to Congres-
                                           ferentiate the work reported by the OIG
                                                                                                 sional inquiries in a timely manner. Manage-
                                           and Inspection Service, the pages con-
                                                                                                 ment generally agreed with the recommenda-
                                           taining the Inspection Service work have
                                                                                                 tions, with the exception of implementing dis-
                                           been color screened. Report numbers are
                                                                                                 ciplinary action against the managers identified.
                                           shown in parentheses after the narrative,
                                                                                                 Management indicated that corrective action
                                           as appropriate.
                                                                                                 was appropriate and identified specific actions
                                                                                                 initiated for these managers. The Southeast
                                                                                                 Area also issued guidance to district managers in
                                          OFFICE OF INSPECTOR                                    an effort to prevent similar incidents at other
                                          GENERAL                                                facilities. (OIG LM-AR-00-001)
The OIG Labor Management Team                  The OIG has identified the Postal Service’s       HOSTILE WORK ENVIRONMENT
evaluates Postal Service organizational
                                          labor management area as one of the major per-         IN PUERTO RICO POST OFFICE
climate and employee relations issues.
                                          formance and management challenges that                     The OIG identified evidence of a hostile
                                          must be addressed if the Postal Service is to be       work environment at a Puerto Rico Metro Area
                                          competitive in the 21st century. The OIG sup-          post office but found that Postal management
                                          ports the Postal Service in its overall goal of fos-   had improved the environment during the last
                                          tering an inclusive and welcoming workplace            two years. The audit was initiated in response
                                          consistent with the Postal Service values of fair-     to requests from the Chairman of the Subcom-
                                          ness, opportunity, safety, and security. The labor     mittee on the Postal Service to review allega-
                                          management area deals with issues involving            tions that threats and assaults had taken place in
                                          workplace violence, workplace climate, health          the post office. The OIG confirmed that phys-
                                          care, and the Postal Employees Safety Enhance-         ical altercations had occurred between man-
                                          ment Act. During the period, the OIG con-              agers and craft employees. However, the OIG
                                          ducted 44 reviews in this area.                        concluded that district management took
                                                                                                 appropriate action to resolve the issues and, as
                                           VIOLENCE IN THE WORKPLACE
                                                                                                 evidenced in a December 1999 climate survey,
                                               The Postal Service widely acknowledges            was successful in improving the workplace cli-
                                          concerns about violence in the workplace.              mate. Postal management elected not to pro-
                                          Both the OIG and the Postal Service are dedi-          vide written comments on the report.
                                          cated to the prevention of violence and consid-        (OIG LM-LA-00-002 and OIG LR-CR-00-032)
                                          er early intervention and cooperation with
                                          management and employee groups essential.              MANAGEMENT TOOK ACTION
                                          The OIG recently conducted 12 reviews of vio-          TO HANDLE POTENTIAL HOSTILE
                                          lence in the workplace, several of which are pre-      WORKING ENVIRONMENTS
                                          sented below.                                              The OIG reviewed several allegations
                                                                                                 involving potential hostile working environ-
                                          INCREASED RISK FOR VIOLENCE                            ments.
                                          AT A SOUTHEAST AREA POST
                                          OFFICE                                                 ◆   The OIG reviewed allegations of unethi-
                                               The OIG reviewed and substantiated alle-              cal conduct and abusive behavior by a
                                                                                                     Postal supervisor in a Great Lakes Area
                                          gations of a hostile working environment that
                                                                                                     post office. The OIG review revealed
                                          increased the risk for violence at a Southeast
                                                                                                     that an employee and workplace inter-
                                          Area post office. The audit disclosed evidence
                                                                                                     vention analyst was assigned to review
                                          that some managers verbally abused, harassed,
                                                                                                     the situation at the post office. Addi-
                                          and intimidated employees. There was also evi-


                                PAGE 86   LABOR MANAGEMENT REVIEWS
    tionally, the OIG confirmed that Postal          take comprehensive steps to improve the work-
    officials conducted conflict management          place environment. This must be accompanied
    training at the facility, and that a climate     by aligning human resources with business
    task force is now in place at the post           requirements. To assist the Postal Service in
    office to provide continuous monitoring          addressing workplace environment issues, the                   DID YOU
    and guidance in addressing the work-
    place climate situations. Further, the
                                                     OIG conducted 24 reviews of workplace cli-
                                                     mate and conditions, three of which are high-
                                                                                                                    KNOW?
    complainants relayed that the overall sit-
                                                     lighted below.
    uation had greatly improved and that in
    their opinion, the climate task force            MANAGEMENT FOLLOWED                                 Are all Hotline complaints
    made a dramatic difference.                      APPROPRIATE POLICIES AND                            confidential?
    (OIG LM-CR-99-012)                               PROCEDURES
◆   The OIG reviewed allegations that a                  The OIG reviewed several instances              The identity of individuals who
    manager caused a hostile working envi-           involving application of Postal policies and pro-   make complaints or provide
    ronment in a Southeast Area processing           cedures.
    and distribution center. The OIG deter-                                                              information regarding alleged
                                                     ◆   The OIG evaluated allegations made by
    mined that management implemented                                                                    wrongdoing is held confidential
                                                         a Kansas Postal Service employee regard-
    procedures to deal with the employees’
                                                         ing unjust suspension and removals from         unless the individual gives
    concerns and that the manager who was
                                                         the Postal Service. The Chairman of the
    the focus of the allegations was reas-                                                               permission for the disclosure of
                                                         Subcommittee on the Postal Service
    signed. This manager also received
                                                         requested a review of reprisal allegations      his/her name, or if disclosure is
    training regarding interpersonal skills
                                                         by Postal Service management as a result
    and behavior. (OIG LM-CR-00-020)                                                                     required by law.
                                                         of the employee’s contact with the Sub-
◆   The OIG reviewed a Louisiana Postal                  committee. The OIG determined that
    Service employee’s allegation of sexual              there was no evidence of misconduct on
    harassment and a hostile working envi-               the part of Postal Service management
    ronment. The review was initiated in                 and that the employee’s removals were
    response to a request from the Chairman              not related to communications with
    of the Subcommittee on the Postal Ser-
                                                         Congress. Further, the OIG found that
    vice to investigate these allegations. As
                                                         the employee was terminated on both
    a result of the OIG review, the area man-
                                                         occasions for unacceptable conduct. In
    ager for human resources took action and
                                                         addition, the employee has returned to
    initiated an investigation into the
                                                         duty as a letter carrier and, as a result of
    employee’s issues. In addition, the area
                                                         arbitration, has recovered some back pay.
    manager conducted a workplace climate
                                                         (OIG LM-CR-99-009)
    assessment at the post office.
    (OIG LM-CR-00-027)                               ◆   The OIG reviewed allegations made by a
◆   During this reporting period, the OIG                Postal Service employee regarding denial
    initiated a large scale review of 26 dis-            of a request to reinstate 160 hours of sick
    trict offices located in the Mid-Atlantic,           leave because the employee was not
    Pacific, Southeast, and Western Areas,               given full-time status until the three year
    in an ongoing effort to determine the                temporary limit expired and the benefits
    impact of Postal Service compliance with             were lost. The OIG found that the
    violence prevention and response pro-                Postal Service determination was in
    gram criteria. Area and district officials           accordance with established procedures
    have been briefed on the findings for                and policies, which had been properly
    their respective programs. Reports on all            applied. (OIG LM-CR-00-004)
    26 districts have been drafted and will be
    reported in the next semiannual report.          EMPLOYEE AWARDED BACK PAY
                                                          The OIG reviewed an allegation made by
WORKPLACE CLIMATE                                    an employee that the Postal Service owed her
    The Postal Service believes that signs of        back pay as a result of an on-the-job injury. As
workplace stress are present, and that it needs to   a result of the OIG inquiry, the Postal Service



                                                                                                          PAGE 87
                                    submitted the claim for processing and the              cy letter instructing appropriate person-
                                    employee subsequently was awarded over                  nel not to use the injury claim form for
                                    $8,000 in back pay. (OIG LM-CR-OO-030)                  the release of medical information. This
                                                                                            would eliminate the practice of misrepre-
         DID YOU                    HEALTH CARE                                             senting the claimants’ authorization and
                                          For FY 1999, the Postal Service paid over         violating the employees’ privacy. The
         KNOW?                      $580 million for employee injury claims, an $18         OIG also recommended that manage-
                                    million increase over FY 1998. Because the              ment avoid misinterpretation of the lan-
                                    Postal Service is self-insured for workers’ com-        guage on the forms and ensure timely dis-
Will the OIG investigate allega-    pensation costs, they make such payments out            semination of Health and Resource Man-
tions of retaliation when           of operating funds. Thus, the Postal Service’s          agement instructions. Postal manage-
                                    net income is affected every time an employee is        ment agreed and has taken corrective
wrongdoing is reported to           injured and unable to return to work. Contain-          actions. (OIG HC-MA-00-001)
them?                               ing these costs continues to be a key to the        ◆   The OIG received a Hotline complaint
                                    Postal Service’s financial well being.                  concerning the untimely submission of
The OIG investigates all com-                                                               injury claims in a New Mexico district.
                                          The OIG conducts audits and investiga-
plaints of management retaliation   tions designed to prevent and detect fraud,             The OIG conducted a review of injury
                                                                                            claims submissions in the district and
received from Postal Service        waste, abuse, and mismanagement related to
                                                                                            found that Postal Service managers were
                                    Postal Service health care program costs, and
employees who had previously                                                                submitting injury claims an average of 21
                                    assists in the protection of the health and wel-
                                                                                            days late for 246 injury claims that were
reported wrongdoing to the OIG.     fare of the Postal Service’s workforce. The OIG         reviewed. The review showed that late
                                    has initiated proactive investigative projects to       claim submissions occurred because the
                                    identify issues affecting health care providers.        district senior management did not
                                    Other ongoing OIG investigations include                enforce internal policies and procedures.
                                    improper billing practices, such as false claims        To correct these deficiencies, the OIG
                                    and false statements. In addition, the OIG is           suggested that Postal Service managers
                                    evaluating the increase in medical costs within         develop a policy detailing supervisory
                                    the injury compensation program and has other           responsibilities for processing injury
                                    related reviews ongoing.                                claims and establish sanctions for super-
                                          In the past six months, the OIG completed         visors who fail to submit injury claims
                                    six projects—four investigative reviews and two         timely. In addition, injury compensation
                                    management reviews—resulting in a $155,000              training should be required and conduct-
                                    recovery and one conviction. In addition, five          ed for all Postal Service supervisors.
                                    ongoing investigations have resulted in three           Management agreed with most of the
                                    arrests. Some of the OIG’s more significant ini-        recommendations but did not agree with
                                                                                            mandatory injury compensation training.
                                    tiatives in this area are highlighted below.
                                                                                            Management has either taken or is plan-
                                    INAPPROPRIATE USE AND                                   ning to take corrective action.
                                    UNTIMELY SUBMISSION OF                                  (OIG HC-MA-00-002)
                                    INJURY CLAIM FORMS
                                                                                        HEALTH CARE PROVIDERS
                                    ◆   The OIG received a Hotline complaint            INVESTIGATED
                                        concerning the Postal Service’s inappro-
                                                                                        ◆   In an investigation of a health care
                                        priate use of an injury claim form. The
                                                                                            provider, jointly conducted by the OIG
                                        OIG conducted a review of the use of the            and other Federal law enforcement agen-
                                        form to obtain employee medical infor-              cies, a settlement agreement was reached
                                        mation from health care providers. The              by an Oklahoma-based physician billing
                                        review disclosed that since mid-1994, the           company and its founder to pay the Gov-
                                        office staff had inappropriately used the           ernment and 28 states $15 million. This
                                        injury claim form as an authorization to            payment was made to resolve allegations
                                        request employees’ medical information              of false billings to Medicare, Medicaid,
                                        from health care providers. As a result,            the Defense Department’s TRICARE
                                        Postal Service management issued a poli-



                          PAGE 88   LABOR MANAGEMENT REVIEWS
    programs, the Federal Employee Health         OIG RECOUPS DISABILITY
    Benefits Program, and the Office of           OVERPAYMENT
    Workers’ Compensation Programs. The                During the investigation of a health care
    settlement agreement resolved allega-         provider for alleged double billing, the OIG
    tions that the firm and its founder typi-     found that an overpayment was made to a for-
    cally submitted claims for more extensive     mer Postal Service employee who was receiving
    procedures than rendered, and billed for
                                                  disability compensation. The OIG requested
    services more extensive than those actu-
                                                  that the Department of Labor, Office of Work-
    ally provided by physicians. The Postal
    Service recovered $155,500 from the set-      ers’ Compensation Programs, credit the Postal
    tlement agreement.                            Service for the overpayment. The Postal Ser-
                                                  vice was reimbursed over $18,000. The investi-
◆   The OIG conducted an investigation of
                                                  gation is continuing.
    a health care provider based upon infor-
    mation received from the Inspection Ser-      HEALTH CARE SWINDLERS AND
    vice that an employee and physician           DRUG DIVERTER ARRESTED
    were in collusion regarding the employ-       ◆   As a result of a joint task force investiga-
    ee’s disability claim. The investigation          tion that included the OIG, two individ-
    revealed that the employee who had                uals were arrested and charged in state
    been on disability for the last 18 years          court for their alleged participation in a
    performed work on the physician’s resi-           health care fraud scheme. The individu-
    dence while collecting disability pay-            als involved fabricated or stole health
    ments. Subsequently, the employee was             care provider names, then submitted
    indicted for filing false claims. Federal         fraudulent claims for payment to insur-
    prosecution was declined on the physi-            ance programs. Prosecution is pending.
    cian.
                                                  ◆   As a result of another joint task force
◆   An OIG-led task force initiated a joint           investigation, a search warrant was exe-
    investigation into fraudulent billing of          cuted and an individual was arrested for
    medical claims by a medical provider.             defrauding the Federal Employees Health
    The provider was fraudulently billing             Benefit Program. The scheme involved
    medical clinics for services not rendered         the diversion of expired and substandard
    to the Postal Service and state employees         drugs to health care providers, thus
    under the Workers’ Compensation Pro-              endangering the health and well-being of
    gram. Since December 1998, the                    Postal Service employees. Prosecution is
    provider billed the Postal Service for            pending.
    over $400,000 in medical services. Four
    search warrants were executed and             MEDICAL PROVIDERS INVESTI-
    numerous records were seized. The             GATED
    investigation is continuing.                  ◆   The OIG received information that dis-
◆   As a result of a multi-agency task force          closed billing irregularities by a physician
    that included the OIG, a California               providing services to a Postal Service
    physician was convicted in federal court          employee for a work-related injury. The
    of 41 counts of mail fraud, wire fraud,           physician used multiple employment
    bankruptcy fraud, false statements, and           identification numbers on claim forms
    conspiracy to accept and pay kickbacks.           that resulted in the issuance of duplicate
    The physician was accepting kickbacks             payments. Federal prosecution was
    for patient referrals, signing medical cer-       declined against the physician; however,
    tificates for durable medical equipment           state charges are pending against the
    that was not needed, and fraudulently             employee.
    using medical provider numbers to bill        ◆   The OIG initiated another investigation
    Medicare and Medi-Cal. Sentencing is              based upon an allegation that a physician
    pending.                                          double-billed the Postal Service for




                                                                                                     PAGE 89
                                             providing services. The Department of             LEGISLATIVE AND REGULATORY
                                             Labor denied payment after being                  REVIEWS
                                             notified by the Postal Service Injury
                                             Compensation Office. Federal prosecu-            SUBPOENA AUTHORITY
                                             tion was declined.                               JEOPARDIZED BY NEW PRIVACY
                                                                                              STANDARDS
                                         THE POSTAL EMPLOYEES’                                     The OIG commented on a proposed
                                         SAFETY ENHANCEMENT ACT                               Department of Health and Human Services rule
                                              The Postal Employees Safety Enhance-            defining standards of privacy for individually
                                         ment Act, enacted on September 28, 1998,             identifiable health information and restricting
                                         changed the status of the Postal Service as an       the OIG’s ability to obtain individual health
                                         employer under the Occupational Safety and           care information through the use of administra-
                                         Health Act of 1970. As a result, the Postal Ser-     tive subpoenas. The proposed rule would estab-
                                         vice can be cited, fined, and referred for prose-    lish a three-part test requiring that:
                                         cution by the Occupational Safety and Health
                                                                                              ◆    the information be relevant and material
                                         Administration for safety violations. This Act
                                                                                                   to a legitimate law enforcement inquiry;
                                         was meant to assure safe and healthy working
                                         conditions for Postal workers.                       ◆    the request be as specific and narrowly
                                              The Postal Service is continuing to imple-           drawn as is reasonably practicable; and
                                         ment the Postal Employees Safety Enhance-            ◆    the information be purged of unique,
                                         ment Act to improve workplace safety. In com-             individual identifiers.
                                         plying with the act, Postal Service officials will        The OIG expressed concern that the
Examples of safety and health hazards
documented in an OIG video report.       have to review and modify existing safety and        three-part test would restrict its ability to obtain
                                         health policies, programs, procedures, systems,      individual health care information through its
                                         training, and education programs. The OIG            administrative subpoena process. The OIG also
                                         completed reviews of unsafe working conditions       expressed concern that the second part of the
                                         during this period.                                  three-part test would require Inspector General
                                         FIRST VIDEO REPORT DOCUMENTS                         subpoenas to be so narrowly drawn that it would
                                         UNSAFE WORKING CONDITIONS                            impede the OIG’s ability to obtain information
                                                                                              during the course of a lawful audit or investiga-
                                              The OIG substantiated employee allega-
                                                                                              tion. In addition, the rule does not indicate
                                         tions that working conditions at an aging
                                                                                              how the three-part test will be met or who will
                                         Southwest Area Postal facility were unsafe.
                                                                                              make that determination.
                                         Using video equipment, the OIG documented
                                                                                                   The OIG recommended the drafters insert
                                         water leaks that created electrical and fire haz-
                                                                                              language exempting Inspector General subpoe-
                                         ards and lead-based paint that had deteriorated.
                                                                                              nas from the new three-part test. In response to
                                         Further, the video demonstrated that employees
                                                                                              comments provided by the OIG and others, the
                                         had limited protection from falling debris. The
                                                                                              Department of Health and Human Services
                                         OIG concluded that these conditions increased
                                                                                              agreed to amend the proposed rule.
                                         the risk of employee and customer injuries,
                                         compromised Postal Service property and the
                                         security of the mail, and constituted potential
                                         violations of Occupational Safety and Health
                                         Administration requirements. Postal manage-
                                         ment agreed to implement all corrective actions
                                         addressing all reported issues, including relocat-
                                         ing operations until conditions were corrected.
                                         (OIG LM-AR-00-002 and OIG LM-VR-00-001)




                               PAGE 90   LABOR MANAGEMENT REVIEWS
INSPECTION SERVICE                                   POSTAL ROBBERIES
                                                         The Inspection Service regards the preven-
     The Inspection Service reviews a number
                                                    tion of robberies as one of its highest organiza-
of labor management areas including: work-
                                                    tional priorities and affords task force attention
place climate, Postal robberies, drugs in the
                                                    to facility, carrier, and other Postal robberies to
workplace, and workers’ compensation investi-
                                                    deter these attacks on employees. Carrier rob-
gations.
                                                    beries are generally committed for the purpose
WORKPLACE CLIMATE                                   of stealing mail and Postal keys to mail recepta-
     The Inspection Service is committed to         cles, while robberies of facilities are committed
employee safety in the workplace, and partners      for cash and money orders. The Inspection Ser-
with Postal management and employee groups          vice investigated 53 robberies in this reporting
in early interventions and other efforts to pre-    period. Robbery-related arrests and convictions
vent violence in the workplace. There were          for this semiannual period totaled 34 and 56,
230 arrests for assaults and threats, up from 127   respectively. Aggressive prosecution and stiff
from the last reporting period.                     sentences are sought for Postal robbers. Exam-
                                                    ples of significant investigations follow.
◆   An individual was sentenced to 29 years
    in prison for attempted murder, aggravat-       ◆    An individual was sentenced to 39 years
    ed battery with a firearm, armed vio-                and 7 months in prison for armed rob-
    lence, and aggravated discharge of a                 beries of post offices in West Virginia
    firearm for the shooting of an Illinois let-         and New Jersey. The individual was
    ter carrier. The letter carrier was shot             ordered to pay over $22,000 in restitu-
    five times while delivering the mail. An             tion jointly with a co-conspirator, who
    investigation of the incident determined             was previously sentenced to 11 years and
    the shooting was over a dispute involv-              6 months in prison.
    ing child support. The carrier recovered        ◆    Three individuals were sentenced for a
    fully.                                               series of armed robberies that included
◆   Postal Inspectors and local police detec-            post offices in Virginia. The suspects,
    tives arrested an individual for the physi-          respectively, were sentenced to 124 years
    cal assault of a letter carrier delivering           and 4 months in prison and a total of
    mail in New York. The assault arose                  over $216,000 in restitution; 26 years
    from an earlier confrontation between                and 10 months in prison and over
    the carrier and a Postal Service customer            $103,000 in restitution; and five years in
    concerning delivery of a Social Security             prison, three years’ probation, and resti-
    check. During the confrontation, one of              tution of $3,790.
    the customer’s companions pistol-               ◆    An individual was convicted for an
    whipped the carrier. The carrier was not             armed robbery of a Postmaster at a post
    seriously hurt. The individual was                   office in North Carolina. The individual
    charged with assault.                                was sentenced in Federal court to serve
◆   An individual pled guilty to one count of            13 years and 4 months in prison, make
    shooting a mail handler in North Caroli-             restitution of over $2,000, assessed a fine
    na as the employee was attempting to                 of $4,000, and required to pay a special
    assist a coworker. The employee’s former             assessment of $200.
    friend was arrested for the shooting.           ◆    An individual was convicted in Federal
    Sentencing is pending.                               court for the armed robbery of a New Jer-
                                                         sey post office. The individual was sen-
                                                         tenced to 32 years and 4 months in
                                                         prison.




                                                                                                          PAGE 91
                                       ◆   A Postal contract driver reported to                drugs. The carrier pled guilty and was
                                           Postal Inspectors of being robbed at gun-           sentenced to 180 days in jail (suspended)
                                           point while transporting the registry               and 3 years probation.
                                           pouch from a post office to a general mail
        DID YOU                            facility in Maryland. The driver stated         WORKERS’ COMPENSATION
        KNOW?                              the suspect approached the truck, opened
                                           the passenger side door, displayed a semi-
                                                                                                The Inspection Service investigates fraudu-
                                                                                           lent claims and receipt of benefits by individual
                                           automatic handgun and entered the               employees. Unlike other Federal agencies,
What should you do if you                  truck and ordered him to drive the truck        these claims are paid from Postal revenues, not
                                           to a remote location where he later took
                                                                                           appropriations, thereby affecting the Postal Ser-
receive a mailing promising                possession of the registered pouch. The
                                                                                           vice’s net income.
you a free prize, or if you                registered pouch contained $18,000 in
                                                                                                Prosecution of workers’ compensation
                                           U.S. currency, $2,294 in checks, and sev-
have been victimized in a free                                                             fraud serves as a deterrent and prevents future
                                           eral registered mail pieces. Two individu-
                                           als were arrested by Postal Inspectors and      benefit payments from being made to violators.
prize promotion through the                                                                Normally, prosecution is based on showing that
                                           pled guilty in Federal court to theft of
mail?                                      government property. They were sen-             the allegedly disabled claimant is receiving out-
                                           tenced to a combined 12 months in               side earnings and failing to report them to the
You should contact your local                                                              Department of Labor. Inspection Service inves-
                                           prison, 8 years supervised probation, 6
postmaster or the nearest                  months home detention, and ordered to           tigations resulted in $66.4 million in long-term
                                           pay $37,320 in restitution to the Postal        and continuation-of-pay cost savings for this fis-
Inspection Service office.
                                           Service.                                        cal year to date, compared to $60.6 million for
                                                                                           the same period last year. During this reporting
                                        DRUGS IN THE WORKPLACE                             period, 29 individuals were arrested for workers’
                                            Postal Inspectors also investigate the deal-   compensation fraud. The following are a few
                                       ing and selling of narcotics by Postal employees    examples of court action for this type of infrac-
                                       or others while on Postal property or on duty.      tion.
                                       Information regarding the possession or person-
                                                                                           ◆   A former Maryland letter carrier was sen-
                                       al use of illegal drugs by Postal employees is
                                                                                               tenced in the District of Columbia to
                                       referred through Postal management to the               four months’ home detention, five years’
                                       Employee Assistance Program for attention.              probation, and ordered to pay restitution
                                       During this reporting period, Postal Inspectors         of $20,000 at a rate of $125 per month.
                                       arrested 13 individuals for the sale of drugs on        The letter carrier received workers’ com-
                                       Postal property.                                        pensation benefits while operating a sep-
                                       ◆   A letter carrier in Illinois was arrested for       tic tank business and failed to report her
                                           selling crack cocaine and marijuana                 activity and earnings to the Department
                                           while on duty. During the interview, the            of Labor as required. As a result of the
                                           individual admitted to selling drugs and            investigation, future cost savings of over
                                           using marijuana on a daily basis.                   $446,000 were realized by the Postal Ser-
                                                                                               vice.
                                       ◆   A letter carrier in California was arrested
                                           for distribution of marijuana while deliv-      ◆   A former California clerk was sentenced
                                           ering mail. Subsequent to the arrest, the           in Washington to 40 days’ home confine-
                                           carrier confessed to selling drugs.                 ment, 3 years’ probation, and $1,000 in
                                                                                               restitution. The former clerk received
                                       ◆   After Postal Inspectors received an                 workers’ compensation benefits while
                                           anonymous call regarding the narcotic               claiming disability. As a result of an
                                           usage and trafficking by a California let-          Inspection Service investigation, success-
                                           ter carrier, an undercover operation cor-           ful prosecution was based solely on the
                                           roborated the allegation. The carrier sold          employee exceeding physical activity lim-
                                           marijuana to an undercover Inspector on             itations. Future cost savings of over
                                           three occasions while delivering mail.              $739,000 to the Postal Service will be
                                           Following the arrest, the carrier admitted          realized.
                                           to narcotics trafficking. The carrier was
                                           charged in state court with distribution of


                             PAGE 92   LABOR MANAGEMENT REVIEWS
◆   A former Florida letter carrier was sen-
    tenced to five months’ imprisonment,
    three years’ probation, and ordered to
    pay over $27,000 in restitution. The for-
    mer employee received workers’ compen-
    sation benefits while working a construc-
    tion job and failed to report her activity
    and her income to the Department of
    Labor. An Inspection Service investiga-
    tion determined that the claimant’s phys-
    ical activities exceeded her medical
    restrictions and also revealed her outside
    employment. As a result of the Inspec-
    tion Service investigation, future cost
    savings of over $943,000 were realized by
    the Postal Service.
◆   A former Texas letter carrier was sen-
    tenced in the Northern District of Texas
    to five years’ probation, six months’
    home confinement with electronic mon-
    itoring, and court ordered restitution of
    over $18,000. His retirement of $2,275
    was immediately payable toward the
    restitution. The letter carrier was con-
    victed for claiming total disability due to
    an injury of his right foot while conceal-
    ing his employment as a carpet installer.
    Future cost savings to the Postal Service
    of over $896,000 will be realized.




                                                  PAGE 93
PAGE 94
Oversight Reviews of
Inspection Service




 OFFICE OF INSPECTOR GENERAL
      Oversight of Inspection Service
      Legislative and Regulatory Reviews




                                           PAGE 95
                                          This section highlights audits, reviews,           ALLEGATIONS CONCERNING
                                          and investigations performed by the OIG
                                                                                             1998 LEADERSHIP CONFERENCE
                                                                                             – REVISED REPORT
                                          in conducting its oversight of the Inspec-
                                                                                                   The OIG reported in its October 1999
                                          tion Service. Also included at the end of
                                                                                             Semiannual Report to Congress that it had
                                          this section are the OIG legislative and
                                                                                             reviewed a Hotline allegation that the Inspec-
                                          regulatory reviews. Report numbers are
                                                                                             tion Service abused and wasted Postal funds at
                                          shown in parentheses after the narrative,
                                                                                             its FY 1998 leadership conference. To ensure
                                          as appropriate.
                                                                                             timely dissemination of the information con-
                                                                                             tained in the report, the OIG elected to publish
                                                                                             the report without management comments.
                                         OFFICE OF INSPECTOR                                 Subsequently, the OIG received management
                                         GENERAL                                             comments and published a revised report during
                                              One of the primary reasons the OIG was         this reporting period.
                                         established in the Postal Service was to provide          The revised report disclosed certain expen-
                                         oversight of Inspection Service activities. The     ditures and agenda items for the FY 1998 Lead-
                                         OIG’s work in this area provides an indepen-        ership Conference appeared unnecessary or
                                         dent voice with objective information and           extravagant, and some workshop topics were
                                         analysis of Inspection Service operations and       not directly related to the Inspection Service
                                         issues.                                             mission. The OIG suggested that future work-
                                                                                             shops be mission-related, expenditures be cen-
                                          OVERSIGHT OF THE                                   trally controlled, the cost of mementos be mod-
                                          INSPECTION SERVICE
                                                                                             est to avoid the appearance of extravagance,
                                              The OIG seeks to review and resolve all
                                                                                             and that conference publications be limited to
                                         complaints received against the Inspection Ser-
                                                                                             material that relates to the mission of the
                                         vice. During this reporting period, the OIG
                                                                                             Inspection Service.
                                         completed three oversight reviews, two of
                                                                                                   Management agreed that future workshops
                                         which are highlighted below.
                                                                                             be mission-related and conference expenditures
                                         SENSITIVE SECURITY CLEARANCE                        be centrally controlled. Management further
                                         PROCESS FOR NON-INSPECTION                          stated that the mementos were presented as
                                         SERVICE POSITIONS                                   informal awards consistent with the Postal Ser-
                                              The OIG reviewed the Postal Service’s          vice’s employee award program and the confer-
                                         process for determining the security clearance      ence publication was related to the mission of
                                         levels for non-Inspection Service positions and     the conference and of the Inspection Service.
                                         concluded that the process could be improved.       Management further stated that they will more
                                         Specifically, existing guidance did not clearly     closely monitor the written content of future
                                         establish who should determine sensitive clear-     publications to avoid detracting from the publi-
                                         ance requirements or explain how to determine       cation message. The OIG responded that the
                                         the appropriate clearance levels. As a result,      mementos were not given in accordance with
                                         managers and human resources personnel each         the Inspection Service and Postal Service
                                         assumed the other had responsibility to deter-      awards programs, the conference bulletin was
                                         mine whether a sensitive clearance was needed       not limited to mission-related material, and the
                                         and the appropriate clearance level.                expenditures associated with the bulletin were
                                              The OIG suggested that the Chief Postal        not consistent with those of similar Postal Ser-
The OIG reviewed the Inspection                                                              vice conferences. These issues remain unre-
                                         Inspector issue guidance that clearly assigns
Service’s 1998 Leadership Conference
expenses, including this conference      responsibility for determining appropriate clear-   solved. (OIG OV-MA-99-003(R))
publication.                             ance levels and identifies how the determina-
                                         tions should be made. Management stated that
                                         the Administrative Support Manual would be
                                         revised to clarify any misunderstandings.
                                         (OIG OV-MA-00-001)



                               PAGE 96   OVERSIGHT REVIEWS OF INSPECTION SERVICE
REVIEW OF COMPLAINTS
REGARDING THE INSPECTION
SERVICE
      The OIG’s oversight of the Inspection Ser-
vice provides customers, employees, and other
interested persons with an independent avenue
to address their complaints. At the same time,
the OIG provides the Inspection Service with
an unbiased review of accusations that, if left            Inspection Service-Related
unresolved, could harm its reputation as a pro-
                                                           Hotline Cases Closed During
fessional law enforcement agency. During this
                                                           This Semiannual Period
reporting period, the OIG received 21 new
complaints, and closed 27 Inspection Service-
related Hotline complaints as shown on the                                                       6
                                                                             5               REFERRED TO
                                                                       UNDER REVIEW       INSPECTION SERVICE
chart on this page.

MONITORING INSPECTION
SERVICE INTERNAL
INVESTIGATIONS                                                          16
                                                               POSSIBLE SYSTEMIC ISSUES
     The OIG’s Oversight team is responsible
for monitoring the conduct of internal investi-
gations of Inspection Service non-executive
employees. These investigations, which are
assigned to the Inspection Service Office of
Inspections at National Headquarters, are con-
ducted when there are allegations of employee
misconduct that affect the performance of their
duties, or when managers have information of
employee misconduct. As of the beginning of
FY 2000, the Office of Inspections had 28 open
internal investigations. Sixteen cases were
closed during the first two quarters of the fiscal
year, while 41 cases remained open as of
March 31, 2000.
LEGISLATIVE AND REGULATORY
REVIEW
OIG’S OVERSIGHT ROLE HAS
BEEN EXPANDED
     The Deceptive Mail Prevention and
Enforcement Act, PL 106-168, was enacted on
December 12, 1999, to curtail the activities of
disreputable operators of mailed sweepstakes
and games of chance. Appendix H describes in
greater detail how the Act expands the OIG’s
oversight and reporting responsibilities and the
investigative authority of the Postal Service.




                                                     PAGE 97
PAGE 98   OVERSIGHT REVIEWS OF INSPECTION SERVICE
Other Significant
Reviews




 OFFICE OF INSPECTOR GENERAL
      Executive Investigations
      Legislative and Regulatory Reviews
 INSPECTION SERVICE
      Physical Security                    Mail Fraud
      Narcotics Offenses and Trafficking   Fraud Against Consumers
      Child Exploitation                   Fraud Against Businesses
      Prohibited Mail                      Fraud Against the Government
      Postal Burglaries                    Money Laundering




                                            PAGE 99
                                                                                                                    Attorney’s Office declined prosecution,
                                                              This section highlights audits, reviews,
                                                                                                                    administrative action was initiated
                                                              and investigations performed by the OIG
                                                                                                                    against the executive involved. The
                                                              and the Inspection Service in other signif-
                                                                                                                    executive was reduced in grade, reas-
                DID YOU                                       icant areas. Also, included at the end of
                                                              this section are the OIG legislative and
                                                                                                                    signed, and agreed to reimburse the
                KNOW?                                         regulatory reviews. In order to differenti-
                                                                                                                    Postal Service for the costs associated
                                                                                                                    with this abuse.
                                                              ate the work product by the OIG and
                                                              Inspection Service, the pages containing          LEGISLATIVE AND REGULATORY
  How is the OIG funded?                                      the Inspection Service have been color            REVIEWS
  The OIG budget is approved                                  screened. Report numbers are shown in             WEBSTER COMMISSION
                                                              parentheses after the narrative, as appro-        RECOMMENDS CONSOLIDATING
  by the Governors. Postal                                    priate.                                           INSPECTORS GENERAL
  revenues fund the OIG.                                                                                             The Commission on the Advancement of
                                                                                                                Federal Law Enforcement, established to advise
                                                             OFFICE OF INSPECTOR                                Congress and the public on Federal law enforce-
                                                                                                                ment matters and headed by former FBI Direc-
                                                             GENERAL                                            tor William Webster, issued its report to Con-
                                                                  In addition to reviews summarized earlier     gress. The Commission’s basic conclusion was
                                                             in this Semiannual Report, the OIG has com-        that Federal law enforcement agencies, while
                                                             pleted 41 reviews of other significant issues      essential and doing good work, have become
                                                             related to Postal Service operations.              too numerous. It stated that the Federal law
                                                              EXECUTIVE INVESTIGATIONS                          enforcement apparatus has become too
                                                                                                                unwieldy and needs to be pruned back. The
                                                                  The OIG is responsible for reviewing alle-
                                                                                                                Commission suggested that Federal law enforce-
                                                             gations involving senior-level Postal executives
OIG Investigations Closed                                                                                       ment make improvements in order to deal more
                                                             and has over 25 ongoing investigations of alle-
During This Semiannual Period                                                                                   effectively with the future of criminal activity,
                                                             gations involving criminal violations and mis-
                                                                                                                particularly terrorism and cyberwarfare.
                                                             conduct, including retaliation against individu-
                                                                                                                     The report frequently mentions the Offices
                                                             als who have previously provided the OIG with
                                                                                                                of Inspectors General. The Commission cited
                                                             information. During this period, the OIG
                       7                                                                                        the proliferation of the Offices of Inspectors
         SUBSTANTIATED COMPLAINTS                            closed 25 cases as shown in the chart. Examples
                                                                                                                General as one of the primary reasons the law
                                                             of two recent investigations are as follows:
                                                                                                                enforcement community has grown so large and
              2                                              ◆    In an investigation of a Postal Service       become unwieldy and jurisdictionally ill-
  SPECIAL INVESTIGATIONS              16
                           UNSUBSTANTIATED COMPLAINTS             Career Executive Service employee, the        defined. The Commission recommended strip-
                                                                  OIG determined that the employee mis-         ping Inspectors General of their law enforce-
                                                                  used his government-issued Citibank           ment functions and consolidating their audit
                                                                  Credit Card for personal purchases. The       functions under one Auditor General.
                                                                  determination was based on interviews of           The Inspectors General community,
                                                                  Postal Service personnel and examina-
                                                                                                                through the President’s Council on Integrity
                                                                  tion of records of the Citibank charges.
                                                                                                                and Efficiency and the Executive Council on
                                                                  The employee admitted to using the
                                                                                                                Integrity and Efficiency, criticized the Commis-
                                                                  Citibank Credit Card for approximately
                                                                  $7,000 in personal purchases.                 sion’s report. The Councils’ response notes that
                                                                                                                the Commission cited no empirical or objective
                                                             ◆    In another investigation of a Postal Ser-     evidence to support consolidating Inspectors
                                                                  vice Career Executive Service employee,
                                                                                                                General offices. The Councils also charged the
                                                                  the OIG determined that the employee
                                                                                                                Commission with a lack of understanding
                                                                  improperly used a Postal Service vehicle
                                                                                                                regarding Congressional intent in enacting the
                                                                  and employee driver for personal trans-
                                                                  portation for a period of approximately       Inspector General Act. The response high-
                                                                  21⁄2 years. Although the United States        lighted that the Commission failed to credit the
                                                                                                                Offices of Inspectors General with recovering



                                                  PAGE 100   OTHER SIGNIFICANT ISSUES
more than $13 billion for taxpayers, completing
over 122,000 successful criminal prosecutions,
and prompting agency action on more than
19,000 personnel matters. Finally, the Councils
opined that the Commission did not obtain suf-
ficient testimony from the Inspector General
community to make a fair and objective assess-
ment of the role of the Inspectors General in
the law enforcement community.

PROPOSED LEGISLATION
S. 1707 – Establishment of Certain
Designated Federal Entities under the
Inspector General Act of 1978
     This bill is primarily designed to make the
Inspector General of the Tennessee Valley
Authority a presidentially-appointed position.
The bill also provides for the establishment of
the Criminal Investigator Academy within the
Department of the Treasury. The academy will
train investigators working in the Offices of
Inspectors General. In addition, the bill estab-
lishes the Inspectors General Forensic Labora-
tory, also within the Department of the Trea-
sury. This laboratory will perform forensic ser-
vices for the Offices of Inspectors General. The
bill also authorizes annual appropriations for
these establishments.
     While making the Tennessee Valley
Authority Inspector General presidentially-
appointed does not affect the Postal Service or
the OIG, creating the academy and the labora-
tory does. Training for existing and newly-hired
agents is essential for maintaining a high level
of investigative expertise and professionalism.
The Offices of Inspectors General will benefit
by having their own training academy and
forensics lab. This legislation has passed the
Senate and has been referred to the House Gov-
ernment Reform Committee, pending further
legislative consideration.




                                                   PAGE 101
                                                                                               ton, DC; Lyon, France; and Bern, Switzerland.
                                         INSPECTION SERVICE                                    The Inspection Service was involved in the fol-
                                              The Inspection Service conducted numer-          lowing projects:
                                         ous audits and investigations covering signifi-
                                         cant issues in the following areas: physical secu-    ◆   The Chief Inspector chaired the Postal
                                         rity; narcotics offenses and trafficking; child           Security Action Group meeting held in
                                         exploitation; prohibited mail; postal burglaries;         Bern, Switzerland. The group, now com-
                                         mail fraud including fraud against consumers,             prised of postal security experts from 46
                                         fraud against businesses, and fraud against gov-          member and 27 observer countries, iden-
                                                                                                   tified, interdicted, and disrupted Nigerian
                                         ernment; and money laundering.
                                                                                                   advance fee fraud letters, which had a
                                          PHYSICAL SECURITY                                        significant impact on Postal customers
                                              The Inspection Service devotes significant           and administrations world-wide. The
                                         resources to preventing crimes through employ-            group discussed current activities, the use
                                         ee and customer awareness programs and securi-            of postage meters, use of legitimate
                                                                                                   postage, and the creation of a universal
                                         ty measures. Potential problems and deficien-
                                                                                                   memorandum of understanding.
                                         cies are identified and priorities are set based on
                                         trend analyses of specific criminal activity.         ◆   A Postal Inspector assigned to the U.S.
                                         Once trends are identified, prevention and                National Central Bureau - Interpol
                                         security measures are developed to reduce or              attended the annual Interpol General
                                         eliminate the risk of criminal activity against           Assembly meeting in Seoul, Korea, as a
                                                                                                   delegate of the United States. The South
                                         the mail, the Postal Service, and its employees.
                                                                                                   Korean National Police Agency hosted
                                              To protect both the public and Postal
                                                                                                   the conference.
                                         employees, the Inspection Service developed
                                         plans and provided resources to ensure the            NARCOTICS OFFENSES AND
                                         screening of mail by Postal Inspectors in             TRAFFICKING
                                         response to recent security threats. Examples               The Inspection Service interdicts mailings
                                         include the crash of Egypt Air 900, the Seattle       of illegal drugs and drug proceeds to protect
                                         meetings of the World Trade Organization,             Postal employees from violence related to drug
                                         and the threat of someone mailing an explo-           trafficking, and to preserve the integrity of the
                                         sive device disguised as a Christmas gift.            mail. Postal Inspectors, working with other law
Postal Inspectors make arrests related
to a variety of offenses involving the        In October 1999, the Inspection Service          enforcement agencies, arrested 804 individuals
mail.                                    held its first international revenue protection-      during this semiannual period for drug traffick-
                                         training course in Panama City, Panama. Forty-        ing and money laundering via the U.S. Mail.
                                         one participants from 18 member countries of          Seizures from the mail for this period included
                                         the Postal Union of the Americas, Spain, and          5764 pounds of illegal narcotics and 68,491
                                         Portugal attended this pilot course hosted by the     units of steroids. Investigations also resulted in
                                         Postal Administration of Panama.                      the seizure of $1.1 million in cash and monetary
                                              The Inspection Service issued over 17,000        instruments, 19 vehicles, and 37 firearms.
                                         security clearances, and met with Area Security
                                                                                               ◆   An individual pled guilty to six counts of
                                         Officers to develop the Security Control Officer
                                                                                                   illegal possession and distribution of con-
                                         Program. To date, approximately 5,000 individ-
                                                                                                   trolled substances. Between July 1997
                                         uals have been trained as Security Control                and May 1998, this individual fraudu-
                                         Officers.                                                 lently caused two pharmaceutical distrib-
                                              The Inspection Service International                 utors to send controlled substances based
                                         Security Group established world-wide Postal              on an altered Drug Enforcement Agency
                                         security networks in partnership with 81 inter-           registration certificate from a closed
                                         national authorities. This group works with               pharmacy where the offender was previ-
                                         member countries to improve the quality of ser-           ously employed. The individual received
                                         vice, safety, and security of the mail for Univer-        approximately 161,000 doses of con-
                                         sal Postal Union countries. Representatives of            trolled substances with a street value esti-
                                         the group are located at Interpol in Washing-             mated at between $483,000 and


                              PAGE 102   OTHER SIGNIFICANT ISSUES
    $805,000. The proceeds of these illegal                  ◆    Several individuals pled guilty to inter-
    activities were laundered by using Postal                     state transportation in aid of racketeering
    money orders to pay the distributors for                      enterprises. Sentencing was the result of
    the drugs.                                                    a two-year conspiracy, drug and money
◆   Nine individuals were indicted by an                          laundering investigation, which involved
    Arizona grand jury on drug-related                            approximately 90 kilograms of cocaine
    offenses. The individuals were arrested                       being mailed from California to Michi-
    in Arizona, Massachusetts, and Hawaii                         gan, and conversely, drug proceeds being
    by Postal Inspectors and other Federal                        mailed from Michigan to California.
    and state law enforcement agents for
    transporting marijuana, money launder-
                                                              CHILD EXPLOITATION
    ing, and conspiracy. The arrests were a                        Postal Inspectors employ proactive inves-
    result of a multi-million dollar marijuana               tigative techniques to identify and bring to jus-
    trafficking organization operating out of                tice individuals who use the mail to distribute or
    Arizona. The traffickers transported                     knowingly receive child pornography. During
    large quantities of marijuana to Massa-                  this reporting period, 53 child molesters were
    chusetts, New York, New Jersey, Florida,                 identified and stopped as a result of the Inspec-
    and Pennsylvania. The traffickers set up                 tion Service’s investigative efforts to rid the
    at least four fictitious businesses at four              mail of child pornography. This represented an
    different commercial mail receiving                      increase of 45 percent over the same period last
    agencies1 in Arizona. Drug proceeds                      year. Fifty-eight children were rescued from
    were returned via Express Mail to indi-
                                                             ongoing sexual abuse, and 13 additional victims
    viduals at other commercial mail receiv-
                                                             of prior sexual abuse by child pornography sus-
    ing agencies in Arizona.
                                                             pects were identified. Postal Inspectors nation-
◆   A Federal grand jury in Massachusetts                    wide are investigating 473 cases involving child
    indicted seven individuals for conspiracy                pornography. To date, Inspection Service
    to distribute marijuana and various                      efforts have resulted in 112 arrests and 108 con-
    money laundering violations. The case is
                                                             victions. Some of the more significant child
    an ongoing Organized Crime and Drug
                                                             exploitation case activity that occurred during
    Enforcement Task Force investigation
                                                             this period is highlighted below.
    involving a drug trafficking operation
    between Arizona and Massachusetts.                       ◆    Four individuals involved in a child
    Express Mail was used extensively to                          pornography ring in Oklahoma were
    launder the drug proceeds and traffic the                     charged with violations relating to the
    marijuana. Postal Inspectors in Massa-                        production, distribution, and possession
    chusetts and Arizona coordinated the                          of child pornography. The initial suspect
    investigation, which resulted in the                          was identified through an undercover
    arrests of six individuals, and several                       operation conducted by a Postal Inspec-
    seizures of Express Mail parcels in                           tor in Tennessee. Search warrants were
    Arizona.                                                      subsequently obtained and executed at
◆   A task force of Postal Inspectors, Cus-                       locations in three different Oklahoma
    toms Service agents, Drug Enforcement                         counties. Videotapes and photographs
    Administration agents, and local law                          depicting the sexual abuse of two chil-
    enforcement officers arrested seven indi-                     dren were seized. The suspects include
    viduals involved in an international drug                     the parents of these children. State
    smuggling operation. The individuals                          charges have also been filed against the
    purchased the drugs in the Netherlands                        four individuals.
    and mailed them from the Netherlands                     ◆    A prison sentence of 24 years and 5
    and Belgium to California, and also                           months was handed down to a convicted
    recruited couriers to transport the drugs                     child molester and pornographer in an
    on commercial airline flights. To date,                       Indiana federal court. Postal Inspectors
    more than 15,000 pills have been seized,                      initiated an investigation after the indi-
    with a street value of $450,000.                              vidual mailed film depicting the sexual

    1
        These agencies are businesses designated by their customers to receive, hold, and forward their mail.
                                                                                                                  PAGE 103
                abuse of minors to a commercial film            PROHIBITED MAIL
                processor. Working with local law enforce-
                                                                    The Inspection Service considers the inves-
                ment, Postal Inspectors determined that
                                                               tigation of mail bombs among its highest priori-
                the offender sexually abused, photographed,
                and videotaped a number of children,           ties. This reporting period, Postal Inspectors
                including the individual’s own child and       arrested 39 and convicted 34 individuals for their
                stepchild.                                     involvement in incidents related to mail bombs
                                                               and bomb threats. These include threats against
           ◆    An individual pled guilty in Federal dis-
                                                               Postal facilities, placement of hoax devices and
                trict court in Hawaii to receiving child
                                                               other suspicious items in the mail, and
                pornography through the mail and via the
                Internet. Postal Inspectors executed a         bombs/devices placed in private mail receptacles.
                search warrant at the individual’s home,       ◆    An individual pled guilty in Federal court
                and discovered a number of homemade                 in New York to two counts of mailing
                videotapes depicting exploitation activity          threatening communications. This indi-
                with six different children. Sentencing is          vidual was previously arrested and charged
                pending.                                            with mailing hoax bomb devices to a state
           ◆    Postal Inspectors and Customs agents in             lottery office.
                Michigan arrested a Canadian national on       ◆    The FBI issued an advisory regarding the
                a Federal warrant for the distribution of           possibility of parcels containing bombs
                child pornography videotapes. This indi-            being placed in the mail showing a Frank-
                vidual was identified during the course of          furt, Germany, postmark. Members of the
                another Inspection Service child exploita-          Inspection Service participated as experts
                tion investigation. Canadian law enforce-           in numerous interviews conducted by
                ment officials searched the offender’s resi-        CNN’s Morning News, Burden of Proof,
                dence and seized approximately 1,000                Talk Back Live and CBS Evening News, as
                videotapes, along with a computer and               well as with Tribune Broadcasting, Cox
                computer-generated child pornography                Broadcasting, Hearst Broadcasting,
                images.                                             Reuters, CBS Radio and United Press
           ◆    An individual was sentenced in Federal              International.
                court to 30 months in prison for using the
                computer and the mail to entice and             POSTAL BURGLARIES
                engage children in sexual conduct. This             The Inspection Service employs sophisticat-
                individual’s license to practice medicine      ed burglary prevention techniques and detection
                was revoked by the Illinois State Board of     devices to make Postal facilities less vulnerable to
                Licensing and the Drug Enforcement             attack. Burglaries may result in property losses,
                Administration revoked the offender’s abil-    mail thefts, and repair expenses for damage to
                ity to dispense controlled substances.         Postal facilities as a result of forced entries. Dur-
           ◆    An individual in Nevada was sentenced to       ing this period, there were 91 arrests and 85 con-
                46 months in a Federal prison for using the    victions related to burglaries compared to 75
                Internet and the mail to distribute child      arrests and 62 convictions for the last reporting
                pornography. State charges are pending         period.
                against this offender for molesting four
                                                               ◆     An Illinois post office and several other
                minors.
                                                                    businesses located in a strip mall were bur-
           ◆    Complaints from a victim and the Nation-            glarized. Postal Inspectors arrested a profes-
                al Center for Missing and Exploited Chil-           sional burglar who had 16 prior arrests.
                dren’s Cyber Tipline resulted in the arrest         The offender confessed to burglarizing the
                of an individual for possession, production,        post office and two Illinois contract sta-
                and distribution of child pornography. The          tions, and was subsequently sentenced to
                individual used the Internet to auction             25 years in prison.
                pornographic photographs of the victim,
                who was a minor at the time the photos
                were taken.



PAGE 104   OTHER SIGNIFICANT ISSUES
MAIL FRAUD                                               being sentenced for defrauding investors,
                                                         who were elderly and invested more than
     Postal Inspectors protect Postal patrons,
                                                         $3.5 million of their life savings. Victims
business mailers and local, state and Federal
                                                         were offered a minimum of 12 percent on
governments from schemes involving invest-               money invested, which was allegedly to
ments, insurance, Medicare/Medicaid fraud,               be used to purchase deeds of trust on
telemarketing, loans, and merchandise misrep-            commercial and residential properties.
resentations. The elderly and disadvantaged              In addition to being sentenced to 12
individuals who are more dependent on mail               months and 1 day in prison and 3 years’
delivery for purchases, are particularly suscepti-       supervised release, the man was ordered
ble to fraudulent schemes. These citizens trust          by the court to pay $1.4 million in resti-
the Postal Service will maintain the integrity of        tution.
the mail, while fraudulent opportunists attempt      ◆   A married couple was sentenced in Fed-
to enjoy the reliability and relative anonymity          eral court for conducting a mail fraud
the mail offers. The Inspection Service investi-         scheme that victimized at least 15
gated approximately 36,000 consumer fraud                African-American churches across the
complaints this reporting period. As a result,           United States. This scheme resulted in
827 individuals were arrested and 715 individu-          losses of approximately $2.6 million.
als were convicted on charges of mail fraud.             One spouse assisted churches in obtain-
     Listed below are some of the investigations         ing financing for building projects
that were conducted during this period.                  through the sale of church bonds, while
                                                         the other spouse represented himself as a
FRAUD AGAINST CONSUMERS                                  contractor with 20 years of experience
     To preserve the public’s confidence and             building churches. The couple advised
trust in the U.S. Mail, the Inspection Service           victims that when they were finished,
investigates a variety of mail fraud schemes,            they would turn over the keys to the
including fraud against consumers. Some of the           church, which would be ready for imme-
most significant investigations follow.                  diate use by the congregation. No
                                                         churches identified were ever completed
◆   Four individuals who operated a sweep-               even though the couple obtained build-
    stakes telemarketing scheme in Califor-              ing funds. They were sentenced collec-
    nia, were convicted and sentenced to pay             tively to five years and five months’
    over $1 million in victim restitution to             imprisonment, six years’ supervised
    the over 1,000 elderly victims who                   release, and ordered to pay over
    mailed a check to claim a prize they were            $700,000 restitution to victim churches.
    told they had won. None of the victims
                                                     ◆   Two of three individuals pled guilty in
    received prizes.
                                                         Federal court for defrauding numerous
◆   A telemarketing investigation in South-              individuals by falsely advertising the sale
    ern California resulted in a court ordered           of stuffed animals on the Internet. The
    payment of over $6 million in restitution            defendants alleged they were in posses-
    to victims of a riverboat gambling ven-              sion of rare or retired stuffed animals that
    ture. This individual was also sentenced             were for sale at substantial discounts.
    to three years and five months in prison.            After receiving victims’ money, the
◆   An individual in Texas was arrested for              defendants sent victims damaged stuffed
    involvement in a work-at-home scheme                 animals or no stuffed animals at all. This
    in which approximately 9,500 victims                 scheme resulted in the loss of over
    were identified. The individual used 32              $20,000 to victims.
    commercial mail receiving agency                 ◆   The U.S. Attorney’s Office in New York
    addresses from coast-to-coast to operate             presented the Inspection Service with
    the secretarial work-at-home schemes                 three equitable sharing checks totaling
    and a direct marketing television distrib-           almost $1,215,000 as the result of asset
    utorship scheme.                                     forfeiture cases involving insider trader
◆   An investment fraud investigation from               stock manipulations and sweepstakes
    the Midwest resulted in an individual                fraud. The checks have been deposited


                                                                                                        PAGE 105
                into the Postal Inspector’s Forfeiture Rev-    ◆   Three individuals were sentenced in Fed-
                enue Account.                                      eral court for their involvement in a $22
                                                                   million bank and investment fraud
           FRAUD AGAINST BUSINESSES                                scheme. The individuals created compa-
                The mail is often used to submit false or          nies that conducted very little business,
           inflated invoices to businesses and institutions.       but were used as fronts to apply for bank
           Some of the more significant investigations             loans and obtain investor funds.
           follow.
                                                               FRAUD AGAINST THE
           ◆    An individual was found guilty in Penn-        GOVERNMENT
                sylvania on charges of submitting more              Postal Inspectors also work to protect the
                than 2 million unredeemed manufactur-          government from being victimized by mail
                ers’ cents-off coupons. The coupons were
                                                               fraud. Some of the most significant investiga-
                valued in excess of $1 million.
                                                               tions follow.
           ◆    A New Jersey flea market salesman pled
                guilty in a $350,000 failure to pay case.      ◆   An Inspection Service investigation
                The investigation determined the indi-             resulted in a guilty plea to mail fraud by
                vidual fraudulently established 1,630 cus-         company employees. The company oper-
                tomer accounts utilizing at least 12 differ-       ated in Oregon and California, and sold
                ent boxes at several post offices and com-         stolen recreational vehicles. The investi-
                mercial mail receiving agencies in New             gation revealed representatives of the
                Jersey to order compact discs that he              company assisted out-of-state customers
                then sold at area flea markets.                    who purchased recreational vehicles to
                                                                   evade sales tax and registration fees owed
           ◆    A scam involving mailing fraudulent                their states as well as assisted out-of-state
                invoices resulted in an individual pleading        customers register their new vehicles in
                guilty in Federal court in Pennsylvania.           Oregon. The company paid over $1.4
                Postal Inspectors determined this individ-         million in forfeited proceeds to the FBI
                ual mailed over 4,000 fraudulent bills to          and the Inspection Service and $1.6 mil-
                victim companies, many being private               lion to the State of Oregon.
                and public schools. The individual
                attempted to defraud the companies in          ◆   A Missouri chiropractor was sentenced in
                excess of $7 million. The victim compa-            Federal court to four months of home
                nies unknowingly paid exorbitant prices            confinement, five years of supervised
                for merchandise they had not ordered.              release, and ordered to pay over $15,000
                                                                   in restitution to Medicare. The chiro-
           ◆    An individual in Illinois was sentenced            practor defrauded Medicare by submit-
                to one year and six months in prison,              ting false insurance claims for treatment
                three years of probation, and ordered by           allegedly rendered to patients.
                the court to make over $176,000 in resti-
                tution for involvement in a scheme             ◆   An individual in New Jersey was sen-
                which inflated rental rates for condo-             tenced in Federal court to two years and
                miniums and then split the inflated pro-           nine months in prison, three years of
                ceeds. An investigation by Postal                  supervised release, and ordered to pay
                Inspectors revealed that the individual            $846,000 in restitution to the U.S.
                also sold customers tickets to sporting            Department of Education. The individ-
                events and concerts at prices that                 ual and her brother operated a beauty
                allowed her to increase the amount of              school and directed their employees to
                sales commissions she received from her            submit false forms to various educational
                employer. She also advised her employer            loan assistant centers. The submission of
                she sold vacation packages at inflated             the false documents caused the school’s
                prices to customers when she had not.              default rate to remain within the Depart-
                                                                   ment of Education guidelines for partici-
                                                                   pating in the Federally-funded financial
                                                                   aid programs. Postal Inspectors, along
                                                                   with agents from the Department of Edu-


PAGE 106   OTHER SIGNIFICANT ISSUES
    cation’s OIG, determined the false sub-            under an assumed name, the individual
    missions made by the school enabled it             attempted to access funds from an
    to receive over $1 million in Federally-           account opened under an alias. The
    guaranteed loans over a five-year period,          account had been flagged due to the
    which it would not have otherwise been             deposit of numerous high-value Postal
    entitled to receive. Four others involved          money orders identified as structured
    in the scheme, including the brother,              purchases by debit cards drawn from
    were previously sentenced.                         fraudulent bank accounts. The arrest is
                                                       the third in an investigation that began
MONEY LAUNDERING                                       after the Inspection Service was contact-
      The Inspection Service plays a key role in       ed regarding losses approaching $1 mil-
fulfilling the Postal Service’s anti-money laun-       lion. Postal Inspectors are investigating
dering program requirements under the Bank             this case jointly with FBI agents.
Secrecy Act. Postal Inspectors work closely        ◆   Postal Inspectors in New York arrested
with Postal management to ensure that new              two individuals on conspiracy to commit
financial services possess anti-money launder-         money laundering. At the time of their
ing security measures. In addition, Postal             arrest, approximately $200,000 was
Inspectors participate in Bank Secrecy Act             seized. One individual was held without
training programs, sharing their money launder-        bond and the other was released on a
ing expertise with Postal employees involved in        $100,000 personal bond. The investiga-
                                                       tion is continuing.
the sale of Postal financial products.
◆   The Inspection Service seized more than
    $345,000 from two California bank
    accounts for structuring financial trans-
    actions to avoid Federal reporting
    requirements. Reports showed that 29
    separate post offices were visited on 118
    different occasions between April 13,
    1998, and May 17, 1999, for the pur-
    chase of 889 Postal Service money orders
    with an aggregate value of approximately
    $444,500. All of the Postal Service
    money orders were found to have been
    purchased through structured transac-
    tions in avoidance of both Federal and
    Postal reporting requirements. The
    investigation is continuing.
◆   Postal Inspectors arrested two fugitives
    for their involvement in a money laun-
    dering and narcotic smuggling scheme.
    One individual was arraigned in Federal
    court on two counts of murder, money
    laundering, and narcotics smuggling, and
    held without bond. The other individual
    was arraigned for currency and monetary
    instrument reports violations and
    released on a $25,000 personal bond.
    The investigation is continuing.
◆   An individual in Michigan was arrested
    by local police and charged with bank
    fraud. Having established a commercial
    mail receiving agency post office box



                                                                                                   PAGE 107
PAGE 108   OTHER SIGNIFICANT ISSUES
Appendices




   DID YOU
   KNOW?
 Is OIG responsible for all audits within the Postal Service?
 Yes. In January 1999, the Postmaster General reemphasized to all
 Postal Service officers the audit role of the OIG. Specifically, the
 OIG is responsible for performing or contracting for all Postal
 Service audits, as well as establishing procedures for
 management-requested audits. In addition, the OIG serves as the
 focal point with other agencies, to coordinate work efforts and
 avoid any duplication.




                                                PAGE 109
           APPENDIX A

           Closed Congressional and Board of
           Governors Inquiries
           For the period October 1, 1999, through March 31, 2000

           This appendix lists the 51 Congressional and Governor inquiries the OIG closed during this
           reporting period. The OIG reviewed these inquiries to help identify systemic issues and to deter-
           mine the need for future Postal-wide audits.


           CONGRESSIONAL
           PERFORMANCE
                                                                                                  Response
           Requestor              Allegation/Concern                       Location               Date
           Senator,               Review of the                            Postal-wide             12/3/99
           Wyoming                International Collection Program


           Representative,        Mail processing delays                   Louisville,             2/18/00
           Kentucky               due to improper staffing                 Kentucky


           Representative,        Dissatisfaction with                     Postal-wide             2/24/00
           California             Priority Mail service
                                  from contractor


           Representative,        Untimely delivery of                     Oakland,                2/24/00
           California             newsletters                              California


           Senator,               Mail was not forwarded                   Poughkeepsie,            3/3/00
           New York               to new address                           New York


           Representative,        Improper handling of                     Pompano                 3/13/00
           Ohio                   indemnity claim                          Beach,
                                                                           Florida


           Senator,               Mail collection problems                 Chicago,                3/17/00
           Illinois                                                        Illinois



           FINANCIAL MANAGEMENT
                                                                                                  Response
           Requestor              Allegation/Concern                       Location               Date
           Chairman, House        Purchase and maintenance of              Roundup,                11/9/99
           Postal Subcommittee    Postal facility                          Montana


           Representative,        Contract fraud and                       Allendale,              2/29/00
           New Jersey             conflict of interest                     New Jersey


           Chairman, House        Violations of Federal                    New Haven,              3/17/00
           Postal Subcommittee    laws and regulations in                  Connecticut
                                  facility relocation




PAGE 110   APPENDICES
LABOR MANAGEMENT
                                                                                       Response
Requestor             Allegation/Concern                             Location          Date
Senator,              Unethical conduct and                          Benton Harbor,    11/15/99
Michigan              abusive behavior by management                 Michigan


Representative,       Mismanagement of Postal Service facility       San Francisco,    11/26/99
California            and discrimination against employees           California


Senator,              Review of suspension from employment           South Bend,       11/26/99
Indiana               and concerns with Equal Employment             Indiana
                      Opportunity process


Representative,       Managerial harassment and concerns about       Sparta,           11/30/99
New Jersey            Equal Employment Opportunity claim             New Jersey


Chairman, House       Human resource concerns with                   Postal-wide       12/15/99
Postal Subcommittee   the Postal Service


Representative,       Age discrimination and                         Morristown,       12/27/99
New Jersey            managerial harassment                          New Jersey


Representative,       Managerial harassment                          Rockaway,         12/27/99
New Jersey                                                           New Jersey


Representative,       Discrimination, failure to comply with         New Kensington,   12/27/99
Pennsylvania          employment guidelines, and abuse of            Pennsylvania
                      workers’ compensation laws


Senator,              Request for additional information             Greenville,       12/29/99
North Carolina                                                       North Carolina


Representative,       Boycott of vending machines and misuse         Buffalo,            1/4/00
New York              of funds                                       New York


Representative,       Postal Service providing false information     Marlboro,           1/5/00
New York              regarding workers’ compensation claim          New York


Representative,       Intimidation and restricted use of sick time   Miami,             1/31/00
Florida                                                              Florida


Chairman, House       Managerial abuses, discrimination, and         Santa Ana,         2/24/00
Postal Subcommittee   hostile work environment                       California


Representative,       Wrongful termination                           Mobile,             3/1/00
Alabama                                                              Alabama


Chairman, House       Unjust suspension and                          Baxter Springs,     3/8/00
Postal Subcommittee   removal from employment                        Kansas


Chairman, House       Disparate treatment by supervisors             Annapolis,          3/8/00
Postal Subcommittee                                                  Maryland


Senator,              Managerial harassment                          Winfield,           3/8/00
Alabama                                                              Alabama


Senator,              Request for reinstatement of sick leave        Charleston,         3/8/00
South Carolina                                                       South Carolina




                                                                                                  PAGE 111
                                                                                                                   Response
           Requestor                     Allegation/Concern                             Location                   Date
           Representative,               Nepotism and false accusations                 Cape Girardeau,             3/15/00
           Missouri                      of sexual harassment                           Missouri


           Representative,               Managerial harassment and status on            South Plainfield,           3/15/00
           New Jersey                    workers’ compensation claim                    New Jersey


           Representative,               Employment discrimination complaint            South Dennis,               3/29/00
           Massachusetts                 not handled properly                           Massachusetts


           Representative,               Hostile work environment                       Brook Park,                 3/29/00
           Ohio                                                                         Ohio


           Senator,                      Managerial harassment                          Chicago,                    3/29/00
           Illinois                                                                     Illinois


           Senator,                      Managerial harassment and                      South Holland,              3/29/00
           Illinois                      hostile work environment                       Illinois


           Senator,                      Abuse of union time by stewards                Alden,                      3/29/00
           New York                                                                     New York


           Chairman, House               Hostile work environment2                      Arecibo,                    3/31/00
           Postal Subcommittee                                                          Puerto Rico


           Chairman, House               Hostile work environment2                      Arecibo,                    3/31/00
           Postal Subcommittee                                                          Puerto Rico


           Chairman, House               Hostile work environment2                      Arecibo,                    3/31/00
           Postal Subcommittee                                                          Puerto Rico


           Chairman, House               Hostile work environment                       Ft. Lauderdale,             3/31/00
           Postal Subcommittee                                                          Florida


           Chairman, House               Sexual harassment and                          Plaquemine,                 3/31/00
           Postal Subcommittee           hostile work environment                       Louisiana


           Representative,               On-the-job injury resulting in back pay        Manteca,                    3/31/00
           California                                                                   California


           Representative,               Managerial harassment                          Broken Arrow,               3/31/00
           Oklahoma                                                                     Oklahoma


           Representative,               Failure to pay overtime hours                  Allentown,                  3/31/00
           Pennsylvania                                                                 Pennsylvania



           OVERSIGHT OF THE INSPECTION SERVICE
                                                                                                                   Response
           Requestor                     Allegation/Concern                             Location                   Date
           Senator,                      Status of mail fraud complaint                 Detroit,                    2/15/00
           Michigan                                                                     Michigan




           2
               All three individual Congressional inquiries concerned related issues and were addressed jointly by the OIG.
PAGE 112   APPENDICES
OTHER SIGNIFICANT REVIEWS
                                                                                           Response
Requestor             Allegation/Concern                               Location            Date
Representative,       Release of information regarding investigation   Postal-wide          10/8/99
Texas                 closed within the last 3-5 years


Senator,              Mail fraud related to debt collection scams      New York,             1/4/00
New York                                                               New York


State Senator,        Participating in peaceful political activity     Oak Hill,             3/3/00
Virginia              on Postal Service property                       Virginia


Chairman, House       Misuse of National Change of Address data        Postal-wide          3/10/00
Postal Subcommittee


Representative,       Misuse of National Change of Address data        Postal-wide          3/10/00
Pennsylvania




BOARD OF GOVERNORS
FINANCIAL MANAGEMENT
                                                                                           Response
Requestor             Allegation/Concern                               Location            Date
Chairman              Fraud, program abuse, and                        Glendale Heights,    3/20/00
                      postal policy violations                         Illinois



LABOR MANAGEMENT
                                                                                           Response
Requestor             Allegation/Concern                               Location            Date
Governor              Request for minority statistics                  Postal-wide          1/19/00




                                                                                                      PAGE 113
                                                  APPENDIX B

                                                  Reports Issued to Postal Management
                                                  For the period October 1, 1999, through March 31, 2000

                                                  OVERVIEW
                                                  Office of Inspector General
                                                  The OIG audit teams are aligned to conduct performance and financial audits, evaluations, and
                                                  other reviews to address the business processes of the Postal Service. Each team issues audit
                                                  reports (AR), letter advisory reports (LA), or management advisory reports (MA) in accordance
                                                  with the identified needs of the project.

                                                  Inspection Service
                                                  The Inspection Service audit groups are aligned by the type of audits performed which are prima-
                                                  rily performance, financial, contract, and facility audits. The Inspection Service continued to pro-
                                                  vide Postal-wide attention in selected areas until these functions are fully transitioned to the OIG.


                                                  SUMMARY
                                                  The following is a summary by principal area of reports issued to Postal management for both the OIG
                                                  and Inspection Service. The following pages list each organization’s reports separately.

                                                                                                                                               Recommend
                                                                                                Number of          Questioned   Unsupported   Funds Put to
                                                  Principal Area                            Reports Issued              Costs        Costs3     Better Use
                                                  Performance                                          42     $       848,000    $        0   $39,258,326
                                                  Financial Management                                289         268,561,854     6,911,275       114,906
                                                  Technology                                            9                   0             0             0
                                                  Labor Management                                      6                   0             0             0
                                                  Oversight                                             2                   0             0             0
                                                  Other Significant Reviews                            25                   0             0             0

                                                  GRAND TOTALS                                       373     $269,409,854       $6,911,275    $39,373,23




Definitions

Questioned Cost – A cost that is unneces-
sary, unreasonable, unsupported, or an
alleged violation of law, regulation, contract,
etc.

Unsupported Costs – A cost that is not sup-
ported by adequate documentation.

Funds Put to Better Use – Funds that
could be used more efficiently by implementing
recommended actions.




                                                  3
                                                      Unsupported Costs are included with the amounts shown as Questioned Costs.

                                      PAGE 114    APPENDICES
REPORT LISTING
The following is a list of each report grouped by core business processes and enabling functions.


OIG REPORTS
PERFORMANCE
                                                                                     Un- Recommend
Report/Case     Subject Title/                   Location/        Questioned   supported Funds Put to     Issue
Number          Project Type                     Contract              Costs      Costs3 Better Use        Date
 ACCEPTING AND PROCESSING
AC-LA-00-001       Richmond Processing and       Richmond, VA            $0          $0           $0    1/31/00
                   Distribution Center
                   Standard Mail Processing
AC-MA-00-001       St. Louis Processing and      St. Louis, MO            0            0           0    3/17/00
                   Distribution Center –
                   Business Mail Entry Unit
                   Use of the Convenience
                   Deposit Point Process
DS-AR-00-001       External First-Class Mail     Postal-wide              0            0           0    3/27/00
                   Measurement System

TRANSPORTATION
TR-AR-00-001       Year 2000 Business            Postal-wide             $0          $0           $0    12/3/99
                   Contingency and
                   Continuity Planning: Plan
                   Development and Testing
TR-MA-00-001       Mail Processing Delays at     Louisville, KY           0            0           0    12/6/00
                   the Louisville Processing and
                   Distribution Center
TR-AR-00-002       Year 2000 Business            Postal-wide              0            0           0    12/7/00
                   Continuity and
                   Contingency Planning:
                   Day One Strategy
TR-MA-00-002       Handling of Stamp Stock at Greensboro, NC              0            0           0    1/31/00
                   the Greensboro Processing
                   and Distribution Center
TR-AR-00-003       Commercial Air Carrier:       Postal-wide              0            0           0    1/31/00
                   Performance Measurement
                   System
TR-AR-00-004       Commercial Air Carrier        Postal-wide              0            0           0    1/31/00
                   Performance: Effectiveness
                   of Pay-for-Performance
TR-AR-00-005       Southwest Area                Southwest Area     848,000            0           0    2/29/00
                   Expenditures for Extra
                   Highway Trips Using
                   Leased Equipment
TR-AR-00-006       Commercial Air Carrier        Postal-wide              0            0 28,000,000     3/27/00
                   Performance: Payment for
                   Ground Handling Services

DELIVERY
DS-MA-00-001       Acceptance of                 Postal-wide             $0          $0           $0 12/15/99
                   Delivery Vehicles
DS-MA-00-002       Assignment of Postal          Postal-wide              0            0           0    2/25/00
                   Service Vehicles for
                   Maintenance Service



                                                                                                                  PAGE 115
                                                                                              Un- Recommend
           Report/Case         Subject Title/                Location/     Questioned   supported Funds Put to     Issue
           Number              Project Type                  Contract           Costs      Costs3 Better Use        Date
            MARKETING
           RG-MA-00-001        Cost and Benefit of           Postal-wide          $0          $0 $1,500,000      12/3/99
                               the International
                               Collection Program
           RG-AR-00-001        Controls Over the Storage     Postal-wide           0            0           0    1/31/00
                               and Distribution of Stamp
                               Inventory at Selected Sites
           RG-LA-00-001        International Travel Process- Postal-wide           0            0           0    2/29/00
                               Phase II Lodging Expenses
           RG-LA-00-002        Grand Canyon Stamp-          Postal-wide            0            0           0    3/27/00
                               Production Internal Controls
           RG-AR-00-002        Breast Cancer Research        Postal-wide           0            0     841,000    3/31/00
                               Stamp Program Review-
                               Phase II
           RP-MA-00-001        Indefinite Quantity           Postal-wide           0            0           0    11/8/99
                               Contracts
           PERFORMANCE TOTALS                                              $848,000             $30,341,000
                                                                                              $0

           FINANCIAL MANAGEMENT
                                                                                              Un- Recommend
           Report/Case      Subject Title/                   Location/     Questioned   supported Funds Put to     Issue
           Number           Project Type                     Contract           Costs      Costs3 Better Use        Date
            FINANCIAL-RELATED
           FR-LA-00-001        Sure Money Electronic         Postal-wide          $0          $0           $0 11/23/99
                               Funds Transfer Service
                               Expansion to
                               Dominican Republic
           FR-FA-00-001        Employee Separation           Postal-wide       8,913            0           0 11/23/99
           FR-FA-00-002        Back Pay Award                Postal-wide           0            0           0 11/23/99
           FR-FA-00-007        Facilities Management         Postal-wide           0            0           0 11/23/99
                               System-Windows
                               Internal Controls
           FR-FA-00-003        Capital Personal Property     Postal-wide           0            0           0    12/1/99
           FR-FA-00-008        Internal Controls at the      Dulles, VA            0            0           0    12/1/99
                               Dulles, Virginia,
                               International
                               Records Unit
           FR-FA-00-005        Travel Advances               Postal-wide           0            0           0    12/1/99
           FR-FA-00-006        Tort Claim Receivables        Postal-wide           0            0           0 12/10/99
           FR-AR-00-003        Withholdings and              Postal-wide           0            0           0 12/16/00
                               Contributions for Health
                               Benefits, Life Insurance,
                               Retirement, and Employee
                               Headcount Data
           FR-MA-00-001        Budget Cost Containment       Postal-wide           0            0           0 12/22/00
                               Measures
           FR-FA-00-009        Computer Associates-          Postal-wide           0            0           0     1/4/00
                               Access Control Facility 2
                               Password Options
           FR-AR-00-001        Postal Service Officers’      Postal-wide           0            0           0     1/4/00
                               Travel and Miscellaneous
                               Expense for FY 1999




PAGE 116   APPENDICES
                                                                                  Un- Recommend
Report/Case     Subject Title/               Location/         Questioned   supported Funds Put to     Issue
Number          Project Type                 Contract               Costs      Costs3 Better Use        Date
FR-AR-00-002    Postal Service Board of      Postal-wide               0            0           0     1/6/00
                Governors Travel and
                Miscellaneous Expense
                for FY 1999
FR-AR-00-004    FY 1999 Postal Service     Postal-wide                 0            0           0    1/31/00
                Financial Statement Audit-
                Washington, DC,
                Headquarters
FR-AR-00-005    FY 1999 Postal Service     St. Louis, MO               0            0           0    2/11/00
                Financial Statement Audit-
                St. Louis Information
                Service Center
FR-AR-00-006    Transmittal of FY 1999       Minneapolis, MN           0            0           0    2/25/00
                Postal Service Financial
                Statement Audit-
                Eagan Information
                Service Center
FR-AR-00-007    Transmittal of FY 1999       San Mateo, CA             0            0           0    2/25/00
                Postal Service Financial
                Statement Audit-
                San Mateo Information
                Service Center

CONTRACT AUDITS
CA-CAR-00-001   Evaluation of Costs                                   $0          $0           $0 12/16/99
                Associated with a
                Postal Service Sublease of
                Facilities

CA-CAR-00-002   Evaluation of Accounting                               0            0           0     1/4/00
                System

CA-CAR-00-003   Evaluation of                                          0            0           0     1/4/00
                Direct Labor Rates and
                Indirect Expenses Rates

CA-CAR-00-004   Evaluation of                                          0            0           0    1/27/00
                Forward Pricing Rates and
                Factors

CA-CAR-00-005   Evaluation of                                          0            0           0    1/28/00
                Accounting System

CA-CAR-00-006   Evaluation of Claim                              121,452      54,185            0    2/21/00
                Submitted

CA-CAR-00-009   Evaluation of                                    639,621     639,621            0    2/23/00
                1994 Operating Expenses

CA-CAR-00-007   Evaluation of                                          0            0           0    2/23/00
                Final Indirect Rates

CA-CAR-00-008   Evaluation of                                          0            0           0    2/23/00
                Costs Incurred
CA-CAR-00-011   Evaluation of                                     36,490            0           0     3/6/00
                Proposal




                                                                                                               PAGE 117
                                                                                           Un- Recommend
           Report/Case     Subject Title/              Location/      Questioned     supported Funds Put to     Issue
           Number          Project Type                Contract            Costs        Costs3 Better Use        Date
           CA-CAR-00-010   Evaluation of                                881,215       382,500            0     3/6/00
                           Proposal

           CA-CAR-00-012   Evaluation of                                      0              0           0     3/9/00
                           Accounting System

           CA-CAR-00-014   Proposal for                                  38,607              0           0    3/14/00
                           Tray Management
                           System Work

           CA-CAR-00-013   Delivery Confirmation                         59,229              0           0    3/14/00
                           Code Recognition for
                           Flat Sorting Machine 881

           CA-CAR-00-015   Proposal for a                               464,644              0           0    3/14/00
                           Small Parcel and
                           Bundle Sorter

           CA-CAR-00-016   Research and                                       0              0           0    3/16/00
                           Development Costs

           CA-CAR-00-017   Evaluation of                                      0              0           0    3/24/00
                           Proposal for Express
                           Mail Collection Boxes

           CA-CAR-00-018   Evaluation of                                 90,366              0           0    3/29/00
                           Subcontract Proposal

           CA-MA-00-001    Contract Audit Practices    Postal-wide       92,214              0           0    3/31/00


           FACILITY PROGRAM AUDITS
           FA-AR-00-001    Postal Service              Postal-wide           $0            $0           $0 10/22/99
                           Suspension and
                           Debarment Process
           FA-MA-00-001    Asbestos Abatement at       Postal-wide            0              0           0    1/24/00
                           Postal Service Facilities
           FA-MA-00-002    Roofing Product at          Postal-wide            0              0           0    2/29/00
                           Postal Service Facilities
           FA-MA-00-003    Cost Savings Identified in  Postal-wide            0              0      26,000    3/21/00
                           the Use of Calling Cards by
                           Postal Service Employees
           FINANCIAL MANAGEMENT TOTALS                               $2,432,751                   $26,000
                                                                                   $1,076,306




PAGE 118   APPENDICES
TECHNOLOGY
                                                                                 Un- Recommend
Report/Case     Subject Title/               Location/        Questioned   supported Funds Put to     Issue
Number          Project Type                 Contract              Costs      Costs3 Better Use        Date
 Y2K AND INFORMATION SYSTEMS
IS-AR-00-001      Year 2000 Initiative:      Postal-wide             $0          $0           $0 11/30/99
                  Mail Processing Equipment,
                  Critical Suppliers,
                  Embedded Chips,
                  and Facilities
IS-AR-00-002      Status of Postal Service   Postal-wide              0            0           0    12/3/99
                  Year 2000 Readiness
IS-AR-00-003      Allegation Involving       Postal-wide              0            0           0    3/31/00
                  Privacy Act Violations
DEVELOPMENTAL
DA-LA-00-001      Point of Service ONE-      Postal-wide             $0          $0           $0    11/4/99
                  Vendor Solution
DA-AR-00-001      Phase 1 Remote Encoding    Postal-wide              0            0           0    2/10/00
                  Center Consolidation
DA-AR-00-002      Tray Management System     Postal-wide              0            0           0    3/31/00
COMPUTER INTRUSION
CI-CSA-00-001     Computer Security Advisory Postal-wide             $0          $0           $0    2/29/00
COMPUTER SECURITY
CI-MA-00-001      Allegations of Abuse of    Postal-wide             $0          $0           $0    2/24/00
                  Postalwatch.org Web Link
CI-LA-00-001      Postal Service             Postal-wide              0            0           0     3/1/00
                  Computer Security
TECHNOLOGY TOTALS                                                    $0          $0           $0


LABOR MANAGEMENT
                                                                                 Un- Recommend
Report/Case     Subject Title/               Location/        Questioned   supported Funds Put to     Issue
Number          Project Type                 Contract              Costs      Costs3 Better Use        Date
 HOSTILE WORK ENVIRONMENT
LM-LA-00-002      Allegation of a Hostile    Puerto Rico             $0          $0           $0    2/29/00
                  Work Environment in a
                  Puerto Rico Post Office
LM-AR-00-001      Allegations of a Hostile   Southeast Area           0            0           0    3/20/00
                  Working Environment at a
                  Post Office in the
                  Southeast Area
UNSAFE WORKING CONDITIONS
LM-AR-00-002      Allegations of Unsafe      Dallas, TX              $0          $0           $0    3/20/00
                  Working Conditions at
                  the Dallas
                  Downtown Station
LM-VR-00-001      Allegations of Unsafe      Dallas, TX               0            0           0    3/20/00
                  Working Conditions at
                  the Dallas
                  Downtown Station-
                  Video Report




                                                                                                              PAGE 119
                                                                                               Un- Recommend
           Report/Case       Subject Title/              Location/          Questioned   supported Funds Put to     Issue
           Number            Project Type                Contract                Costs      Costs3 Better Use        Date
            HEALTH CARE
           HC-MA-00-001      Allegation Concerning the Middlesex Central District $0           $0           $0    2/29/00
                             Middlesex Central District’s
                             Use of Injury Claim Forms
                             CA-1
           HC-MA-00-002      Allegation of Untimely      Albuquerque District       0            0           0    3/21/00
                             Submission of
                             Injury Claims
           LABOR MANAGEMENT TOTALS                                                 $0          $0           $0


           OVERSIGHT REVIEWS OF THE INSPECTION SERVICE
                                                                                               Un- Recommend
           Report/Case       Subject Title/              Location/          Questioned   supported Funds Put to     Issue
           Number            Project Type                Contract                Costs      Costs3 Better Use        Date
           OV-MA-99-001      Postal Personnel Security   Postal-wide               $0          $0           $0    3/23/00
                             Program-Sensitive Clearance
                             for Non-Inspection
                             Service Position
           OV-MA-99-003 (R) FY 1998 National             Norman, OK                 0            0           0    3/23/00
                            Leadership Conference
           OVERSIGHT TOTALS                                                        $0          $0           $0


           OTHER SIGNIFICANT REVIEWS
                                                                                               Un- Recommend
           Report/Case       Subject Title/              Location/          Questioned   supported Funds Put to     Issue
           Number            Project Type                Contract                Costs      Costs3 Better Use        Date
           99CX017EX000      Executive Investigation                               $0          $0           $0    1/24/00
           98CX012EX000      Executive Investigation                                0            0           0    2/16/00
           99CX019EX000      Executive Investigation                                0            0           0    1/23/00
           99CX024EX000      Executive Investigation                                0            0           0    1/31/00
           99CX031EX000      Executive Investigation                                0            0           0    1/31/00
           98CX032EX000      Executive Investigation                                0            0           0     1/4/00
           98CX035EX000      Executive Investigation                                0            0           0 12/15/99
           99CX002EX000      Executive Investigation                                0            0           0 11/30/99
           00CX005EX000      Executive Investigation                                0            0           0     2/1/00
           98CX015EX000      Executive Investigation                                0            0           0    10/1/99
           99CX011EX000      Executive Investigation                                0            0           0    10/1/99
           00CX008EX000      Executive Investigation                                0            0           0     2/2/00
           99CX026EX000      Executive Investigation                                0            0           0    10/1/99
           99CX010EX000      Executive Investigation                                0            0           0    10/1/99
           99CX012EX000      Executive Investigation                                0            0           0    10/1/99
           99CX023EX000      Executive Investigation                                0            0           0 10/13/99
           00CX011EX000      Executive Investigation                                0            0           0    1/17/00
           97CX007EX000      Executive Investigation                                0            0           0     2/2/00




PAGE 120   APPENDICES
                                                                           Un- Recommend
Report/Case    Subject Title/            Location/    Questioned     supported Funds Put to     Issue
Number         Project Type              Contract          Costs        Costs3 Better Use        Date
99CX032EX000   Executive Investigation                        0              0           0     3/1/00
99CX034EX000   Executive Investigation                        0              0           0 10/28/99
97CX002EX000   Executive Investigation                        0              0           0 12/16/99
98CX016EX000   Executive Investigation                        0              0           0     1/6/00
98CX005EX000   Executive Investigation                        0              0           0 11/15/99
99CX006EX000   Executive Investigation                        0              0           0    12/5/99
00CX001EX000   Executive Investigation                        0              0           0     3/9/00
SIGNIFICANT REVIEWS                                          $0            $0           $0

OIG TOTALS                                           $3,280,751
                                                                   $1,076,3063
                                                                              $30,367,000




                                                                                                        PAGE 121
           INSPECTION SERVICE REPORTS
           FINANCIAL MANAGEMENT
                                                                                                 Un- Recommend
           Report/Case    Subject Title/                  Location/           Questioned   supported Funds Put to     Issue
           Number         Project Type                    Contract                 Costs      Costs3 Better Use        Date
            CONTRACT AUDITS
           181-1282969-AC(1) Contract Audit               Kansas City, KS     $       0 $          0     $88,906    11/4/99
                                                          66112
           181-1294644-AC(1) Contract Audit               Hatfield, PA         7,063,747 1,675,877             0 11/17/99
                                                          19440
           184-1199426-AC(1) Contract Audit               Chicago, IL 60601           0            0           0 11/01/99
           182-1300114-AC(1) Contract Audit               Fairborne, OH      163,115,691           0           0    1/10/00
                                                          45324
           184-1281717-AC(1) Contract Audit               Fairborne, OH       95,904,442 4,147,617             0 11/24/99
                                                          45324
           184-1289120-AC(1) Contract Audit               Danbury, CT 06810       14,798     11,475            0    3/22/00
           184-1293100-AC(1) Contract Audit               Chicago, IL 60611           0            0           0 11/10/99
           185-1268720-AC(1) Contract Audit               Irvine, CA 92715            0            0           0 12/23/99

           FINANCIAL OPINION
           010-1259185-AD(1) Canadian Surface             Jersey City, NJ 07096      $0          $0           $0     1/4/00
                             Mail Accounting
           010-1296618-AD(1) Vehicle Management           Baltimore, MD 21201         0            0           0    10/7/99
                             Accounting System

           FINANCIAL INSTALLATION AUDITS
           011-1298638-AF(1) Financial Installation Audit Jamaica, NY 11431          $0          $0           $0    3/30/00
           011-1298640-AF(1) Financial Installation Audit Ronkonkoma, NY 11779        0            0           0 11/23/99
           011-1298652-AF(1) Financial Installation Audit Floral Park, NY 11001       0            0           0    1/31/00
           011-1298653-AF(1) Financial Installation Audit Staten Island, NY 10314     0            0           0 12/30/99
           011-1298655-AF(1) Financial Installation Audit Columbus, GA 31908          0            0           0    2/25/00
           011-1298698-AF(1) Financial Installation Audit New York, NY 10001          0            0           0    3/20/00
           011-1298700-AF(1) Financial Installation Audit New York, NY 10001          0            0           0    3/20/00
           011-1298723-AF(1) Financial Installation Audit Wells, ME 04090             0            0           0 12/15/99
           011-1298776-AF(1) Financial Installation Audit Sacramento, CA 95813        0            0           0    3/20/00
           011-1298818-AF(1) Financial Installation Audit Denver, CO 80266            0            0           0    11/4/99
           011-1298825-AF(1) Financial Installation Audit Alpharetta, GA 30004        0            0           0     2/3/00
           011-1298829-AF(1) Financial Installation Audit Honolulu, HI 96820          0            0           0    2/25/00
           011-1298831-AF(1) Financial Installation Audit San Francisco, CA 94188     0            0           0     2/8/00
           011-1298880-AF(1) Financial Installation Audit Orlando, FL 32862           0            0           0    1/31/00
           011-1298923-AF(1) Financial Installation Audit Tampa, FL 33630             0            0           0 12/27/99
           011-1298929-AF(1) Financial Installation Audit Tampa, FL 33630             0            0           0 12/27/99
           011-1298935-AF(1) Financial Installation Audit Miami, FL 33152             0            0           0 11/23/99
           011-1298941-AF(1) Financial Installation Audit Mt. Morris, IL 61054        0            0           0 11/18/99
           011-1298944-AF(1) Financial Installation Audit Woodstock, IL 60098         0            0           0 11/18/99
           011-1299012-AF(1) Financial Installation Audit Memphis, TN 38101           0            0           0    12/6/99
           011-1299013-AF(1) Financial Installation Audit Jackson, MS 39205           0            0           0    1/19/00
           011-1299014-AF(1) Financial Installation Audit Olive Branch, MS 38654      0            0           0    11/1/99
           011-1299041-AF(1) Financial Installation Audit Antioch, TN 37013           0            0           0 12/30/99
           011-1299042-AF(1) Financial Installation Audit Hampton, VA 23670           0            0           0 10/25/99
           011-1299046-AF(1) Financial Installation Audit Trenton, TN 38382           0            0           0     1/5/00



PAGE 122   APPENDICES
                                                                                       Un- Recommend
Report/Case         Subject Title/              Location/           Questioned   supported Funds Put to     Issue
Number              Project Type                Contract                 Costs      Costs3 Better Use        Date
011-1299047-AF(1) Financial Installation Audit Jackson, MS 39205            0            0           0    3/17/00
011-1299055-AF(1) Financial Installation Audit Memphis, TN 38101            0            0           0 12/16/99
011-1299193-AF(1) Financial Installation Audit Boston, MA 02205             0            0           0    3/28/00
011-1299194-AF(1) Financial Installation Audit Rochester, NY 14600          0            0           0     1/7/00
011-1299200-AF(1) Financial Installation Audit Newington, CT 06111          0            0           0    2/23/00
011-1299203-AF(1) Financial Installation Audit Manchester, NH 03100         0            0           0    3/14/00
011-1299218-AF(1) Financial Installation Audit Columbia, SC 29201           0            0           0     3/3/00
011-1299219-AF(1) Financial Installation Audit Columbia, SC 29201           0            0           0    3/24/00
011-1299231-AF(1) Financial Installation Audit Jersey City, NJ 07303        0            0           0    3/17/00
011-1299240-AF(1) Financial Installation Audit San Juan, PR 00936           0            0           0 10/28/99
011-1299245-AF(1) Financial Installation Audit San Juan, PR 00936           0            0           0 12/10/99
011-1299329-AF(1) Financial Installation Audit Florence, KY 41042           0            0           0 11/10/99
011-1299330-AF(1) Financial Installation Audit Chicago, IL 61938            0            0           0    11/3/99
011-1299723-AF(1) Financial Installation Audit Martinsburg, WV 25401        0            0           0 11/30/99
011-1299724-AF(1) Financial Installation Audit Merrifield, VA 22116         0            0           0    12/3/99
011-1299727-AF(1) Financial Installation Audit Capitol Heights, MD 20791 0               0           0 12/22/99
011-1299728-AF(1) Financial Installation Audit Washington, DC 20066         0            0           0    2/14/00
011-1299729-AF(1) Financial Installation Audit Luthervill/Timonium,         0            0           0    1/13/00
                                               MD 21093
011-1299730-AF(1) Financial Installation Audit Rockville, MD 20850          0            0           0    2/28/00
011-1299732-AF(1) Financial Installation Audit Merrifield, VA 22081         0            0           0     2/3/00
011-1299744-AF(1) Financial Installation Audit Perris, CA 92570             0            0           0 11/15/99
011-1299746-AF(1) Financial Installation Audit Fullerton, CA 92831          0            0           0 11/24/99
011-1299748-AF(1) Financial Installation Audit Van Nuys, CA 91409           0            0           0    3/30/00
011-1299784-AF(1) Financial Installation Audit Thurmont, MD 21788           0            0           0    3/17/00
011-1299816-AF(1) Financial Installation Audit Elm City, NC 27822           0            0           0     3/8/00
011-1299819-AF(1) Financial Installation Audit Royal Oak, MI 48083          0            0           0    1/25/00
011-1299938-AF(1) Financial Installation Audit San Diego, CA 92199          0            0           0    2/29/00
011-1299942-AF(1) Financial Installation Audit Los Angeles, CA 90001        0            0           0    3/22/00
011-1299944-AF(1) Financial Installation Audit Orange, CA 92667             0            0           0    11/4/99
011-1300035-AF(1) Financial Installation Audit Denver, CO 80202             0            0           0     3/3/00
011-1300037-AF(1) Financial Installation Audit Colorado Springs,            0            0           0    1/28/00
                                               CO 80903
011-1300039-AF(1) Financial Installation Audit Logan, UT 84321              0            0           0    2/10/00
011-1300139-AF(1) Financial Installation Audit San Antonio, TX 78284        0            0           0 11/15/99
011-1300140-AF(1) Financial Installation Audit Stillwater, OK 74074         0            0           0    11/9/99
011-1300152-AF(1) Financial Installation Audit Oklahoma City, OK 73198 0                 0           0    2/24/00
011-1300153-AF(1) Financial Installation Audit Oklahoma City, OK 73198 0                 0           0    1/31/00
011-1300200-AF(1) Financial Installation Audit Waterloo, IA 50701           0            0           0 12/14/99
011-1300207-AF(1) Financial Installation Audit Jefferson City, MO 65101     0            0           0 11/24/99
011-1300214-AF(1) Financial Installation Audit Hazelwood, MO 63042          0            0           0    2/15/00
011-1300219-AF(1) Financial Installation Audit Dubuque, IA 52001            0            0           0    11/2/99
011-1300220-AF(1) Financial Installation Audit St.Louis, MO 63155           0            0           0     2/1/00
011-1300248-AF(1) Financial Installation Audit Salt Lake City, UT 84199     0            0           0     2/4/00
011-1300250-AF(1) Financial Installation Audit Mesa, AZ 85201               0            0           0 12/10/99
011-1300251-AF(1) Financial Installation Audit Boulder, CO 80301            0            0           0     1/3/00
011-1300383-AF(1) Financial Installation Audit Wilkes-Barre, PA 18701       0            0           0 12/10/99
011-1300384-AF(1) Financial Installation Audit Scranton, PA 18505           0            0           0 12/10/99
011-1300497-AF(1) Financial Installation Audit Bloomsburg, PA 17815         0            0           0    3/15/00


                                                                                                                    PAGE 123
                                                                                                   Un- Recommend
           Report/Case         Subject Title/              Location/            Questioned   supported Funds Put to     Issue
           Number              Project Type                Contract                  Costs      Costs3 Better Use        Date
           011-1300500-AF(1) Financial Installation Audit Easton, PA 18044              0            0           0     2/3/00
           011-1300502-AF(1) Financial Installation Audit Lancaster, PA 17604           0            0           0    2/23/00
           011-1300508-AF(1) Financial Installation Audit Easton, PA 18043              0            0           0     2/3/00
           011-1300516-AF(1) Financial Installation Audit Valley Forge, PA 19481        0            0           0    1/14/00
           011-1300927-AF(1) Financial Installation Audit Melrose Park, IL 60160        0            0           0 11/26/99
           011-1300961-AF(1) Financial Installation Audit Cincinnati, OH 45202          0            0           0 11/29/99
           011-1300965-AF(1) Financial Installation Audit Dayton, OH 45401              0            0           0    1/18/00
           011-1300967-AF(1) Financial Installation Audit Cincinnati, OH 45214          0            0           0     2/7/00
           011-1300969-AF(1) Financial Installation Audit Sidney, OH 45365              0            0           0    1/28/00
           011-1300970-AF(1) Financial Installation Audit Columbus, OH 43216            0            0           0     2/4/00
           011-1300980-AF(1) Financial Installation Audit Hebron, OH 43025              0            0           0    3/15/00
           011-1301231-AF(1) Financial Installation Audit Southfield, MI 48037          0            0           0     2/7/00
           011-1301233-AF(1) Financial Installation Audit Troy, MI 48009                0            0           0    3/27/00
           011-1301266-AF(1) Financial Installation Audit Jackson, MI 49201             0            0           0    2/22/00
           011-1301268-AF(1) Financial Installation Audit Lansing, MI 48924             0            0           0    3/17/00
           011-1301271-AF(1) Financial Installation Audit Lansing, MI 48037             0            0           0    2/28/00
           011-1301509-AF(1) Financial Installation Audit Bloomsburg, PA 17815          0            0           0    3/15/00
           011-1302193-AF(1) Financial Installation Audit Berwyn, IL 60402              0            0           0 12/28/99
           011-1302198-AF(1) Financial Installation Audit Worth, IL 60482               0            0           0    1/11/00
           011-1302199-AF(1) Financial Installation Audit Downers Grove, IL 60515       0            0           0     2/4/00
           011-1302381-AF(1) Financial Installation Audit Worth IL 60482                0            0           0    1/14/00
           011-1302405-AF(1) Financial Installation Audit Chicago, IL 60601             0            0           0    3/16/00
           012-1298736-AF(1) Financial Installation Audit San Mateo, CA 94402           0            0           0 11/15/99
           012-1299090-AF(1) Financial Installation Audit Royal Oak, MI 48068           0            0           0 12/17/99
           012-1299920-AF(1) Financial Installation Audit Chatsworth, CA 91311          0            0           0    11/5/99
           012-1300206-AF(1) Financial Installation Audit Clarion, IA 50526             0            0           0    11/1/99
           012-1300962-AF(1) Financial Installation Audit Cincinnati, OH 45240          0            0           0 12/17/99
           013-1298728-AF(1) Financial Installation Audit Freeport, ME 04033            0            0           0 11/15/99
           013-1298984-AF(1) Financial Installation Audit Ft. Myers, FL 33902           0            0           0 10/26/99
           013-1298991-AF(1) Financial Installation Audit Melbourne, FL 32901           0            0           0    12/7/99
           013-1299201-AF(1) Financial Installation Audit Norwich, CT 06360             0            0           0     2/8/00
           013-1299247-AF(1) Financial Installation Audit San Juan, PR 00919            0            0           0    1/24/00
           013-1300524-AF(1) Financial Installation Audit Pittsburgh, PA 15213          0            0           0 12/30/99
           014-1298649-AF(1) Financial Installation Audit Flushing, NY 11351            0            0           0    3/30/00
           014-1298774-AF(1) Financial Installation Audit Ridgefield, WA 98642          0            0           0    2/17/00
           014-1298986-AF(1) Financial Installation Audit Miami, FL 33149               0            0           0    1/21/00
           014-1298988-AF(1) Financial Installation Audit Miami, FL 33145               0            0           0    1/21/00
           014-1299034-AF(1) Financial Installation Audit Evans, GA 30809               0            0           0 11/18/99
           014-1299036-AF(1) Financial Installation Audit Forest, MS 39074              0            0           0 11/18/99
           014-1299043-AF(1) Financial Installation Audit Indian Head, MD 20640         0            0           0 10/29/99
           014-1299202-AF(1) Financial Installation Audit Niantic, CT 06357             0            0           0 11/29/99
           014-1299205-AF(1) Financial Installation Audit Walpole, NH 03608             0            0           0 12/29/99
           014-1299222-AF(1) Financial Installation Audit Hackettstown, NJ 07840        0            0           0    2/24/00
           014-1299234-AF(1) Financial Installation Audit Elizabeth, NJ 07202           0            0           0    1/31/00
           014-1299785-AF(1) Financial Installation Audit Locust Grove, VA 22508        0            0           0    3/17/00
           014-1299787-AF(1) Financial Installation Audit Lanham-Seabrook,              0            0           0    2/25/00
                                                          MD 20706
           014-1299937-AF(1) Financial Installation Audit Santa Ana, CA 92799           0            0           0    1/14/00



PAGE 124   APPENDICES
                                                                                       Un- Recommend
Report/Case         Subject Title/              Location/           Questioned   supported Funds Put to     Issue
Number              Project Type                Contract                 Costs      Costs3 Better Use        Date
014-1300156-AF(1) Financial Installation Audit Irving, TX 75063             0            0           0 12/15/99
014-1300157-AF(1) Financial Installation Audit Baton Rouge, LA 70862        0            0           0 11/24/99
014-1300208-AF(1) Financial Installation Audit Wentzville, MO 63385         0            0           0    1/13/00
014-1300209-AF(1) Financial Installation Audit Beulah, ND 58523             0            0           0    3/15/00
014-1300224-AF(1) Financial Installation Audit Milan, IL 61264              0            0           0    12/6/99
014-1300225-AF(1) Financial Installation Audit Marshfield, MO 65706         0            0           0    1/13/00
014-1300228-AF(1) Financial Installation Audit North Platte, NE 69101       0            0           0    2/14/00
014-1300506-AF(1) Financial Installation Audit Thorofare, NJ 08086          0            0           0 12/30/99
014-1300982-AF(1) Financial Installation Audit Zanesville, OH 43701         0            0           0    3/28/00
014-1301289-AF(1) Financial Installation Audit Ft. Wayne, IN 46805          0            0           0     3/9/00
015-1299038-AF(1) Financial Installation Audit Linden, AL 36748             0            0           0 11/18/99
015-1299102-AF(1) Financial Installation Audit Rio, IL 61472                0            0           0 10/28/99
015-1299237-AF(1) Financial Installation Audit Fairlawn, NJ 07410           0            0           0    1/31/00
015-1299726-AF(1) Financial Installation Audit Davy, WV 24828               0            0           0 12/16/99
015-1300217-AF(1) Financial Installation Audit Clemons, IA 50051            0            0           0    1/24/00
015-1300247-AF(1) Financial Installation Audit Dexter, NM 88230             0            0           0     3/8/00

DISTRICT ACCOUNTING OFFICE AUDITS
016-1298651-AF(2) Financial Installation Audit White Plains, NY 10602      $0          $0           $0 11/23/99
016-1298675-AF(2) Financial Installation Audit Sacramento, CA 95799         0            0           0 10/22/99
016-1298677-AF(1) Financial Installation Audit Oakland, CA 94615            0            0           0    1/24/00
016-1299028-AF(2) Financial Installation Audit Jackson, MS 39201            0            0           0 12/23/99
016-1299181-AF(1) Financial Installation Audit Hartford, CT 06100           0            0           0    3/13/00
016-1299457-AF(2) Financial Installation Audit Philadelphia, PA 19101       0            0           0 11/16/99
016-1300040-AF(1) Financial Installation Audit Albuquerque, NM 87102        0            0           0     3/3/00
016-1300971-AF(1) Financial Installation Audit Columbus, OH 43216           0            0           0    2/24/00
188-1298641-AF(2) Financial Installation Audit White Plains, NY 10602       0            0           0 12/20/99
188-1298819-AF(2) Financial Installation Audit Oakland, CA 94615            0            0           0    11/1/99
188-1298821-AF(2) Financial Installation Audit San Francisco, CA 94188      0            0           0 12/21/99
188-1298822-AF(2) Financial Installation Audit Sacramento, CA 95799         0            0           0    11/4/99
188-1299455-AF(2) Financial Installation Audit Philadelphia, PA 19101       0            0           0    12/7/99
188-1300041-AF(1) Financial Installation Audit Albuquerque, NM 87101        0            0           0    3/10/00
188-1300428-AF(1) Financial Installation Audit Oklahoma City, OK 73125 0                 0           0    3/10/00
188-1300429-AF(1) Financial Installation Audit Grand Prairie, TX 75051      0            0           0    2/21/00
188-1300974-AF(1) Financial Installation Audit Columbus, OH 43216           0            0           0    2/24/00
800-1300800-ICR(1) Financial Installation Audit Detroit, MI 48236           0            0           0    1/13/00

EXPENDITURE INVESTIGATIONS
195-1299456-EI(1)   Procurement Activities      St. Louis, MO 63155 $30,425            $0           $0    11/8/99
566-1265991-EI(1)   IMPAC Credit Card Review San Diego, CA 92199            0            0           0 12/14/99




                                                                                                                    PAGE 125
                                                                                                  Un- Recommend
           Report/Case      Subject Title/                Location/            Questioned   supported Funds Put to     Issue
           Number           Project Type                  Contract                  Costs      Costs3 Better Use        Date
            FACILITY PROGRAM AUDITS
           267-1293180-FPA(1) SiteMeta Model Usage        Washington, DC 20066        $0          $0           $0    3/16/00

           FINANCIAL INVESTIGATIONS
           017-1253585-FI(2)    Financial Investigation   Detroit, MI 48232           $0          $0           $0 11/18/99
           017-1288456-FI(2)    Financial Investigation   Seahurst, WA 98062           0            0           0 10/27/99
           017-1294538-FI(2)    Financial Investigation   Exmore, VA 23350             0            0           0    10/1/99
           017-1294539-FI(2)    Financial Investigation   Melfa, VA 23410              0            0           0    10/1/99
                            4
           017-1292697-FI(2)    Financial Investigation   Diamondale, MI 48821         0            0           0    7/16/99
           017-1295925-FI(2)    Financial Investigation   New York, NY 10001           0            0           0 11/17/99
           017-1296647-FI(2)    Financial Investigation   Osburn, ID 83849             0            0           0    10/1/99
                            4
           017-1296651-FI(2)    Financial Investigation   Lansing, MI 48917            0            0           0     9/8/99
           017-1298857-FI(2)    Financial Investigation   Royal Oak, MI 48083          0            0           0    1/10/00
           017-1301046-FI(2)    Financial Investigation   Haddock, GA 31033            0            0           0    11/1/99
           017-1306153-FI(2)    Financial Investigation   Yacolt, WA 98675             0            0           0    1/24/00
           017-1308019-FI(2)    Financial Investigation   Dayton, Ny 14041             0            0           0     3/8/00
           820-1212361-FI(1)    Financial Investigation   Portland, OR 97205           0            0           0    11/2/99
           827-1234991-FI(1)    Financial Investigation   Gateway, CO 81522            0            0           0    1/25/00
           830-1302496-FI(1)    Financial Investigation   Bosie, ID 83708              0            0           0 11/18/99
           833-1295888-FI(1)    Financial Investigation   San Jose, CA 95101           0            0           0 11/18/00
           839-1298725-FI(2)    Financial Investigation   Golconda, IL 62938           0            0           0 10/18/99
           840-1302577-FI(2)    Financial Investigation   Phoenix, AZ 85034            0            0           0    12/2/99
           830-1307109-FI(2)    Financial Investigation   Bethalto, IL 62010           0            0           0     2/7/00
           840-1306609-FI(2)    Financial Investigation   Billings, MT 59101           0            0           0    2/15/00
           841-1290810-FI(2)    Financial Investigation   Miami, FL 33138              0            0           0    12/7/99
           842-1301419-FI(1)    Financial Investigation   Grand Rapids, MI 49504       0            0           0    1/18/00
           843-1307671-FI(1)    Financial Investigation   Yakima, WA 98902             0            0           0    3/23/00
           146-1183701-PVS(2) Financial Investigation     Detroit, MI 48233            0            0           0    3/10/00
           165-1305549-PVS(2) Financial Investigation     Independence, OR 97351       0            0           0    1/13/00

           REVENUE INVESTIGATIONS
           061-1259463-RI(1)    Postage Meter             Stamford, CT 06920          $0          $0           $0 12/22/99
           061-1297813-RI(1)    Postage Meter             Cicero, IL 60650             0            0           0 10/13/99
           061-1299270-RI(1)    Postage Meter             Asheville, NC 28813          0            0           0 12/17/99
           061-1299271-RI(1)    Postage Meter             Richmond, VA 23228           0            0           0    1/18/00
           061-1299272-RI(1)    Postage Meter             Louisville, KY 40213         0            0           0     1/7/00
           061-1299339-RI(1)    Postage Meter             Cleveland, OH 44113          0            0           0 12/17/99
           061-1299566-RI(1)    Postage Meter             Albuquerque, NM 87110        0            0           0 12/21/99
           061-1299582-RI(1)    Postage Meter             Tampa FL 33603               0            0           0    3/10/00
           061-1299589-RI(1)    Postage Meter             Garland, TX 75044            0            0           0 11/24/00
           061-1299593-RI(1)    Postage Meter             Birmingham, AL 35206         0            0           0    1/19/00
           061-1299594-RI(1)    Postage Meter             Spokane, WA 99212            0            0           0    2/15/00
           061-1299595-RI(1)    Postage Meter             Stone Mountain,              0            0           0    12/8/99
                                                          GA 30087
           061-1299601-RI(1)    Postage Meter             Renton, WA 98055             0            0           0    12/7/99
           061-1299605-RI(1)    Postage Meter             Hauppauge, NY 11788          0            0           0     1/3/00
           061-1299608-RI(1)    Postage Meter             Tarrytown, NY 10591          0            0           0    2/24/00
           061-1299620-RI(1)    Postage Meter             Boise, ID 83705              0            0           0    3/22/00
           061-1300036-RI(1)    Postage Meter             Lakewood, CO 80214           0            0           0 11/30/99


PAGE 126   APPENDICES
                                                                                     Un- Recommend
Report/Case         Subject Title/        Location/             Questioned     supported Funds Put to     Issue
Number              Project Type          Contract                   Costs        Costs3 Better Use        Date
061-1300252-RI(1)   Postage Meter         Santa Fe, NM 87505            0              0           0     3/2/00
061-1300331-RI(1)   Postage Meter         Sacramento, CA 95814          0              0           0    1/18/00
061-1300332-RI(1)   Postage Meter         San Jose, CA 95126            0              0           0    1/21/00
061-1300385-RI(1)   Postage Meter         Bensalem, PA 19021            0              0           0    1/25/00
061-1300485-RI(1)   Postage Meter         Lacrosse, WI 54603            0              0           0    1/21/00
061-1301540-RI(1)   Postage Meter         Lansing, MI 48910             0              0           0    2/18/00
061-1303288-RI(1)   Postage Meter         Los Angeles, CA 90023         0              0           0     2/2/00
061-1305144-RI(1)   Postage Meter         Houston, TX 77251             0              0           0    3/16/00
061-1305918-RI(1)   Postage Meter         Houston, TX 77087             0              0           0     2/8/00
062-1206077-RI(1)   Nonprofit Mail        Tallahassee, FL 32301         0              0           0    2/17/00
062-1233050-RI(1)   Nonprofit Mail        Long Beach, CA 90809          0              0           0    2/15/00
062-1301372-RI(1)   Nonprofit Mail        Livonia, MI 48150             0              0           0 11/16/99
062-1302374-RI(1)   Nonprofit Mail        Flint, MI 48532               0              0           0    12/8/99
062-1303709-RI(1)   Standard Mail         Albany, GA 31707              0              0           0    12/8/99
062-1303973-RI(1)   Nonprofit Mail        Pontiac, MI 48343             0              0           0 12/15/99
064-1282422-RI(1)   Business Reply Mail   Tampa, FL 33623               0              0           0 12/17/99
064-1302881-RI(1)   First-Class Mail      Bedford, VA 24523             0              0           0 11/17/99
064-1306639-RI(1)   First-Class Mail      Richmond, VA 23294            0              0           0    1/28/00
064-1308714-RI(1)   Postage Meter         Norwalk, CT 06856             0              0           0    2/25/00
065-1294384-RI(1)   Periodical Mail       W. Palm Beach, FL 33406       0              0           0 10/12/99
065-1294847-RI(1)   Periodical Mail       Cadillac, MI 49601            0              0           0 11/12/99
064-1305694-RI(1)   Periodical Mail       New York, NY 10036            0              0           0    1/21/00
066-1298980-RI(1)   Periodical Mail       Glasgow, KY 42141             0              0           0    10/4/99
066-1298981-RI(1)   Nonprofit Mail        Spartanburg, SC 29307         0              0           0    10/4/99
066-1298983-RI(1)   Nonprofit Mail        Danville, KY 40422            0              0           0    10/4/99
066-1304422-RI(1)   Standard Mail         Rockford, IL 61110            0              0           0 12/16/99
068-1300519-RI(1)   First-Class Mail      Richmond, VA 23227            0              0           0 11/29/99
                4
069-1220769-RI(2)   Caller Service Fees   Seattle, WA 98124             0              0           0     5/3/99
                4
069-1303033-RI(2)   Caller Service Fees   Des Moines, IA 50318          0              0           0     3/3/99
069-1304383-RI(2)   Caller Service Fees   Clarion, IA 50526             0              0           0 12/17/99
069-1308683-RI(2)   Caller Service Fees   Lanoka Harbor, NJ 08734       0              0           0     3/8/00
069-1308684-RI(2)   Caller Service Fees   Pine Beach, NJ 08741          0              0           0     3/8/00
069-1308685-RI(2)   Caller Service Fees   Stanhope, NJ 07874            0              0           0 11/29/99
069-1308687-RI(2)   Caller Service Fees   Yardville, NJ 08620           0              0           0     3/8/00
069-1310014-RI(2)   Caller Service Fees   Belford, NJ 07718             0              0           0    3/13/00
920-1203070-RI(1)   First-Class Mail      Hazelwood, MO 63042           0              0           0    2/16/00
921-1297254-RI(1)   Plant Verified Drop   Tarzana, CA 91356             0              0           0    2/10/00
                    Shipment Mail
921-1299389-RI(1)   Plant Verified Drop   Belle Mead, NJ 08502          0              0           0    11/3/99
                    Shipment Mail
923-1297408-RI(1)   First-Class Mail      Edison, NJ 08899              0              0           0 11/19/99
924-1254090-RI(1)   Presort Bureaus       Lynnfield, MA 01940           0              0           0    9/16/99
924-1285196-RI(1)   Presort Bureaus       Eugene, OR 97402              0              0           0 11/17/99
FINANCIAL MANAGEMENT TOTALS                             $266,129,103                        $88,906
                                                                             $5,834,9693




                                                                                                                  PAGE 127
           PERFORMANCE
                                                                                 Un- Recommend
           Report/Case     Subject Title/        Location/      Questioned supported Funds Put to             Issue
           Number          Project Type          Contract            Costs    Costs3 Better Use                Date
            ACCEPTING AND PROCESSING, TRANSPORTATION, DELIVERY AND ENABLING FUNCTIONS
           038-1288323-PA(2) Mail Flow Analysis             Albany, NY 12212          $0   $0         $0    3/16/00
           038-1292495-PA(2) Delivery Automation            Denver, CO 80299          0    0           0     2/8/00
           039-1291158-PA(2) Mail Transport Equipment       Pasadena, CA 91102        0    0           0    12/8/99
           039-1295484-PA(2) Transportation Review                                    0    0    5,073,926   3/29/00
           052-1254545-PA(3)4 Indefinite Quantity           Santa Clarita, CA 91380   0    0           0    9/21/99
                              Contract Work Orders
           052-1289574-PA(3) City Carrier                   Harrisburg, PA 17107      0    0           0 11/17/99
                             Operations/Overtime
           052-1290664-PA(3) Carrier Operations             San Antonio, TX 78265     0    0    1,857,900   10/5/99
           052-1293000-PA(3) Window Operation               Gaithersburg, MD 20898    0    0           0 10/18/99
                             Retail Hours
           052-1293335-PA(3) Carrier Overtime               Ft. Worth, TX 76161       0    0           0 12/22/99
           052-1296292-PA(3) City Carrier                                             0    0           0    2/14/00
                             Operations/Overtime
           312-1294163-PA(3) Service Improvement            Houston, TX 77202         0    0           0 11/30/99
           314-1288321-PA(3) Vehicle Maintenance Facility                             0    0           0 10/19/99

           SERVICE INVESTIGATIONS
            070-1264180-SI(1)4 Observation of               Chicago, IL 60657         $0   $0         $0    8/13/99
                               Mail Conditions
           070-1268886-SI(1) Observation of                 Chicago, IL 60610         0    0           0 10/20/99
                               Mail Conditions
           070-1291731-SI(1)   Classification Reform        Tampa, FL 33609           0    0           0 10/12/99
                               Follow-Up Review
           070-1309573-SI(1)   Mail Service                 Beverly Hills, CA 90210   0    0           0    3/14/00
           071-1294372-SI(2)   Operational Review           Allen Park, MI 48101      0    0           0    1/28/00
           071-1296235-SI(2)   Overnight Delivery           San Juan, PR 00960        0    0           0    11/1/99
           071-1296405-SI(2)   Observation of               Washington, DC 20260      0    0           0    2/23/00
                               Mail Conditions
           072-1267684-SI(2)   Observation of               Richmond, VA 23232        0    0           0    11/3/99
                               Mail Conditions




PAGE 128   APPENDICES
                                                                                      Un- Recommend
Report/Case         Subject Title/         Location/           Questioned       supported Funds Put to     Issue
Number              Project Type           Contract                 Costs          Costs3 Better Use        Date
072-1267691-SI(2)   Observation of         Louisville, KY 40231        0                0            0 11/29/99
                    Mail Conditions
072-1295069-SI(2)4 Change of               San Jose, CA 95101          0                0            0   9/21/99
                   Address Complaints
072-1297502-SI(2)   Observation of         Chicago, IL 60669           0                0     1,985,500 12/20/99
                    Mail Conditions
PERFORMANCE TOTALS                                       $             0                    $8,917,326
                                                                            $          0

INSPECTION SERVICE TOTALS                                $266,129,103
                                                                            $5,834,9693
                                                                                            $9,006,232

GRAND TOTALS                                             $269,409,854
                                                                            $6,911,2753
                                                                                       $39,373,232




3
    Unsupported Costs are included with the amounts shown as Questioned Costs.

4
 These reports were issued in a prior Semiannual Reporting period; however, they were not
entered into the Inspection Service database information system until the current reporting period.
To ensure all reports issued to management are reported to Congress, these reports are being
included during this reporting period.


                                                                                                                   PAGE 129
           APPENDIX C

           Findings of Questioned Costs
           For the period ending March 31, 2000
           OFFICE OF INSPECTOR GENERAL AND INSPECTION SERVICE
                                                                                                  Unsupported
                                                                                                         Costs
                                                                                         Total      Included In
                                                                   Number of       Questioned      Questioned
           Description                                               Reports            Costs            Costs
           Reports for which no management
           decision was made at the beginning
           of the reporting period                                       20      $24,446,815      $6,250,621
           Reports requiring a management
           decision that were issued
           during the reporting period                                   16      269,409,854       6,911,275

           TOTALS                                                        36    $293,856,669      $13,161,896

           Reports for which a management
           decision was made during the
           reporting period (i + ii)                                     16       $1,126,565         $10,383
           (i) Dollar value of disallowed costs                                    $571,670
           (ii) Dollar value of costs not disallowed                               $554,895
           Reports for which no management
           decision was made by the end of
           the reporting period. Negotiations are ongoing.               20     $292,730,104     $13,151,513
           Reports for which no management decision was
           made within six months of issuance
           (See Note 1 for list of individual reports)                    3      $15,742,109
           Reports for which no management decision was
           made within one year of issuance
           (See Note 2 for list of individual reports)                    3       $7,617,479      $6,240,238



           Note 1 – Reports for which no management decision was made within six months of issuance:
                                                                                                  Unsupported
                                                                                                         Costs
                                                                                       Total        Included In
                                                                                 Questioned        Questioned
           Report Date   Case Number             Project Type                         Costs              Costs
           7/28/99       184-1259633-AC(1)       Contract Audit                    $29,758                  $0
           9/24/99       190-1290163-AC(2)       Contract Audit                 15,662,099                   0
           7/9/99        192-1262874-AC(2)       Contract Audit                     50,252                   0

           TOTALS                                                              $15,742,109                 $0

           Note 2 – Reports for which no management decision was made within one year of issuance:
                                                                                                  Unsupported
                                                                                                         Costs
                                                                                       Total        Included In
                                                                                 Questioned        Questioned
           Report Date   Case Number             Project Type                         Costs              Costs
           6/16/98       184-1218249-AC(1)       Contract Audit                  $515,521          $398,675
           12/7/98       184-1243166-AC(1)       Contract Audit                  7,087,038         5,841,563
           3/12/98       182-1224877-AC(1)       Contract Audit                     14,920                 0

           TOTALS                                                               $7,617,479        $6,240,238




PAGE 130   APPENDICES
APPENDIX D

Recommendations That Funds
Be Put to Better Use
For the period ending March 31, 2000
OFFICE OF INSPECTOR GENERAL AND INSPECTION SERVICE
                                                                              Number of
Description                                                                     Reports      Dollar Value
Reports for which no management decision was made at
the beginning of the reporting period                                               49    $104,768,853
Reports requiring a management decision that were issued
during the reporting period                                                          8      39,373,232

TOTALS                                                                              57    $144,142,085

Reports for which a management decision was made during the report period            37    $99,406,468
(i) Value of recommendation implemented by management                                      $43,433,198
(ii) Value of recommendation that management did not recover                               $55,973,270
(iii) Value of recommendations that management did not agree to implement                           $0
Reports for which no management decision was made by the end of the reporting period 20    $44,735,617
Reports for which no management decision was made
within six months of issuance (See Note 1 for list of individual reports)             5     $4,704,159
Reports for which no management decision was made
within one year of issuance (See Note 2 for list of individual reports)              13    $34,868,626
Note 1 – Reports for which no management decision was made within six months of issuance:
                                                                                             Recommend
Report        Case                                                                          Funds Put to
Date          Number                     Project Type                                         Better Use
4/30/99       181-1283911-AC(1)          Contract Audit                                         46,162
6/15/99       181-1288561-AC(1)          Contract Audit                                         94,303
7/21/99       181-1289630-AC(1)          Contract Audit                                      4,403,092
8/27/99       181-1294162-AC(1)          Contract Audit                                        122,861
9/20/99       181-1296773-AC(1)          Contract Audit                                         37,741

TOTAL                                                                               $4,704,159
Note 2 – Reports for which no management decision was made within one year of issuance:
                                                                                             Recommend
Report        Case                                                                          Funds Put to
Date          Number                     Project Type                                         Better Use
10/13/98      181-1252323-AC (1)         Contract Audit                                     $6,166,150
10/30/98      181-1252372-AC(1)          Contract Audit                                      1,710,680
12/18/98      181-1253441-AC(1)          Contract Audit                                        145,532
11/24/98      181-1254410-AC(1)          Contract Audit                                        137,480
3/9/99        181-1265241-AC(1)          Contract Audit                                        103,476
4/14/98       181-1237199-AC(1)          Contract Audit                                     14,156,740
5/30/96       181-1165940-AC(1)          Contract Audit                                      8,370,460
5/23/96       181-1187389-AC(1)          Contract Audit                                      2,799,714
7/3/97        181-1204343-AC(1)          Contract Audit                                        134,283
7/22/97       181-1212417-AC(1)          Contract Audit                                         10,595
1/23/98       181-1214298-AC(1)          Contract Audit                                        135,198
12/3/97       181-1215690-AC(1)          Contract Audit                                        481,301
11/26/97      181-1216446-AC(1)          Contract Audit                                        517,017

TOTAL                                                                                      $34,868,626



                                                                                                            PAGE 131
           APPENDIX E

           Unresolved Reports
           For the period ending March 31, 2000
           OFFICE OF INSPECTOR GENERAL AND INSPECTION SERVICE
                                                                                        Number of         Total
                                                                   Number of    Inspection Service   Number of
           Description                                            OIG Reports              Reports     Reports
           Reports Unresolved at Beginning of Period:
              Reports Issued Before 4/1/99                                 7                   45          53
              Reports issued Prior Period, 9/30/99                         3                   51          53
           Total Reports                                                  10                   96         106

           Reports Issued This Period, 3/31/00                             3                 120          123
           Total Reports5                                                 13                 216          229

           Reports Resolved:
           Issued Before 4/1/99                                            0                  33           33
               Issued Prior Period 9/30/99                                 0                  41           41
               Issued This Period 3/31/00                                  0                  78           78
           Total Resolved                                                  0                 152          152

           Reports Unresolved as of 3/31/00:
             One year or more, 4/1/99
             (See Note 1 for list of individual reports)                   7                   12           19
             Six months or more but less than one year, 10/1/99
             (See Note 2 for list of individual reports)                   3                  10           13
             Less than Six Months                                          3                  42           45
           TOTAL UNRESOLVED                                               13                  64           77

           Reports Resolved Where Management Did Not Agree
           to Implement All Recommendations                                0                    3            3




           5
           Excludes audits previously reported, in Appendix C, Findings of Questioned Costs; and Appendix
           D, Recommendations That Funds Be Put To Better Use.



PAGE 132   APPENDICES
Note 1 – List of reports pending one year or more:

OFFICE OF INSPECTOR GENERAL
Issue      Report/Case                    6
Date       Number             Condition
3/30/99    LR-MA-99-006       Employee Allegations at the Ponca City Post Office
3/30/99    LR-AR-99-006       Allegations of Retaliation at the Garden Grove Post Office
3/31/99    LR-AR-99-001       Labor and Management Workplace Disputes
3/31/99    FA-AR-99-001       Review of the Atlanta Olympic Facility Improvement Plan
3/31/99    LR-AR-99-008       Follow-up on Postal Service Recommendations to Investigate Sexual Harassment
                              Allegations and to Reassign a Supervisor
3/31/99    LR-AR-99-009       Administration of the Advance Sick Leave Program and Health and Safety
                              Issues at the Garden Grove Post Office
3/31/99    DS-MA-99-002       Accident Reporting Process


INSPECTION SERVICE
Issue      Report/Case
Date       Number             Condition
8/12/97    1199652-AD(1)  Electronic Data Processing Controls, San Mateo, CA – Management is progress-
                          ing in testing critical applications and providing off-site storage for critical files.
9/30/98    1225935-AD(1) Electronic Data Processing Controls, St. Paul, MN – Management is concluding
                          administrative security issues.
5/11/98    1204380-PA(1) National Audit on Effectiveness of Employee Reassignments -–Management is
                          developing integrated policies and procedures on reassignment processes and pro-
                          viding attention in complement planning initiatives.
5/12/98    1209811-PA(1) National Audit on Air Transportation Networks – Management is preparing
                          operating plans and corrective actions are being taken.
6/05/98    1214098-PA(1) National Audit on City Route Inspections and Adjustment Process –
                          Management is developing instructions to review, train, and increase supervision
                          for the route inspections/adjustment process and the associated monitoring of
                          savings.
9/15/98    12202833-PA(1) National Audit on Postal Retail Stores – Management is developing procedures
                          in retail operations and a handbook and instructions are being updated.
12/30/98   1223496-PA(1) National Audit on Logistics and Transportation – Management is in the process
                          of implementing recommendations regarding air-to-surface mail routing.
3/17/99    1244541-PA(1) National Audit on Priority Mail – Management is developing procedures to
                          ensure efficient and effective processing of priority mail.
5/7/98     1223382-AX(1) Mail Transport Equipment Service – Management is implementing recommenda-
                          tions regarding program planning management.
1/27/99    1260310-RI(1)  Postage Meter, Anchorage, AK – Management is in the process of reconciling in-
                          stock inventory records.
12/30/98   1262023-RI(1)  Postage Meter, Southington, CT – Management is in the process of implement-
                          ing recommendations regarding meter inventories, meter control, and miss-set
                          meters.
12/31/97   1188871-RI(1)  Inbound Verification Procedures, Jersey City, NJ – Management is continuing to
                          develop action plans to verify inbound foreign and Canadian mail.




6
Postal Service and OIG management just recently implemented a process to address the disagree-
ments shown in this appendix (See Overview section)


                                                                                                                    PAGE 133
           Note 2 – List of reports pending six months or more but less than one year:

           OFFICE OF INSPECTOR GENERAL
           Issue        Report/Case                   6
           Date         Number            Condition
           3/23/00      OV-MA-99-003 (R) FY 1998 National Leadership Conference
           9/30/99      LR-AR-99-012     Actions Against Postmasters Atlanta District
           9/30/99      RG-MA-99-010 Reproductions of Stamp Images


           INSPECTION SERVICE
           Issue        Report/Case
           Date         Number            Condition
           8/13/99      1256263-AF(1)     Financial Installation Audit, Chicago, IL – Management is in the process of
                                          implementing recommendations relating to employee accountabilities, post office
                                          box/caller service and stamp inventories.
           8/6/99       1256274-AF(1)     Financial Installation Audit, Seattle, WA – Management is reviewing procedures
                                          relating to business reply mail and post office box/caller service fees.
           8/12/99      1256722-AF(1)     Financial Installation Audit, San Luis Obisqo, CA – Management is implement-
                                          ing procedures relating to office accountability.
           9/2/99       1257164-AF(1)     Financial Installation Audit, Baltimore, MD – Management is implementing pro-
                                          cedures relating to post office box/caller service and business reply mail.
           4/19/99      1261674-FI(2)     Self-Initiated Financial Review, Washington, DC – Management is implement-
                                          ing procedures relating to office accountability and security.
           7/6/99       1253949-RI(1)     Postage Meter, Hayward, CA – Management is in the process of implementing
                                          recommendations relating to meter and inventory inspections.
           5/22/99      1263973-RI(1)     Postage Meter, Washington, DC – Management is in the process of implement-
                                          ing internal control recommendations.
           9/14/99      1294489-RI(1)     Business Reply Mail Review, Chicago, IL – Management is in the process of
                                          implementing recommendations relating to postage due/business reply mail.
           4/19/99      1254408-SI(2)     Mail Service Review, Chicago, IL – Management is currently re-evaluating main-
                                          tenance staffing issues.
           8/10/99      1294973-PA(3)     Processing and Distribution Audit, Oakland, CA – Management is in the process
                                          of implementing recommendations relating to the utilization of the optical char-
                                          acter reader.




PAGE 134   APPENDICES
APPENDIX F

Summary of Actions Under
39 USC § 3005 and § 3007
For the period October 1, 1999, through March 31, 2000
INSPECTION SERVICE
                                                                          False   Cease &
                                         Complaints      Consent Representation     Desist
Type of Scheme                                Filed   Agreements        Orders     Orders

Advance fee
Boiler rooms/Telemarketing                                     1                        1
Contest/Sweepstakes                              1             2             2          3
Rebate fraud
Directory solicitations
Distributorships
Employment
False billings                                   6             6             2          8
Fraud against government agencies
Fraud against Postal Service
Insurance
Investments                                      1             1                        1
Loans
Lotteries (Foreign and Domestic)
Medical
Memberships
Merchandise:
   Failure to furnish                            2             2                        2
   Failure to pay                                3             3                        3
   Misrepresentation                             2             2             1          3
Miscellaneous                                    4             2             2          2
Solicitations
Travel
Work at home                                     2            2              1          3
TOTALS                                          21           21              8         26

Other Administrative Actions
Administrative Actions Requests                 17
Temporary Restraining Orders Requested           1
Temporary Restraining Orders Issued              1
Civil Injunctions (1345) Requested               0
Civil Injunctions (1345) Issued                  0
Cases Using Direct Purchase Authority            0
Refusals of Direct Purchase Authority            0
Civil Penalties (Section 3012) Imposed          $0
Expenditures Incurred for:
   Test Purchases                               $0
   Expert Testimony                             $0
   Witness Travel                               $0
Withholding Mail Orders Issued                  83
Voluntary Discontinuances                      263



                                                                                             PAGE 135
           DEFINITIONS OF SCHEMES
           Advance fee. Obtaining fees purporting to secure buyers or obtain loans.
           Boiler rooms/Telemarketing. An office or suite of offices with banks of telephones and telephone
           solicitors who use high-pressure techniques to persuade consumers to respond to bogus offers.
           Contest/Sweepstakes. Schemes in which the respondent is required to pay a fee to obtain prizes
           of money, gifts, or other items of value. "Prizes" are never shipped or are inferior to what was
           promised.
           Rebate fraud. Redeeming cents-off coupons or manufacturers’ rebates when no merchandise was
           actually purchased; establishing fictitious stores, clearing houses, or addresses; or submitting
           counterfeit coupons or rebates by consumers.
           Directory solicitations. Fraudulent solicitation in the guise of invoices for advertisement or
           renewal in business directories.
           Distributorships. Pyramid schemes in which it is mathematically impossible for all participants
           to recoup their investments. The emphasis is not on the sale of the product, but on getting oth-
           ers to participate.
           Employment. Soliciting money for information or assistance in obtaining nonexistent or mis-
           represented jobs.
           False billings. Mailing solicitation in the guise of billings.
           Fraud against government agencies. Any scheme that attempts to defraud a government agency
           except the Postal Service.
           Fraud against Postal Service. Any scheme that attempts to defraud the Postal Service.
           Insurance. Investigations of insurance-related fraud involving false claims, false advertising on
           the availability of insurance, or the collection of premiums for nonexistent policies.
           Investments. Misrepresented opportunities to invest in commodities gems, metals, stocks,
           bonds, certificates of deposit, mutual funds, IRAs, coins, stamps, art, etc.
           Loans. Mailings soliciting money for information on nonexistent or misrepresented loans.
           Lottery. Advertisements seeking money or property by mail for participation in schemes to win
           prizes through chance.
           Medical. Sales by mail of misrepresented health products or services, including fraudulent med-
           ical degrees.
           Memberships. Failure to provide services advertised in connection with organization membership.
           Merchandise failure to furnish. A mail order operator that does not provide ordered merchandise.
           Merchandise failure to pay. Mail order merchandise that is acquired without providing payment.
           Merchandise misrepresentation. Mail order merchandise or services that are materially misrep-
           resented in advertising.
           Miscellaneous. Any other scheme not described in a specific category.
           Solicitations. Fraudulent solicitation of funds through the mail for alleged charitable, religious,
           minority-oriented groups, and similar cases or organizations.
           Travel. Fraudulent vacation or travel opportunities.
           Work at home. Schemes, such as envelope stuffing, that do not provide home employment.




PAGE 136   APPENDICES
APPENDIX G

Criminal Statistics
For the period October 1, 1999, through March 31, 2000
OFFICE OF INSPECTOR GENERAL
                                                                                                        7
Type of Investigation                                                 Arrests             Convictions
Revenue & Cost Containment
 Revenue Protection                                                        9                  1
OIG TOTALS8                                                                9                  1



INSPECTION SERVICE
                                                                                                        7
Type of Investigation                                                 Arrests             Convictions
Revenue & Asset Protection Program
 Expenditure Investigations                                                1                 8
 Financial Investigations                                                169               159
 Workers' Compensation Fraud                                              29                33
 Revenue Investigations                                                   59                45
Robbery                                                                   34                56
Burglary                                                                  91                85
Miscellaneous External Crimes
 Includes counterfeit and contraband postage, money order
  offenses, vandalism and arson                                          356               264
Assaults Against Employees
 Includes threats and assaults against on-duty postal employees          230               181
Employee Narcotics Cases
 Includes employees and non-employees selling narcotics on
  postal property                                                         13                 20
Mail Theft by Employees
 Includes theft and possession of stolen mail                            404               368
Mail Theft by Non-Employees or Contractors
 Includes theft and possession of stolen mail                          2,522              1,997
Miscellaneous Employee Crimes
 Includes theft of postal property and sabotage of equipment              42                 46
Bombs/Explosive Devices                                                   39                 34
Mailing of Controlled Substances
 Includes hazardous material, firearms and weapons, intoxicants,
  explosives other than bombs, extortion and false documents             804               569
Child Exploitation, Mailing of Obscene Matter and
 Sexually Oriented Advertisements                                        112               108
Mailing of Miscellaneous Nonmailables
 Includes hazardous material, firearms and weapons, intoxicants,
  explosives other than bombs, extortion and false documents              34                20
Mail Fraud                                                               827               715

INSPECTION SERVICE TOTALS8                                            5,766              4,708

GRAND TOTALS                                                          5,775              4,709




7
 Convictions reported in this time frame may be related to arrests made in prior reporting periods.
8
 Arrests and convictions include joint investigations with other federal law enforcement agencies.


                                                                                                            PAGE 137
           APPENDIX H (PROTOTYPE)

           Summary of Postal Service Investigative
           Activities Under 39 USC § 3013
           The Postal Reorganization Act requires the Postmaster General to furnish information on the
           investigative activities of the Postal Service on a semiannual basis. With passage of the Deceptive
           Mail Prevention and Enforcement Act in December 1999, the Postal Service’s reporting obligations
           were changed. These changes will have a significant impact on the OIG’s oversight of the
           Inspection Service and the manner in which the OIG will fulfill its semiannual reporting obligations.
           The act requires the Postal Service to submit its semiannual report to the OIG rather than to the
           Board of Governors, expands the subject matter that must be reported, and revises the reporting
           schedule to coordinate with the OIG Semiannual Report to Congress. The information in the
           report includes actions directed at combating crimes involving the mail; costs and expenditures
           devoted to Postal Service investigative activities; use of the newly-conferred subpoena power;
           and any additional information the OIG may require. This change in reporting requirements is
           effective for the reporting period beginning April 1, 2000, and will be reported in future
           Semiannual Reports to Congress as shown in this prototype appendix.
           The following outline describes the significant reporting obligations required under 39 USC §
           3013.

           ABUSE OF MAILS
           (39 USC § 3013(1), (2), and (3))
           This section presents:
           • Proceedings instituted or resolved under 39 USC § 3005 during the reporting period;
           • Cases involving exercise of authority granted under 39 USC § 3005(e); and
           • Activities of the Postal Service seeking injunctions to temporarily detain mail.

           SWEEPSTAKES SUBPOENAS
           (39 USC § 3013(5))
           Detailed discussions of each case in which the Postal Service exercised its subpoena authority in
           investigating cases of alleged illegal and deceptive sweepstakes offerings.

           FINANCIAL REPORTING ON INVESTIGATIVE ACTIVITIES
           (39 USC § 3013(4))
           Financial information related to conducting Postal Service investigative activities.

           MISCELLANEOUS ACTIVITIES
           (39 USC § 3013(6))
           All other additional information which the OIG may require.




PAGE 138   APPENDICES
                   ,




THIS PAGE TEARS OUT FOR YOUR CONVENIENCE
NOTES
NOTES
NOTES
NOTES
US Postage Stamps
ISSUED FROM APRIL 1, 1999 THROUGH SEPTEMBER 30, 1999
PAGE
3   UNCLE SAM – colorfully depicts “Uncle Sam” on a stamp used for second-
    ounce postage.
16 HOLIDAY CELEBRATION: HANUKKAH- celebrates the Jewish Festival
   of Lights, the first stamp jointly issued between two countries.
18 YEAR 2000 – serves as a historical record of a unique period of time in our
   country with a traditional image of a baby ringing in the New Year.
20 INSECTS AND SPIDERS – celebrates National Stamp Collecting Month
   with life-like depictions of 16 crawling insects and four spiders.
42 VIVARINI’S MADONNA AND CHILD – captures the warmth of the holi-
   day season through the use of Bartolomeo Vivarini’s masterpiece, Madonna
   and Child, painted during the 15th century.
46 HOLIDAY CONTEMPORARY: DEER – features a fleet-footed deer pranc-
   ing across a colorful background as a token of holiday friendship, cheer, and
   goodwill.
62 GRAND CANYON – recognizes one of the Nation’s beautiful landmarks,
   part of a series of four scenes that depicts “Americana.”
76 LUNAR NEW YEAR: DRAGON – celebrates the Year of the Dragon, the
   eighth in the Lunar New Year Commemorative series.
83 NORTH ATLANTIC TREATY ORGANIZATION – honors the 50th
   anniversary of the founding of this organization which formed an alliance of
   12 independent nations committed to one nation’s defense.
                                                                                    ACKNOWLEDGEMENTS
84 PACIFIC COAST RAIN FOREST – recognizes 26 animal and plant species
   common to the Pacific Northwest Rain Forest, the second in the “Nature of        This report represents the
   America” series.                                                                 outstanding efforts and
94 PATRICIA ROBERTS HARRIS – honors this woman for her steadfast                    accomplishments of OIG and
   determination and forthrightness, the 23rd American and seventh woman
   commemorated in the Black Heritage series.                                       Inspection Service staff. The
98 U.S. NAVY SUBMARINES – depicts five Navy submarines from different               production of this report would
   periods in submarine technology in appreciation of the dedication and valor of   not have been possible without
   our nation’s submarine force.
                                                                                    the contributions and dedication
101 OFFICIAL MAIL –
                                                                                    of the many OIG and Inspection
108 HOLIDAY CELEBRATION: KWANZAA – commemorates the African
    American seven-day celebration of family, community, and culture.               Service who contributed to this
                                                                                    effort, particularly Wayne
                                                                                    Goleski, Jim Crumpacker, Dan
                                                                                    Kenney, Allan Reid and Paula
                                                                                    Staub of OIG and Tom Denneny
                                                                                    of the Inspection Service.
OFFICE OF INSPECTOR GENERAL
        1735 N. Lynn Street
    Arlington, VA 22209-2020
          (703) 248-2300
        Fax: (703)248-2291
     Internet: www.uspsoig.gov
